<html>
<title> - TRANSPORTATION RESEARCH PRIORITIES: MAXIMIZING RETURN ON INVESTMENT OF TAXPAYER DOLLARS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                  TRANSPORTATION RESEARCH PRIORITIES:
          MAXIMIZING RETURN ON INVESTMENT OF TAXPAYER DOLLARS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 14, 2011

                               __________

                           Serial No. 112-23

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-923PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DAVID WU, Oregon
JUDY BIGGERT, Illinois               JOHN P. SARBANES, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             DANIEL LIPINSKI, Illinois
CHARLES J. ``CHUCK'' FLEISCHMANN,    GABRIELLE GIFFORDS, Arizona
    Tennessee                        BEN R. LUJAN, New Mexico
E. SCOTT RIGELL, Virginia                
RANDY HULTGREN, Illinois                 
CHIP CRAVAACK, Minnesota                 
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas















                            C O N T E N T S

                              Hearing Date

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     8

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Peter Appel, Administrator, Research and Innovative 
  Technology Administration, U.S. Department of Transportation
    Oral Statement...............................................    12
    Written Statement............................................    14

Mr. John Halikowski, Director, Arizona Department of 
  Transportation; Chair, American Association of State Highway 
  and Transportation Officials Standing Committee on Research
    Oral Statement...............................................    17
    Written Statement............................................    18

Mr. David Gehr, Senior Vice President, Highway Market, Parsons 
  Brinckerhoff; Chairman, American Society of Civil Engineers 
  Transportation Policy Committee
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Irwin Feller, Professor Emeritus of Economics, Pennsylvania 
  State University; Senior Visiting Fellow, American Association 
  for the Advancement of Science
    Oral Statement...............................................    34
    Written Statement............................................    36

Ms. Lynn Peterson, Transportation Policy Advisor, Office of 
  Governor John Kitzhaber (OR)
    Oral Statement...............................................    42
    Written Statement............................................    44

             Appendix I: Answers to Post-Hearing Questions

The Honorable Peter Appel, Administrator, Research and Innovative 
  Technology Administration, U.S. Department of Transportation...    66

Mr. John Halikowski, Director, Arizona Department of 
  Transportation; Chair, American Association of State Highway 
  and Transportation Officials Standing Committee on Research....    72

Mr. David Gehr, Senior Vice President, Highway Market, Parsons 
  Brinckerhoff; Chairman, American Society of Civil Engineers 
  Transportation Policy Committee................................    74

Dr. Irwin Feller, Professor Emeritus of Economics, Pennsylvania 
  State University; Senior Visiting Fellow, American Association 
  for the Advancement of Science.................................    75

Ms. Lynn Peterson, Transportation Policy Advisor, Office of 
  Governor John Kitzhaber (OR)...................................    76

            Appendix II: Additional Material for the Record

Material Submitted by Representative Randy Neugebauer, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    80


 
                  TRANSPORTATION RESEARCH PRIORITIES:
          MAXIMIZING RETURN ON INVESTMENT OF TAXPAYER DOLLARS

                              ----------                              


                         TUESDAY, JUNE 14, 2011

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                     U.S. HOUSE OF REPRESENTATIVES

                  Transportation Research Priorities:

                   Maximizing Return on Investment of

                            Taxpayer Dollars

                         tuesday, june 14, 2011
                         10:00 a.m.--12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Tuesday, June 14, 2011, the Subcommittee on Technology and 
Innovation will convene a hearing to review the research, development, 
and technology (RD&T) activities of the Department of Transportation. 
The hearing will focus on issues related to the funding and 
prioritization of current research initiatives and how to maximize the 
efficiency of these activities. With the expiration of SAFETEA-LU in 
fiscal year 2009, this hearing will also examine research issues to 
inform the current Federal surface transportation reauthorization 
effort.

II. Witnesses

    <bullet>  The Honorable Peter Appel, Administrator, Research and 
Innovative Technology Administration, U.S. Department of Transportation

    <bullet>  Mr. John Halikowski, Director, Arizona Department of 
Transportation; Chair, American Association of State Highway and 
Transportation Officials Standing Committee on Research

    <bullet>  Mr. David Gehr, Senior Vice President, Highway Market, 
Parsons Brinckerhoff; Chairman, American Society of Civil Engineers 
Transportation Policy Committee

    <bullet>  Dr. Irwin Feller, Professor Emeritus of Economics, 
Pennsylvania State University; Senior Visiting Fellow, American 
Association for the Advancement of Science

    <bullet>  Ms. Lynn Peterson, Transportation Policy Advisor, Office 
of Governor John Kitzhaber (OR)

III. Brief Overview

    The Department of Transportation (DOT) annually supports more than 
$600 million in research, development, and technology deployment (RD&T) 
activities focused on surface modes of transportation (rail, transit, 
motor carrier and highway). DOT characterizes research funding into 
three main categories: applied, development, and technology. The first 
two categories are pre-implementation stage work, while the technology, 
or ``T'' classification, implies that funds are being used for 
technology deployment or field demonstration.
    Secretary Ray LaHood's DOT priorities are organized around five 
strategic goals: safety, state of good repair, economic 
competitiveness, livable communities, and environmental sustainability. 
Several plans have provided strategic direction for the Department. 
DOT's most recent strategic plan, ``New Ideas for a Nation on the 
Move'' provided goals for fiscal years 2006-2011. In 2006, the Research 
and Innovative Technologies Administration (RITA), the research 
coordination body of DOT, produced ``The Transportation, Research, 
Development, and Technology Strategic Plan for 2006 to 2010.'' The 
plan, mandated by the surface highway reauthorization bill passed in 
2005 (PL-109-59, ``SAFETEA-LU''), established a five-year pathway for 
DOT research activities. The Transportation Research Board, a part of 
the National Research Council, reviewed the plan and identified a 
number of strengths and weaknesses. One area of concern was that the 
plan did not ``explain how the varied missions of DOT and its operating 
agencies influence the RD&T portfolio.'' DOT does not have a current 
strategic plan for the Department or specific to RD&T activities, and 
current research priorities are not easily quantified or characterized. 
A draft strategic plan was made available for public comment in May 
2010, but has not been finalized.
    In November 2008, the Transportation Research Board produced a 
report titled, ``The Federal Investment in Highway Research 2006-2009: 
Strengths and Weaknesses.'' The Board made a number of recommendations 
for change to highway research programs, including improved engagement 
of the research community in the priority-setting process and 
subjecting research programs to merit-review.
    The hearing will explore whether the research activities of DOT are 
well-executed and integrated across the Department, and how to 
efficiently address the long-term research and technology needs of the 
country. In particular, the relationship between states and the Federal 
government will be explored. The pending surface transportation 
reauthorization presents an opportunity to ensure transportation RD&T 
activities are aligned with national transportation priorities and to 
examine how the priorities will further the states' ability to 
incorporate transformational research results into their transportation 
systems.

IV. Background

    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), which became law in August 2005, 
was the last comprehensive Federal surface transportation 
reauthorization bill. Since that authorization expired in fiscal year 
2009, a series of extensions have been enacted to continue funding for 
programs. The most recent extension, the Surface Transportation 
Extension Act of 2011 (Public Law 112-5) extended surface 
transportation programs through September 30, 2011.
    The DOT surface RD&T endeavor is conducted by a host of multi-modal 
Administrations. Those Administrations include the Federal Highway 
Administration (FHWA), the Federal Transit Administration (FTA), the 
National Highway Traffic Safety Administration (NHTSA), the Federal 
Railroad Administration (FRA), and the Federal Motor Carrier Safety 
Administration (FMCSA). In addition, the Research and Innovative 
Technology Administration (RITA) conducts a small amount of internal 
research and primarily facilitates and supports coordination of 
research efforts across the DOT.

   Department of Transportation Research, Development and Technology 
                           (RD&T) Activities*

        Research and Innovative Technology Administration (RITA)

    RITA is responsible for planning, coordination, facilitation, and 
review of DOT's research programs. The request includes $17.6 million 
for RITA to conduct a small amount of internal research and to 
coordinate research programs across the agencies. RITA oversees the 
following programs, which are funded out of other Administration's 
accounts:


----------------------------------------------------------------------------------------------------------------
                Research Area (and source of funding)                          FY 2012 Request (millions)
----------------------------------------------------------------------------------------------------------------
Intelligent Transportation Systems (FHWA)                              $110.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Univ. Transportation Center (UTC) Program (FHWA, FTA)                   $100.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Competitive UTC Consortia (FHWA, FTA)                                   $80.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Bureau of Transportation Statistics (FHWA)                              $35.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
UTC Multimodal Competitive Research Grants (FHWA)                       $20.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Multimodal Innovative Research Program (FHWA)                           $20.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Transportation Safety Institute (fee for service)                       --
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Volpe National Transportation Systems Center (fee for service)          --
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                Research Area (and source of funding)                          FY 2012 Request (millions)
----------------------------------------------------------------------------------------------------------------
Structures (improving and maintaining infrastructure)                  $75.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Planning, Environment, and Realty (environmental research, project     $35.0
 delivery improvement initiatives, asset management)
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Highway Operations (research to improve movement of people and goods)   $25.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Safety                                                                  $25.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Next Generation Research & Technology                                   $22.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------
Policy (analysis on emerging domestic and international issues)         $18.0
                                                                       .........................................
----------------------------------------------------------------------------------------------------------------


    FHWA also funds the Future Strategic Highway Research Program (SHRP 
II), administered by the Transportation Research Board, which is a 
multi-year research effort focused on moving transportation research to 
deployment in the field in order to reduce congestion, improve highway 
safety, and rehabilitate aging infrastructure. While no funds were 
requested to continue the program in FY 2012, the last enacted funding 
was $50 million in FY 10.

                  Federal Transit Administration (FTA)

    FTA's FY 12 National Research & Technology Deployment request is 
$129.2 million. When funding for implementation and deployment is 
removed, the total amount focused on research and development is about 
$40 million. FTA's requested research and development activities in FY 
12 include: Innovative safety research, industry analysis research, 
rail programs and infrastructure research, transit standards 
development, and transit planning and forecasting research under the 
National Program ($14.5M); transit-focused University Transportation 
Centers Program ($8.0M); Clean Fuels and Environmental Research 
($14.8M); Greenhouse Gas and Energy Reduction Deployment and 
Demonstration Programs. $10 million would be provided for two transit 
agencies to serve as ``test beds,'' and $65 million for demonstration 
activities ($75.0M).

         National Highway Traffic Safety Administration (NHTSA)

    NHTSA's FY 12 request for Research and Analysis is $78.2 million 
which includes: Crashworthiness Research ($21.4M), Crash Avoidance 
Research ($12.7M), and Alternative Fuels Vehicle Safety ($1.5M). 
Additionally, $13 million is requested for Highway Safety Research.

                 Federal Railroad Administration (FRA)

    The FRA Core R&D request of $40 million includes funding for: 
railroad systems, human factors, track and train interaction, HAZMAT 
travel, and the National Cooperative Rail Research Program, among other 
areas. Additionally, $50 million is requested for High-Speed Rail R&D. 
These funds are to address safety risks and fund new technology.

          Federal Motor Carrier Safety Administration (FMCSA)

    The FMCSA RD&T program request for FY 2012 is $11.6 million. The 
request includes the following research and development activities: 
Produce Safer Drivers ($2.4M), Improve Safety of Commercial Vehicles 
($200,000), Produce Safer Carriers ($1.1M), and Enable and Motivate 
Internal Excellence ($700,000).

V. Major Issues and Concerns

         DOT Prioritization of Research and Performance Metrics

    The current amount DOT spends on research to support surface 
programs is approximately one percent of federal expenditures on 
highways. Questions remain as to whether this is a sufficient amount, 
and whether the long-term research needs of the nation are being 
adequately addressed. In addition, the current strategic priorities for 
the DOT, which impact all programs, may not be well-aligned with the 
needs of stakeholders. Components such as livable communities, 
environmental sustainability, and economic competitiveness remain ill-
defined, amorphous, and difficult to measure, especially as they relate 
to research programs. There are no Federal performance standards to 
guide states or standardized reporting metrics. Without a means for 
states to prove the effectiveness of their programs, and without the 
DOT requiring such justification coupled with clear strategic goals, it 
is challenging to ensure that federal funds are being used as 
efficiently and effectively as possible.

       Competitive Funding and University Transportation Centers

    The practice of earmarking funding in the surface transportation 
bill has expanded in recent reauthorization measures. The 2005 SAFETEA-
LU legislation contained over 5,600 earmarks accounting for $21.7 
billion in the highway title alone. Some transportation groups have 
opposed the practice of earmarking, arguing it constrains DOT's ability 
to invest strategically in RD&T. In fact, SAFETEA-LU's research title 
earmarked more funding than was authorized by the title, so several 
research programs and projects were unable to be funded until a 
technical corrections Act was passed in 2008 to fix the research 
funding shortfall.
    SAFETEA-LU provided about $70 million annually to support 
University Transportation Centers (UTCs) across the country. The act 
authorized an expansion in the number of UTCs from 33 to 60 UTCs, 20 of 
which were competitively selected. All UTCs require a portion of state 
matching funds, conduct basic and applied university-based 
transportation research, and are managed by RITA. Secretary LaHood 
recently made the decision, based on authority provided to DOT under 
the last extension bill (P.L. 112-5), to cease funding for all of the 
existing 59 UTCs and reform the program into a competitive, consortium-
based system. Several other research programs funded through RITA, FTA, 
and FHWA also will not receive funding in FY 11 as a result of the 
Secretary's decision. For FY 2011, UTC applicants will be required to 
apply in consortia of at least two institutions of higher education. 
The UTC program has been cited as valuable to transportation research, 
as well as underutilized by DOT and overly focused on highly applied 
research instead of advanced research to support national 
transportation needs.

                      Highway Trust Fund Solvency

    The current highway research programs have been funded through a 
series of extensions, which have transferred sums from the general 
fund. Driving has declined significantly in the last decade and 
vehicles have become more fuel efficient. Consequently, at the current 
rate of 18.4 cents per gallon, set in 1993, the Highway Trust Fund is 
no longer covering all of the surface transportation expenses. To 
remain solvent, the highway account has already required three 
transfers from the general fund totaling $29.7 billion. The most recent 
transfer of $14.7 billion in 2010 is expected to keep the account 
solvent through sometime in 2013. A means of adding more funds to the 
trust fund must be found, or the size of programs supported by DOT must 
decrease. In the current budget environment it is unclear whether the 
most viable path forward is to restore the solvency of the fund or to 
address financing needs in other ways.

    Chairman Quayle. The Subcommittee on Technology and 
Innovation will come to order. Good morning, everybody. Welcome 
to today's hearing entitled, ``Transportation Research 
Priorities: Maximizing Return on Investment of Taxpayer 
Dollars.'' In front of you are packets containing the written 
testimony, biographies, and truth in testimony disclosures for 
today's witness panel.
    I will now recognize myself for five minutes for an opening 
statement.
    The research and development activities at the Department 
of Transportation are vital to the Nation's prosperity. These 
efforts support critical infrastructure and enhance both our 
economic competitiveness and our way of life. The pathway 
forward for these programs continues to present significant 
challenges for Congress. We need to ask difficult questions to 
determine how best to address the issues facing our aging 
infrastructure within the limitations of our current budget 
environment.
    The DOT annually supports more than $600 million in 
research, development, and technology deployment activities 
focused on surface modes of transportation. These programs were 
last authorized in 2005, and are primarily supported through 
the Highway Trust Fund and Mass Transit Fund. However, since 
2009, funding shortfalls have required us to transfer nearly 
$30 billion from the general fund to maintain all of our 
highway programs.
    Advancements in materials and technology can help achieve 
long-term cost savings by reducing congestion and improving the 
durability and lifespan of our transportation projects. It is, 
therefore, critical that we find a way to maintain a healthy, 
substantive research base behind our state and local 
transportation initiatives.
    Concerns have been raised about how research priorities are 
identified and the means used to quantify and measure 
performance. Today's hearing provides an opportunity for us to 
examine if our research activities are well-executed and 
integrated across the Department and whether they are 
efficiently addressing the long-term research and technology 
needs of the country.
    I would like to thank our witnesses for coming here today 
and for sharing your thoughts on how to improve our 
transportation networks and research activities. I look forward 
to starting a dialogue with you today and hope you will 
continue to work with us to maximize the effectiveness of these 
programs as we attempt to reauthorize our federal surface 
transportation programs.
    [The prepared statement of Mr. Quayle follows:]
  Prepared Statement of the Subcommittee on Technology and Innovation 
                          Chairman Ben Quayle
    The research and development activities at the Department of 
Transportation (DOT) are vital to our nation's prosperity--these 
efforts support critical infrastructure, and enhance both our economic 
competitiveness, and way of life. The pathway forward for these 
programs continues to present significant challenges for Congress. We 
need to ask difficult questions to determine how best to address the 
issues facing our aging infrastructure within the limitations of our 
current budget environment.
    The DOT annually supports more than $600 million in research, 
development, and technology deployment (RD&T) activities focused on 
surface modes of transportation. These programs were last authorized in 
2005 and are primarily supported through the Highway Trust Fund and 
Mass Transit Fund. However, since 2009, funding shortfalls have 
required us to transfer nearly $30 billion from the general fund to 
maintain all of our highway programs.
    Advancements in materials and technology can help achieve long-term 
cost savings by reducing congestion, and improving the durability and 
lifespan of our transportation projects. It is therefore critical that 
we find a way to maintain a healthy, substantive research base behind 
our state and local transportation initiatives.
    Concerns have been raised about how research priorities are 
identified and the means used to quantify and measure performance. 
Today's hearing provides an opportunity for us to examine if our 
research activities are well executed and integrated across the 
Department, and whether they are efficiently addressing the long-term 
research and technology needs of the country.
    I would like to thank our witnesses for coming today and sharing 
your thoughts on how to improve our transportation networks and 
research activities. I look forward to starting a dialogue today, and 
hope you will continue to work with us to maximize the effectiveness of 
these programs as we attempt to reauthorize our federal surface 
transportation programs.

    Chairman Quayle. I would now like to recognize the Ranking 
Member of this Subcommittee, Mr. Wu, for an opening statement.
    Mr. Wu. Thank you, Chairman Quayle, for calling this 
hearing. I also want to thank our witnesses for appearing 
before the Subcommittee and for their assistance today in 
helping us assess what research and development needs should be 
addressed in any surface transportation reauthorization bill 
considered by this Congress.
    Since the last reauthorization the Subcommittee has 
examined a number of research and development challenges faced 
by DOT. For example, in 2009, we looked at ways to improve the 
planning and coordination of DOT's research agenda, strengthen 
technology transfer, and ensure that federally-funded research 
and development is meeting State and local transportation needs 
and mitigating the impact of the surface transportation system 
on the environment. It is important that we have some of these 
discussions again today because the transportation sector has 
an enormous impact on our lives and the economy.
    The average household in America spends 16 percent of its 
budget on transportation. In all, transportation-related goods 
and services contribute about $1.2 trillion to the U.S. 
economy.
    If we are committed to making our transportation system 
more reliable and more efficient and ensuring that 
transportation planners are wisely investing taxpayer dollars, 
we need to have a robust and effective transportation and 
research program.
    Therefore, I am pleased that this Subcommittee continues to 
take seriously its critical role in guiding DOT's research and 
development priorities while seeking input on the specific 
investments needed to see those priorities through to fruition.
    I also believe that we need to be talking more seriously 
about improving the energy efficiency of our entire 
transportation system. We should be asking questions like what 
modeling tools would help communities develop an effective, 
mixed-use transportation system of cars, buses, bicycles, light 
rail, and trolleys such as we have in Portland, Oregon. If we 
are serious about congestion mitigation and traffic management, 
what are the next steps towards realizing those goals and 
reducing the amount of time cars spend idling in traffic.
    Sustainability and energy efficiency are no longer just 
buzz words in transportation, in the transportation community. 
They are crucial components of a working national 
transportation infrastructure. Building more roads is not the 
only answer. We must use our resources carefully and plan 
strategically, and that requires a commitment to finding simple 
and innovative ways to increase the productivity and longevity 
of our transportation systems.
    I am proud that my congressional district has been at the 
forefront of this endeavor, implementing and operating a 
transportation infrastructure that serves as a national model 
of integrated energy efficiency and sustainability. The State 
and local departments of transportation in Oregon have worked 
effectively to implement truly innovative solutions to our 
transportation challenges using a diverse set of technologies 
including a transit signal priority project that greatly 
reduces idling for buses by linking onboard computers to 
traffic lights, sensory ramp meters that cut congestions on our 
freeways, and real time digital dissemination of traffic 
information to travelers so that they can avoid backups.
    These efforts are coordinated regionally, not just city by 
city, so that the energy savings benefit taxpayers throughout 
the area.
    Ms. Lynn Peterson, who is the Sustainable Communities and 
Transportation Policy Advisor to the governor of the State of 
Oregon, is here to tell us more about how the research and 
policy communities collaborate to make these projects a 
reality. The Committee on Science, Space, and Technology will 
play an important role in defining our transportation research 
priorities for the future. I am confident that today's 
witnesses will give us some solid ideas for moving 
transportation research forward, and I look forward to their 
testimony.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Wu follows:]
             Prepared Statement of Ranking Member David Wu
    Thank you, Chairman Quayle, for calling this hearing. I also want 
to thank our witnesses for appearing before the Subcommittee and for 
their assistance today in helping us assess what research and 
development needs should be addressed in any surface transportation 
reauthorization bill considered by Congress.
    Since the last reauthorization, this Subcommittee has examined a 
number of research and development challenges faced by the Department 
of Transportation.
    For example, in 2009, we looked at ways to:

    <bullet>  improve the planning and coordination of DOT's research 
agenda;

    <bullet>  strengthen technology transfer and ensure that federally 
funded research and development is meeting state and local 
transportation needs;

    <bullet>  and mitigate the impact of the surface transportation 
system on the environment.

    It's important that we have some of these discussions again today, 
because the transportation sector has an enormous impact on our lives 
and the economy. In fact, the average household spends 16 percent of 
its budget on transportation. In all, transportation-related goods and 
services contribute about $1.2 trillion to the U.S. economy.
    If we are committed to making our transportation system more 
reliable and more efficient, and ensuring that transportation planners 
are wisely investing taxpayer dollars, we need to have a robust and 
effective transportation research program. Therefore, I am pleased that 
this Subcommittee continues to take seriously its critical role in 
guiding DOT's research and development priorities, while seeking input 
on the specific investments needed to see those priorities through to 
fruition.
    I also believe that we need to be talking more seriously about 
improving the energy efficiency of our entire transportation system. We 
should be asking questions like:

    <bullet>  What modeling tools would help communities develop an 
effective mixed-use transportation system of cars, buses, bikes, light 
rail, and trolleys like we have in Portland, Oregon?

    <bullet>  If we are serious about congestion mitigation and traffic 
management, what are the next steps toward realizing those goals and 
reducing the amount of time cars spend idling in traffic?

    Sustainability and energy efficiency are no longer just buzzwords 
in the transportation community. They are crucial components of a 
working national transportation infrastructure. Building more roads is 
not the only answer. We must use our resources carefully and plan 
strategically--and that requires a commitment to finding simple and 
innovative ways to increase the productivity and longevity of our 
transportation systems.
    I'm proud that the 1st District of Oregon has been at the forefront 
of this endeavor, implementing and operating a transportation 
infrastructure that serves national model of integrated energy 
efficiency and sustainability.
    The state and local departments of transportation in Oregon have 
worked effectively to implement truly innovative solutions to our 
transportation challenges using a diverse set of technologies 
including:

    <bullet>  a transit signal priority project that greatly reduces 
idling for buses by linking on-board computers to traffic lights;

    <bullet>  sensory ramp meters that cut congestion on our freeways;

    <bullet>  and real-time digital dissemination of traffic 
information to travelers so they can avoid backups.

    These efforts are coordinated regionally, not just city by city, so 
that the energy savings benefit taxpayers throughout the area.
    Ms. Lynn Peterson, who is the Sustainable Communities and 
Transportation Policy Advisor to the Governor of the State of Oregon, 
is here to tell us more about how the research and policy communities 
collaborate to make these projects a reality.
    The Committee on Science, Space, and Technology will play an 
important role in defining our transportation research priorities for 
the future. I'm confident that today's witnesses will give us some 
solid ideas for moving transportation research forward and I look 
forward to their testimony. Thank you, Mr. Chairman. I yield back the 
balance of my time.

    Chairman Quayle. Thank you, Mr. Wu. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our witness panel. 
Our first witness is Mr. Peter Appel, Administrator of the 
Research and Innovative Technology Administration at the 
Department of Transportation. Next we will hear from Mr. John 
Halikowski from the great State of Arizona, where he is the 
Director of the Arizona Department of Transportation and Chair 
of the American Association of State Highway and Transportation 
Officials Standing Committee on Research.
    Our third witness is David Gehr, a Senior Vice President at 
Parsons Brinckerhoff and Chairman of the Transportation Policy 
Committee at the American Society of Civil Engineers. Our next 
witness is Dr. Irwin Feller, Professor Emeritus of Economics at 
Penn State and the Senior Visiting Fellow for the American 
Association for the Advancement of Science.
    I now yield 2 minutes to the Ranking Member, Mr. Wu, to 
introduce our final witness, Ms. Peterson.
    Mr. Wu. Thank you very much, Mr. Chairman, and I am happy 
to introduce a fellow Oregonian, someone I have worked with in 
the past and have enjoyed working with, Ms. Lynn Peterson.
    Ms. Peterson currently serves as Governor Kitzhaber's 
Sustainable Communities and Transportation Policy Advisor. She 
is the former Chair of the Clackamas County Commission and a 
nationally-recognized transportation and land use integration 
expert. In her role with the governor's administration, Ms. 
Peterson leads the governor's policy efforts on transportation 
initiatives, including high-speed rail, freight, highway 
planning and improvement, the solar highway, and linking 
transportation to housing and sustainability.
    Prior to serving on the Clackamas County Commission, Ms. 
Peterson worked as a Transportation Consultant and as a 
Strategic Planning Manager for TriMet. She also was a 
Transportation Advocate for 1,000 Friends of Oregon and a 
Transportation Planner for Metro.
    I would like to thank Ms. Peterson for coming all the way 
across the country, a trip with which I am more familiar than I 
want to be, and for dedicating her career for building safe and 
healthy communities.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, Mr. Wu. As our witnesses should 
know, your spoken testimony is limited to five minutes each, 
after which the Members of the Committee will have five minutes 
each to ask questions.
    We are going to start it off. I will now recognize our 
first witness, Mr. Peter Appel.

             STATEMENT OF THE HON. PETER H. APPEL,

             ADMINISTRATOR, RESEARCH AND INNOVATIVE

                   TECHNOLOGY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Appel. Thank you, Chairman Quayle, Ranking Member Wu, 
and Members of the Subcommittee. On behalf of Secretary Ray 
LaHood, I would like to thank you for the opportunity to appear 
here today to discuss the research, development, and technology 
priorities of the U.S. Department of Transportation.
    It will come as no surprise to this Subcommittee that the 
research, development, and technology priorities of the 
Department are the same as the strategic objectives for 
American transportation that Secretary LaHood has set forth. 
Our first priority is safety, and our additional priorities are 
the state of good repair, economic competitiveness, livable 
communities, and environmental sustainability.
    I am privileged to lead the Research and Innovative 
Technology Administration or RITA, which guides the development 
of research and technology priorities and their coordination 
across the Department. At RITA we seek to implement the 
research and development programs in the most effective means 
possible, conducting research that advances national 
transportation goals and is deployable, while ensuring that the 
various operating administrations across the Department do not 
duplicate research efforts but rather find synergies across 
them.
    RITA works to identify synergies and opportunities for 
collaboration in support of the Department's priorities. An 
example of this is RITA has pulled together all of the human 
factors experts across the Department to address crucial safety 
issues involving operator fatigue, no matter what mode of 
transportation.
    Setting research priorities starts with the Research, 
Development, and Technology Planning Council, which I chair. 
The Council consists of my fellow heads of the Operating 
Administrations across the DOT and the Office of the Secretary. 
The Council sets forth guidance, oversees implementation, and 
identifies at a policy level the coordination that needs to 
occur to meet new challenges in research and technology.
    Our guidance is implemented through the RD&T Planning Team, 
which includes the Associate Administrators for research and 
the heads of research for each Operating Administration. The 
team discusses ongoing research activities, convenes clusters 
of researchers and program managers, facilitates research 
alignment with DOT priorities, and ensures that research we 
undertake has clear value and a path to deployment. We 
routinely interact with stakeholders to ensure that we have a 
coherent RD&T direction and that research has a champion 
willing to test, demonstrate, and deploy the results of our 
research.
    One of our closest partners is the American Association of 
State Highway and Transportation Officials represented here 
today by John Halikowski seated to my left. AASHTO routinely 
takes research results and incorporates them into AASHTO 
standards, guiding State and local transportation agencies in 
improving planning, design, operations and maintenance.
    A key tool that RITA has deployed over this past year to 
accelerate collaboration are 14 scientific Research Clusters. 
Each cluster has a dedicated online collaboration portal which 
includes shared research, activities, searches through the 
National Transportation Library, and links to research stored 
in the Transportation Research Board's Transportation Research 
International Documentation and Research in Progress databases.
    RITA is the Department's lead on cross-cutting technology 
transfer activities as well. RITA's Technology Transfer Program 
seeks to move the Department's investment in research and 
technology into application and to facilitate 
commercialization. RITA hosts events to showcase research 
technologies developed by Departmentally-funded programs. Most 
recently on April 6 we hosted a University Research Technology 
Transfer Day at DOT Headquarters where about 25 universities 
from across the country demonstrated research they were doing 
that had a clear pathway to technology transfer and 
implementation and deployment.
    We have seen many DOT-funded research and technology 
results come to commercialization. Among these are several of 
which you may have heard such as the Solar Roadways Program, 
the unique concept to make roads out of recyclable solar 
panels. This program won the first GE Ecomagination Challenge 
and we are funding a phase II of this effort.
    Another example, innovative analytical methods to determine 
the best locations in the Chicago area for electric vehicle 
charging stations. These innovations are already being applied 
to other regions to support electric vehicle deployment. This 
research was conducted by the University Transportation Center 
at Northwestern University.
    The Engineered Material Arresting System that safely stops 
aircraft that overshoot the runway end. This is deployed at 
over 50 runway ends at over 35 major airports and has prevented 
seven significant accidents. Research was conducted at the FAA 
Hughes Technical Center.
    The Department is focused on working with our state and 
local partners to accelerate the deployment and acceptance of 
such technologies. With that I look forward to answering any 
questions you may have. Thank you.
    [The prepared statement of Mr. Appel follows:]

    Prepared Statement of The Honorable Peter Appel, Administrator,
           Research and Innovative Technology Administration,
                   U.S. Department of Transportation
Transportation Research Priorities: Maximizing Return on Investment of 
        Taxpayer Dollars
    Chairman Quayle, Ranking Member Wu, and Members of the 
Subcommittee:
    On behalf of Secretary Ray LaHood, I'd like to thank you for the 
opportunity to appear here today to discuss the research, development 
and technology priorities of the U.S. Department of Transportation.
    It will come as no surprise to this Subcommittee that the research, 
development and technology priorities of the Department are the same as 
the strategic objectives for American transportation that Secretary 
LaHood has set forth:

    <bullet>  Safety--our number one priority;

    <bullet>  State of Good Repair--optimal condition and performance 
of our infrastructure;

    <bullet>  Economic Competitiveness--targeted investments to better 
serve the traveling public and facilitate freight movement, while 
supporting American jobs and exports;

    <bullet>  Livable Communities--increasing travel choice and 
providing access to affordable transportation; and

    <bullet>  Environmental Sustainability--addressing transportation's 
impacts on air, water and natural ecosystems.

    As always, the Department seeks to implement our research and 
technology programs in the most effective means possible, conducting 
research that advances national transportation goals while ensuring 
that the various Operating Administrations of the Department do not 
duplicate research efforts. The organization I am privileged to lead, 
the Research and Innovative Technology Administration, or RITA, guides 
the development of research and technology priorities, and research 
coordination across the Department.
    RITA works to identify synergies and opportunities for 
collaboration in support of the Department's priorities. For example, 
RITA has pulled together all of the human factors experts across the 
Department to address the crucial safety issue of operator fatigue, no 
matter the mode.
    Setting research priorities starts with the Research, Development 
and Technology (RD&T) Planning Council, which I chair. The Council 
consists of my fellow heads of the Operating Administrations and key 
members of the Office of the Secretary. The Council sets forth 
guidance, oversees implementation, and identifies at a policy level the 
coordination that needs to occur to meet new challenges in research and 
technology. A recent example of this guidance is the creation of the 
DOT Safety Council, to share best practices and results in safety 
systems.
    Our guidance is implemented through the RD&T Planning Team, which 
includes the Associate Administrators for research in each Operating 
Administration. The Team meets monthly to discuss ongoing research 
activities, to convene clusters of researchers and program managers in 
specific disciplines, to facilitate research alignment with DOT 
priorities, and to ensure that research we undertake has clear value 
and has a path to deployment. The Team coordinates DOT research with 
non-DOT-funded research being conducted in the states, at universities, 
in the private and non-profit sectors, and through the Transportation 
Research Board (TRB). We routinely interact with these and other 
stakeholders to ensure that research has champions willing to test, 
demonstrate, and deploy the results of our research.
    A key tool that RITA has deployed over this past year to accelerate 
this collaboration are fourteen scientific ``Research Clusters.'' These 
Clusters were identified by the Team as the priority topics on which 
DOT researchers should collaborate with each other and with our 
external stakeholders. Each Cluster has a dedicated on-line 
collaboration portal which includes shared research, activities, 
searches through the National Transportation Library, and links to 
research stored on TRB's Transportation Research International 
Documentation and Research in Progress databases.

The fourteen Research Clusters currently include:

    <bullet>  Data Driven Decision-Making,

    <bullet>  Economics,

    <bullet>  Energy Sustainability,

    <bullet>  Human Factors,

    <bullet>  Infrastructure and Materials,

    <bullet>  Livability,

    <bullet>  Risk-Based Analysis to Address Safety Issues,

    <bullet>  Modeling and Simulation,

    <bullet>  Multimodal Intelligent Transportation Systems,

    <bullet>  Policy Analysis,

    <bullet>  Positioning, Navigation and Timing (PNT),

    <bullet>  System Resilience and Global Logistics,

    <bullet>  Transportation Implications For an Aging Population and 
Those With Special Needs, and

    <bullet>  Travel Behavior.

    RITA reaches out to other Federal agencies to address 
Administration research and technology priorities, and to make sure 
that our work on similar topics is complementary. For example, we serve 
on the interagency Biomass R&D Board, and recently hosted the 
Interagency Biofuels Infrastructure Workshop. We have significant 
interest in the Department of Energy's SmartGrid work, especially as it 
relates to electric vehicle deployment. Through our involvement at the 
National Science and Technology Council, we work on Administration 
priorities relating to technical standards policy and development, 
nanotechnology in materials, and wireless broadband deployment.
    RITA is the Department's lead on cross-cutting technology transfer 
activities. RITA's Technology Transfer program seeks to move the 
Department's investment in research and technology into application, 
and to facilitate commercialization. RITA hosts events to showcase 
research technologies developed by Departmentally-funded programs, most 
recently the April 6, 2011, University Research Technology Transfer Day 
at DOT Headquarters.
    We have seen many DOT-funded research and technology results come 
to commercialization--among these are several of which you may have 
heard:

    1.  A Small Business Innovation Research (SBIR) project resulted in 
``Solar Roadways,'' the unique concept to make roads out of recyclable 
solar panels. Solar Roadways won the first GE Ecomagination Challenge, 
and we are funding a Phase II SBIR project.

    2.  The Northwestern University Transportation Center is using 
innovative analytical methods to determine the best locations in the 
Chicago area for electric vehicle charging stations. These innovations 
are already being applied in other regions to support electric vehicle 
deployment.

    3.  The Federal Aviation Administration's (FAA) Hughes Technical 
Center tested the engineered material arresting systems that safely 
stop aircraft that overshoot the runway end. It is deployed at over 50 
runway ends at over 35 major airports, and has prevented seven major 
accidents.

    4.  Intelligent Transportation Systems (ITS) research has brought 
many improvements to daily transportation operations--traffic 
management centers, improved work zone safety, transit customer 
information services (like NextBus), electronic payment systems (like 
EZPass), and traveler information systems.

    Deployment is thoughtfully and continuously coordinated from the 
start of the innovation cycle with our stakeholders in state and local 
governments, port and airport authorities, transit agencies, and all of 
the industries that build and operate America's transportation systems. 
Each Operating Administration conducts a research planning process to 
identify their top priorities for future operational and safety 
improvements. These planning efforts are consistently coordinated with 
stakeholders, both to ensure that we are meeting the needs of the 
people actually operating the system, and to ensure deployment 
champions in the field. Because DOT research results range from new 
data analyses, to new designs and materials, to more effective 
operational methods, to technologies like Intelligent Transportation 
Systems and the Next Generation Air Transportation System, methods for 
coordination and deployment are scaled to suit.
    Much of our research is undertaken in response to Congressional 
mandate or National Transportation Safety Board (NTSB) recommendations 
and to other pressing safety issues, often to support new or refined 
safety regulations and guidance. We involve all parties from the 
beginning to the end of the innovation cycle to ensure that we are 
researching the best possible opportunities to resolve the safety 
issues, and that our results are deployable and economically effective 
in daily operations.
    The Department works closely with almost 100 Standards Developing 
Organizations (SDOs) to ensure that the results of our research and 
technology demonstrations are incorporated into the codes and standards 
that transportation operators use every day to work safely and 
efficiently. One of our closest partners in this effort is the American 
Association of State Highway and Transportation Officials (AASHTO), 
represented here today by John Halikowski. AASHTO routinely takes 
research results and incorporates them into AASHTO standards, guiding 
state and local transportation agencies in improving planning, design, 
operations and maintenance.
    The Department is focused on working with our state and local 
partners to accelerate the deployment and acceptance of new 
technologies. For example, the FHWA Every Day Counts Initiative is 
designed to identify and deploy innovation aimed at shortening project 
delivery time, enhancing roadway safety, and protecting the 
environment. A major pillar of Every Day Counts is to move effective, 
proven and market-ready technologies into widespread use. In support of 
our local partners, the FHWA's Local Technical Assistance Program and 
Tribal Technical Assistance Program enables counties, parishes, 
townships, cities, towns and tribal governments to improve their 
operations by supplying them with a variety of training programs, an 
information clearinghouse, technology updates, and customized technical 
assistance.
    Continued success in research and technology innovation and 
deployment requires us to keep what has worked, while continuing to 
find creative ways to break down barriers. The Administration supports 
the following goals:

    <bullet>  simplifying the existing surface transportation research 
program;

    <bullet>  maximizing research funding flexibility so that available 
resources are applied to Departmental and stakeholder priorities;

    <bullet>  using full and open competition, and peer review, to get 
the best possible researchers and technologists working on top 
priorities; and

    <bullet>  emphasizing performance-based management of programs.

    I would like to call your attention to specific innovation reforms 
which the Obama Administration supports:

    <bullet>  authorizing FHWA a technology and innovation deployment 
program, specifically to test, evaluate, and accelerate the delivery 
and deployment of technologies;

    <bullet>  allowing FHWA to increase research efficiency by 
expanding the authority to conduct research in collaboration with 
international partners;

    <bullet>  reorganizing RITA's University Transportation Centers 
program on a fully-competitive consortia model, to better leverage the 
intellectual capital created through the Federal investment in the 
important work of the universities;

    <bullet>  authorizing a Multimodal Innovative Research Program to 
competitively award advanced multimodal transportation research 
projects, facilitating practical innovative approaches to address 
systemic transportation problems; and

    <bullet>  enabling RITA's National Transportation Library to 
establish agreements with other transportation libraries and 
information centers, to improve the accessibility and exchange of high 
quality transportation information and data that support operations, 
policy development, and decision-making.

    Thank you for this opportunity to provide an overview of the 
Department's transportation research priorities. I look forward to 
answering any questions you may have.

    Chairman Quayle. Thank you very much.
    Mr. Halikowski, you are now recognized for five minutes.

               STATEMENT OF MR. JOHN HALIKOWSKI,

        DIRECTOR, ARIZONA DEPARTMENT OF TRANSPORTATION;

              CHAIR, AMERICAN ASSOCIATION OF STATE

              HIGHWAY AND TRANSPORTATION OFFICIALS

                 STANDING COMMITTEE ON RESEARCH

    Mr. Halikowski. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and Ranking Committee Member Wu, Members of the 
Committee, my name is John Halikowski. I am Director of the 
Arizona Department of Transportation and Chair of the Standing 
Committee of Research of the American Association of State 
Highway and Transportation Officials.
    On behalf of AASHTO, I want to express my appreciation for 
your focus on transportation research needs in the United 
States. In today's fiscally-challenging circumstances, 
particularly for state governments across the country, state 
departments of transportation rely heavily on research that 
leads to practical solutions to their most challenging 
problems.
    The return on today's dollar investment in research pays 
off many times into the future. Today I want to cover three 
points about transportation research and the need for strong, 
continued commitment and investment.
    First, it is critical that we retain the current, multi-
tiered research structure that has worked very well for us. 
Second, AASHTO has identified a number of high-priority policy 
areas where we believe that national research focus is needed, 
and last, it is critical to ensure that the discoveries made 
through research are communicated and transferred into 
practice.
    First, on our current research structure. There are 
numerous layers to the current research structure, funded by 
federal, state, and local dollars. This multi-layered and 
integrated structure has worked well in delivering strategic 
research that responds to the needs of the transportation 
industry.
    About one percent of the Federal Highway Program is spent 
on highway research by the Federal Highway Administration and 
the 50 States through their federally-funded State Planning and 
Research Program. This relatively small amount that we spend on 
research helps us to leverage the rest of the transportation 
program by providing us with solutions that improve the quality 
and efficiency of the system. Thus, in any consideration of 
future federal transportation research programs, this multi-
layered approach should be continued and supplemented.
    Through the existing multi-layered research structure, 
including the Transportation Research Board (TRB), and the 
states, we can support and complement strategic national 
transportation research with our own research efforts.
    Second, regarding the areas of research focus, the State 
DOTs through AASHTO have identified a number of research areas 
where coordinated, collaborative strategic policy research is 
needed. These areas are safety, performance management, 
interstate preservation, freight and economic competitiveness, 
accelerating project delivery and environmental streamlining, 
transportation funding, and finance.
    It is an appropriate role for the U.S. DOT to take a 
leadership role in undertaking strategic policy research in 
support of these national policy focus areas. Specific examples 
are contained in my written testimony.
    For you, however, I would like to highlight a few examples 
of high payoff, practical research in my home State of Arizona. 
ADOT has partnered with the University of Arizona to take our 
freeway management system real time, taking smart ramp metering 
to the next level. The use of this system will enable us to 
squeeze more capacity out of our system by increasing the 
throughput while improving safety, air quality, and reducing 
resource consumption.
    In another example, Arizona State Route 260 runs through 
one of the largest contiguous stands of Ponderosa pine in the 
world and is home to a large population of elk. ADOT partnered 
with the Arizona Game and Fish Department to record over 4,000 
animal crossings and over 100,000 location fixes using GPS-
colored elk to determine their preferred crossing locations. 
This has let us know exactly where we need to use fencing to 
channel the elk crossing to underpasses and thereby not only 
reducing wildlife vehicle collisions but also preserving the 
wildlife population and minimizing the State outlays needed.
    Lastly, it is the importance in transferring the findings 
of our research to transportation planners, engineers, 
designers, and contractors. U.S. DOT should embrace the latest 
methods to assist in technology transfer and implementation and 
be provided with the funding needed to share this information.
    For example, the use of web-based technologies, including 
webinars and interactive pages, web pages and online training 
and the Strategic Highways Research Program implementation 
funding needs to be provided for.
    We already know that research, properly transferred into 
practice, can make a difference in the way Americans move about 
the country. State DOTs stand ready to collaborate with you on 
this crucial effort.
    Again, thank you for the opportunity to testify before you, 
Mr. Chairman, Members, today. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Halikowski follows:]

Prepared Statement of Mr. John Halikowski, Director, Arizona Department
    of Transportation; Chair, American Association of State Highway
      and Transportation Officials Standing Committee on Research
    Chairman Quayle and Members of the Subcommittee, thank you for the 
opportunity to testify on Transportation Research Priorities for the 
next surface transportation authorization bill. My name is John S. 
Halikowski, Director of the Arizona Department of Transportation, and 
today I am speaking on behalf of the American Association of Highway 
and Transportation Officials (AASHTO) which represents the state 
departments of transportation (DOTs) in all 50 states, Washington, DC. 
and Puerto Rico. I serve as Chairman of AASHTO's Standing Committee on 
Research.
    On behalf of AASHTO, I want to express our appreciation to you, 
Chairman Quayle for your recognition of the value of a strong federal-
state partnership in conducting and deploying the results of 
transportation research.
    Mr. Chairman, in your invitation to me, you posed a number of 
questions. In response, today I want to focus my remarks around the 
following general points:

    <bullet>  The current national framework, structure and process for 
identifying transportation research needs, conducting and disseminating 
research, and partnering for transferring technology works well and 
should be sustained.

    <bullet>  In the context of this framework, there are ample 
opportunities for all stakeholders to identify research needs, 
participate in overseeing research studies and have access to research 
results

    <bullet>  In 2008, AASHTO's Board of Directors adopted policy 
priorities for reauthorization of the Safe, Accountable, Flexible, and 
Efficient Transportation Equity Act: A Legacy for Users--SAFETEA LU 
(Public Law 109-59). While those policies remain priorities for AASHTO, 
we have updated and refined our policy recommendations for the national 
research program to reflect a fiscal environment that is much more 
constrained than we anticipated or planned for nearly three years ago.

    <bullet>  Through AASHTO's various standing committees, current 
detailed research needs and gaps have been identified along with 
opportunities for addressing those needs.

The Current National Framework for Research: An Overview

    To build, maintain and expand its vast, multimodal transportation 
system the United States has long relied on the fruits of research--
innovations in planning, materials, construction methods, system 
operation, organizational effectiveness and many other areas. 
Innovation through research allows state agencies-even with today's 
fiscally challenging circumstances--to efficiently deliver a safe, 
reliable and sustainable transportation system while continuously 
improving facilities and services.
    The federal government's support and funding for transportation 
research has been steady over many decades dating back at least to the 
1893 formation of the Office of Road Inquiry in the U.S. Department of 
Agriculture. \1\ However, by any measure--across industries or 
countries--the U.S. transportation community invests very modest 
resources in research and innovation. A substantial return on 
investment from smarter, better, and longer-lasting transportation can 
easily be documented in terms of such factors as more durable 
infrastructure and improved operations. But the benefits extend far 
beyond the easily quantified to lives saved, a greener transportation 
system and improved quality of life.
---------------------------------------------------------------------------
    \1\ Transportation Research: Value to the Nation--Value to the 
States, 2008.
---------------------------------------------------------------------------
    Transportation research in the U.S. is a complex and decentralized 
array of interrelated programs. This reflects the decentralized nature 
of the transportation system itself, which includes local, regional, 
state and federal operators and agencies, and involves many 
stakeholders--the U.S. Congress and Department of Transportation (U.S. 
DOT), state departments of transportation, local and regional 
governments and planning agencies, universities, private firms, 
associations and users of the systems.
    The multiple and interrelated components of our national 
transportation research effort that are supported with federal surface 
transportation funds include the following:

    1.  Federal research and technology transfer carried out directly 
by U.S. DOT, including research directed by the Secretary's Policy 
Office, as well as by the modal agencies--the Federal Highway 
Administration (FHWA), Federal Transit Administration (FTA), National 
Highway Traffic Safety Administration (NHTSA), Federal Motor Carrier 
Safety Administration (FMCSA), Federal Railroad Administration (FRA), 
and the Research and Innovative Technology Administration (RITA). 
Through the federal program, U.S. DOT tackles high-priority national 
research needs and shares new technologies and practices with the 
states. The U.S. DOT research program is described further detail later 
in this testimony.

    2.  Research conducted by each State department of transportation, 
managed by the individual state DOT members of AASHTO's Research 
Advisory Committee, coordinated with national research programs and 
funded using either federal funds or directly by the states themselves. 
The majority of the funding for this research comes from the federal 
State Planning and Research (SPR) Program, which is the nation's 
cornerstone state research program. State research programs are 
described in further detail later in this testimony.

    3.  Various cooperative research programs managed by the 
Transportation Research Board (TRB), including the National Highway 
Cooperative Research Program (NCHRP), Transit Cooperative Research 
Program (TCRP), the National Cooperative Freight Research Program 
(NCFRP), the Airport Cooperative Research Program (ACRP), and the 
Hazardous Materials Cooperative Research Program. Most of these 
programs determine their research agenda on an annual basis. The 
largest of these programs--NCHRP--is funded through an annual voluntary 
contribution of state SPR funds and has been carried out since the 
early 1960s. NCHRP pools the voluntary research dollars to find 
solutions to transportation challenges identified as critical by the 
states.

    4.  Policy research undertaken and managed directly by TRB. TRB 
conducts policy studies at the request of the U.S. Congress, executive 
branch agencies, states, and other sponsors examining complex and 
controversial transportation issues. Studies cover all modes of 
transportation and a variety of safety, economic, environmental, and 
research policy issues.

    5.  Special research authorized by Congress, such as the second-
generation, Strategic Highway Research Program (SHRP2), which is 
focusing on four critical issues in transportation--safety, 
infrastructure renewal, travel-time reliability, and capacity needs.

    6.  The University Transportation Centers (UTC) Program carried out 
by 60 University Transportation Research Centers typically housed 
within individual universities, or in consortia of universities, across 
the country.

    Each of these components plays a vital role in the overall research 
effort and, while the efforts are independent, there is considerable 
collaboration and communication that exists between these research 
programs to ensure the development of cohesive, complementary, and 
significant research.

Federal Research and Technology Programs

    Throughout its history, a core element of U.S. DOT's mission has 
been to promote innovation and improvement in America's transportation 
system. Over the course of the last few decades, this critical mission 
element has developed into a broad array of research and technology 
activities covering the spectrum of advanced research, applied 
research, technology transfer, and implementation. Research conducted 
through the U.S. DOT allows the federal government to address the more 
strategic, national research needs which are typically more expensive 
and broader in scope than can be accomplished by the states on their 
own.
    In addition, in order to maximize the effectiveness of these 
research and technology activities, U.S. DOT supports and funds a host 
of complementary activities including research administration, 
deployment and training, communication, coordination, conferences, and 
partnerships with other national and international research 
organizations.
    Transportation research authorized under past federal-aid highway, 
highway safety, motor carrier and transit authorization bills included 
funding for national surface transportation research, technology 
innovation and deployment, and training and education. Funding for 
FHWA's Research and Technology Program (R&T) was authorized under 
Titles I and V of SAFETEA LU for conducting research, technology and 
training activities. The largest research component is the Surface 
Transportation Research, Development, and Deployment program (STRDD) 
which had an annual authorization of $196.4 including $14 million for 
an Exploratory Advanced Research (EAR) program, which focuses on long-
term, high-risk research with the potential for dramatic breakthroughs 
in surface transportation.
    This FHWA R&T program enables U.S. DOT with FHWA and the other 
modal administrations to carry out policy research to achieve their 
mission and address their four priority areas of safety, livability, 
sustainability and economic competitiveness. For example, given the 50-
100 year design life for highways and bridges, research should now be 
underway to consider and develop new specifications for highway and 
bridge construction, maintenance and materials to adapt to weather 
impacts associated with climate change. U.S. DOT and FHWA have assumed 
a leadership role in that critical research undertaking. The states and 
others can complement U.S. DOT's research program through the research 
we are conducting in our ongoing programs.
    AASHTO believes that even in a constrained fiscal environment, 
funding for FHWA's R&T program should be maintained at levels 
sufficient to continue a strong and effective research program. We have 
recommended funding at no less than $175 million per year.

State Transportation Research

    For decades, federal-aid funding has been a key resource for 
research, with the states and federal government jointly investing in 
innovation.
    Each state receives federal-aid funding through the State Planning 
and Research (SPR) Program first authorized in the Federal-Aid Highway 
Act of 1944. Currently SPR funding to each state equals 2% of its 
federal funds in the six core highway programs, with at least 25% of 
the total required to be spend on research, development and technology 
transfer activities, including training. This research component of SPR 
can include highways, public transportation, and intermodal 
transportation systems; infrastructure renewal (including pavement, 
structures and asset management); activities relating to safety, 
operations and maintenance; environmental and real estate planning; and 
management, policy analysis, and systems monitoring.
    The states use these funds to address the transportation needs that 
they deem the most critical, including, among others: engineering and 
economic surveys; planning and financing of future highway programs; 
studies on the economy, safety, and convenience of surface 
transportation systems; and research, development, and technology 
transfer activities. The variety of activities carried out and products 
produced by this program is crucial to the advancement of the 
transportation system in our country.
    The states' transportation needs and critical issues are unique and 
constantly changing, and the SPR program affords states the opportunity 
and flexibility to address those research and technology needs that are 
most vital to maintaining and improving their transportation systems, 
including emerging transportation research needs. States give high 
priority to applied research to address state and regional challenges, 
the transfer of technology from researcher to user, and research that 
supports the development of standards and specifications.
    The return on the states' investment in research is substantial. In 
just one example, a formal cost analysis in 2003 prepared for the 
Indiana Department of Transportation's research program, jointly 
administered with Purdue University, showed benefit-cost ratios ranging 
from as high as 220 to as low as 3 to 1. The average benefit-cost ratio 
for nine projects, collectively, was an amazing 59:1. In 2009 a similar 
analyses was performed with an average benefit-cost ratio of 32:1. But 
it is more than just good economics. Research, for example, is 
producing safer highways and construction zones for its customers and 
workforce, saving future maintenance expenses, developing longer 
lasting materials, introducing new technology and processes, developing 
environmentally friendly solutions, to Indiana's waste problems, 
promoting economic growth, bringing on-line faster and more economical 
facilities. \2\
---------------------------------------------------------------------------
    \2\  Indiana Department of Transportation-Joint Transportation 
Research Program (Purdue University), 2011
---------------------------------------------------------------------------
    The State DOTs also collaborate on research projects with other 
federal, state, regional, and local transportation agencies, academic 
institutions, foundations, and private firms through the Transportation 
Pooled Fund program. The Federal Highway Administration administers 
this program and approves the projects that are selected. The program 
allows groups to combine resources to support the project, which may 
consist of research, planning, and/or technology transfer activities.
    Since this program is dependent upon the organization of the core 
programs for its funding, any changes to the current structure could 
have a tremendous effect on the states' research programs and, 
subsequently, what can be accomplished.
    We urge that the SPR Program which is funded by a 2% set aside of 
funds from the core highway programs be continued in its current 
formula-based configuration.

Cooperative Research Programs

    The states also voluntarily co-fund the National Cooperative 
Highway Research Program through the Transportation Research Board of 
the National Academy of Sciences. Funds are drawn voluntarily from the 
states' SPR funds. Projects are selected annually by the AASHTO 
Standing Committee on Research, and the funds can be spent only for 
research projects approved by at least two-thirds of the states. Each 
state's allocation amounts to 5 percent of its SPR apportionment.
    As noted above, the States' research efforts are decentralized, 
with priorities determined by experts in their fields, i.e., the 
stakeholder and user groups who deal directly with transportation 
issues day-in and day-out. Its flexibility allows the states to deal 
with new and emerging needs that bubble up from those on the front 
lines of the transportation industry. Research can be conducted by a 
single state, pooled among several states with a common need or 
concern, or conducted through a national program such as NCHRP.
    Frequently, key research efforts start in one or more states--
through the SPR program--and other states and/or U.S. DOT expand upon 
that research and it becomes more national in perspective. Advanced 
searchable databases such as the Transportation Research Information 
Service (TRIS) and the Research in Progress (RIP) database help to 
ensure that overlap and redundancy do not occur by allowing researchers 
to determine what has been accomplished thus far and what may be 
underway related to their topic of interest. This decentralized 
organization of research programs has been working well for many years 
and should be continued in its present form to ensure that ongoing 
research continues and that the flexibility exists to meet new demands.

Technology Transfer and Implementation

    The final, and possibly most important, steps in the research 
process consist of technology transfer and implementation. Technology 
transfer and implementation can be explained best by a fishing analogy: 
technology transfer provides the information on what pole to buy and 
where to find the lures; implementation involves showing someone how to 
fish.
    Research is useless if it sits on a shelf. Thus, the need for 
effective and continual technology transfer and implementation cannot 
be overemphasized. For most people, and by extension most agencies, 
change is difficult. New ideas may get nods of approval but may not get 
implemented without assistance, such as champions to get the ball 
rolling, presentations and webinars to get the message out, and pilot 
projects to show practitioners how the new ideas can be incorporated 
into the current business model.
    Programs such as the Local Technical Assistance Program, which 
provides information and training to local governments and agencies 
across the country; the National Highway Institute and National Transit 
Institute, which provide training, education, and information 
clearinghouse services; and the National Transportation Library, which 
maintains a robust transportation knowledge base for researchers and 
practitioners; provide critical assistance in ensuring that research 
becomes reality.

AASHTO's Research Policy Priorities for Surface Transportation

Reauthorization

    AASHTO believes that research and technology transfer are critical 
for federal, state, and local governments to provide world-class 
transportation services to the American people. A strong transportation 
research and technology transfer program should be sustained at the 
levels provided in the last authorization, or at the same proportionate 
level achieved for research in that bill, depending on the overall 
funding provided in this authorization. This paper assumes that the 
reauthorization will not meet the levels of the last reauthorization in 
total dollar levels authorized per year.

    <bullet>  Maintain the State Planning and Research Program. We urge 
Congress to maintain the State Planning and Research program in its 
current, formula-based configuration with a 25% minimum set aside for 
research, development, and technology transfer activities, including 
the National Cooperative Highway Research Program. The percentage 
drawdown for the SP&R program may have to be increased to maintain the 
dollar levels of the last authorization.

    <bullet>  Fund FHWA's Core Research and Technology Programs. AASHTO 
supports funding FHWA's core Research and Technology program at a small 
increased level of $175 million per year, without earmarking and with 
sufficient flexibility in order for FHWA to carry out its mission in 
national research and innovation.

    <bullet>  Continue Research Programs for FTA, NHTSA, FMCSA, and 
RITA. AASHTO supports continuing to fund the research program for FTA, 
NHTSA, FMCSA, and RITA (including funding for the Bureau of 
Transportation Statistics) at the levels provided in SAFETEA-LU. If 
funding falls below that provided in SAFETEA LU, proportionate shares 
for these programs should be maintained.

    <bullet>  Fund Implementation of the Strategic Highway Research 
Program (SHRP 2). Provide funding for SHRP 2 Implementation through a 
statutory takedown of funds from the federal-aid highway programs. The 
percentage should be at least one quarter of one percent of the core 
program funding levels in order to assure a stable, predictable source 
of funds estimated at approximately $50 million per year.

    SHRP 2 Implementation should be authorized following the 
recommendations of the TRB report called for by SAFETEA-LU, TRB Special 
Report 296, ``Implementing the Results of the Second Strategic Highway 
Way Research Program.''

        ``Recommendation 1: A SHRP 2 implementation program should be 
established.''

        ``Recommendation 2: The Federal Highway Administration should 
serve as the principal implementation agent for SHRP 2, in partnership 
with the American Association of State Highway and Transportation 
Officials, the National Highway Traffic Safety Administration (NHTSA), 
and the Transportation Research Board. NHTSA should exercise a 
leadership role in the long-term stewardship of the safety database.''

        ``Recommendation 3: Stable and predictable funding should be 
provided over several years to support SHRP 2 implementation 
activities.''

        ``Recommendation 4: A formal stakeholder advisory structure 
should be established to provide strategic guidance on program goals, 
priorities, and budget allocations, as well as technical advice. At a 
minimum, this advisory structure should include an executive-level 
oversight committee for the entire SHRP 2 implementation program and a 
second oversight committee focused exclusively on administration of the 
safety database.''

    <bullet>  Fund the Cooperative Research Programs. Fund the 
cooperative research programs administered by TRB at the annual levels 
established in the previous authorization.
         Transit Cooperative Research Program--$ 10.5 million
         Cooperative Freight Research Program--$ 3.75 million Hazardous 
Materials Cooperative Research Program--$ 1.25 million

    <bullet>  Fund Intelligent Transportation Systems (ITS) Research 
and Development. Continue funding support for ITS Research at its 
current level of $110 million per year. Continue support for on-going 
initiatives such as IntelliDrive, a partnership between state and 
federal DOTs, the automotive industry and its suppliers, to improve 
safety and mobility.

    <bullet>  Fund the University Transportation Centers Program. Fund 
the University Transportation Centers Program at the levels established 
in the previous authorization--$69.7 million. Ensure an 80/20 federal/
non-federal matching requirement.

    <bullet>  Fund the FHWA Training and Education Programs. Continue 
support for FHWA training and education programs at current funding 
levels, including the National Highway Institute, the Garrret Morgan 
Transportation and Technology Futures Program, Eisenhower Fellowships 
and other capacity building programs. Continue funding for the Local 
and Tribal Technical Assistance Programs (LTAP/TTAP) at a small 
increase over the current levels to $15 million per year. These 
programs are significant to the sharing of knowledge and peer-to-peer 
exchange practices among the counties and the district offices of the 
state DOTs.

    <bullet>  Fund ongoing data and knowledge-related activities. 
Continue funding for ongoing data and knowledge-related activities, 
including the National Pavement Performance Database and the National 
Transportation Library.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Critical National Research Needs and Gaps

    AASHTO has identified a number of focus areas of critical research 
needs and gaps. Funding to undertake this research should come from all 
of the interrelated research support components: U.S.DOT; FHWA's R&T 
Program: the Cooperative Research Programs largely funded by volunteer 
contributions from the state DOTs and housed at TRB; federal-state-
private sector partnerships and funding support; and Congressionally 
authorized research support. It will take leadership, commitment and 
funding support across all components to undertake the research and 
innovation needed to ensure continuous improvement for maintaining a 
world-class transportation systemSafety
    For safety, we know what the goal is--reducing deaths and injuries 
on our nation's transportation system--but we do not necessarily know 
how effective we have been in achieving that goal because we don't have 
the much-needed data to tell us what works and what doesn't. Data is an 
extremely important part of the research effort that is often 
overlooked, but research is only as good as the data it is based upon. 
Some individual states, such as Iowa, have extensive safety databases, 
but to address key national challenges, we need more national-level 
data beyond what is currently available.
    Key safety research needs are focused on developing a better 
understanding of the factors contributing to crashes, developing new 
strategies for addressing highway safety, and evaluating the 
effectiveness of strategies currently in use. Examples include the 
following:

    <bullet>  Understanding Crash Causation. Human factors play a part 
in the occurrence of crashes and need to be better understood in order 
to develop appropriate countermeasures. Two specific contributing 
factors for which additional research is needed are distracted driving 
and drugged driving. While distracted driving has received significant 
attention recently and is a growing highway safety concern, some of the 
details are not clear. In the instance of cell phone use, for example, 
it has not been shown that there is less risk associated with hands-
free use than with hands-on use. Also, drunk driving has been studied 
extensively, but additional information is needed on driving under the 
influence of drugs. A recent NHTSA report showed that 16 percent of 
nighttime drivers in a roadside survey tested positive for one of a 
variety of legal or illegal drugs. Since drugs are absorbed by and act 
on the body differently from alcohol, additional research is needed to 
determine which drugs impair driving, and the dosage levels that are 
associated with impaired driving and a higher crash risk.

    <bullet>  Countermeasure Development. New and promising strategies 
are needed to address highway safety from the engineering, enforcement, 
education, and emergency medical response perspectives. Reducing 
roadway departure and vehicle collisions, improving the effectiveness 
of enforcement activities, strengthening public information campaigns, 
and reducing emergency response times will contribute to the reduction 
of highway fatalities. New countermeasures could include infrastructure 
improvements related to better signing and marking, work zone safety 
improvements, and median barrier improvements; vehicle technologies 
such as crash avoidance, rollover avoidance, and occupant protection; 
and communication technologies that allow vehicle-to-vehicle and 
vehicle-to-infrastructure communication as well automated communication 
of crashes to emergency responders.

    <bullet>  Evaluation. State, local, and federal agencies with 
responsibilities for addressing highway safety are continuously 
implementing strategies and programs, but additional information on the 
effectiveness of these countermeasures is needed to enable highway 
agencies to better direct their limited funds. The National Cooperative 
Highway Research Program (NCHRP) has published a series of over 20 
guides that provide detailed information on a wide range of highway 
safety strategies, but the effectiveness of many of these 
infrastructure and driver behavioral strategies is unknown. The 
effectiveness of behavioral programs, such as public information and 
education campaigns, is especially difficult to evaluate, and 
methodologies for performing these evaluations need to be developed. 
Legislation, such as hand-held cell phone bans and ignition interlock 
requirements for first time drunk/drugged driving offenders, need to be 
evaluated for effectiveness in changing the behaviors--in the short and 
long term--that are contributing to serious crashes.

    <bullet>  Data and Data Collection Technologies. Without 
comprehensive and high quality data, it is difficult to determine the 
nature of our highway safety problems, where the problems are, how to 
best to treat the problems, and how successful treatments have been. 
Extensive roadway networks, interaction of and communication between 
the various highway agencies with jurisdiction in the states, and 
limited resources for collecting data are the main challenges related 
to obtaining data for highway safety analyses. With the increased focus 
on new highway safety analysis tools and on the need for measuring 
performance, data are constantly becoming more of a limitation and data 
improvements are becoming more of a crucial need. Technologies are 
needed that automate data collection on all public roads, including 
lesser traveled and rural roads, and to significantly reduce the time 
needed to transfer data to a database and make it available to users.

    AASHTO urges Congress to fund state data improvements at 
significantly higher levels than current ones, and AASHTO supports 
increased funding for federal highway safety research.

Interstate Preservation

    We believe that it is essential to focus attention on preserving 
the trillion-dollar investment that has been made over the past 50 
years on the roads and bridges that make up the Interstate Highway 
System. Many of the 55,000 bridges on the system and the 210,000 lane 
miles of pavement in the system are reaching 40-50 years of age. They 
may be at a stage where total replacement or more than routine 
reconstruction is required. These costs are not adequately taken into 
effect in today's bi-annual U.S. DOT conditions and performance 
reports.
    We recommend that funding be authorized for U.S. DOT and State DOTs 
to jointly undertake a comprehensive study of the assessed (not 
modeled) needs and investment requirements of the Interstate system 
bridges and structures.

Performance

    Performance management is a policy-directed, data-driven, 
performance-based business practice that links organizational goals and 
objectives to resources and results. The outcomes of performance-based 
management include more efficient distribution of limited resources and 
a focus on accountability of decision-making. Over the last 15 years, 
there has been a dramatic increase among state departments of 
transportation (DOT) in the use of performance management principles to 
plan, prioritize, track, and improve the effectiveness of nearly all 
DOT functions to achieve the agencies' fundamental goals. Performance 
information helps to guide decisions about priorities and resource 
allocation for capital project delivery and internal agency management 
and operations. The trend towards states adopting performance 
management has been the result of several factors, including the demand 
for more accountability from government programs and agencies (both 
state and Federal), the pressure of scarce financial resources, and the 
recognition of best business practice.
    Currently, all state DOTs use some type of performance management 
process. The most common is to track asset condition and safety data 
and the majority of states provide comprehensive performance data to 
decision makers to both increase accountability to customers, and 
achieve the best possible transportation system performance with 
current investment programs. The primary challenge for many agencies is 
the lack of funding to maintain and expand the current transportation 
system. However, by using a performance-based management approach, DOTs 
can maximize existing resources and justify recommendations for 
additional funding.
    In order to continue the work that state DOTs are doing with regard 
to performance management more research needs to be conducted. The 
following are several research priorities which AASHTO believes are 
necessary in order for states to fully embrace and implement 
transportation performance management:

    <bullet>  Transportation Data Program- A fundamental component 
necessary to the development of performance measures and in performance 
management is data. Research is needed on how best to develop a data 
program that can be used to support a robust performance management 
process.

    <bullet>  Development of Performance Measures- AASHTO, with its 
metropolitan planning organization partners, and FHWA has identified a 
select number of performance measures for safety, pavement and bridge 
assets that could be used by all states. However, additional work is 
needed to standardize data collection and reporting for those measures. 
Beyond the initial highway asset and safety fatality measures, 
additional research is needed to identify appropriate measures. For 
example, how do we measure freight mobility--by measures of delay, 
reliability or access?

    <bullet>  Comparative Analysis of Performance Measures- The 
usefulness of performance management may be enhanced when the 
performance measures used by one state DOT are comparable to those of 
other state DOTs. AASHTO's members, through NCHRP, support a robust 
research program that voluntarily compares performance for certain 
variables, such as fatalities, across all the states. Many state DOTs 
would like to continue this type of research extending comparison of 
performance to additional performance indicators which all states agree 
to measure.

    <bullet>  Development of Performance-based Planning and 
Programming- The current focus on performance measures is transforming 
the transportation planning process to one that is performance-based 
and focused. The planning process is where performance management can 
drive transportation investment decisions--linking performance and 
return on investment. Support for research, including the development 
of innovative tools and techniques along with training and peer-to-peer 
exchange of best practices, is need to accelerate the adoption of 
performance-based planning and programming.

    AASHTO supports sufficient funding for federal highway research to 
enable the agency to continue its research and technical assistance on 
performance measures and management.

Environment: The AASHTO Center for Environmental Excellence

    In 1992, AASHTO established the Center for Environmental Excellence 
(Center) in partnership with Federal Highway Administration as a 
continuation of its efforts to find innovative ways to assist state 
transportation agencies and their partners in improving public trust, 
environmental performance and program delivery. The mission of the 
Center is to promote environmental excellence in the delivery of 
transportation services by encouraging environmental stewardship and 
disseminating innovative ways to advance the state of the practice in 
environmental management and mitigation. The vision for the AASHTO 
Center is to broaden and enhance the environmental tools and resources 
available to state transportation agencies and their partners.
    The Center provides State DOTs, our local partners and the 
transportation community in general with technical assistance, 
training, information exchange, partnership-building opportunities, and 
access to innovative environmental tools. One example of technical 
assistance and information exchange is the development of Environmental 
Practitioners' Handbooks which help advance the state of the practice 
by describing the latest practices and procedures for addressing 
environmental considerations in transportation project development, 
design, construction, maintenance and operations.
    Another key function of the Center is to serve a convener for 
problem solving to bring together the states, resource agencies and 
stakeholder to address pressing environmental concerns with the 
objective of identifying and reaching consensus on potential solutions. 
For example, the Center organized a meeting with the state DOTs, State 
Departments of Natural Resources, the Fish and Wildlife Services, FHWA 
and the Indiana State University Center for North American Bat Research 
and Conservation to discuss and identify the problems states were 
confronting with the Endangered Species Act process related to the 
Indiana bat and discuss programmatic approaches to solve this problem. 
The programmatic approach that resulted from this process provides for 
enhanced recovery and protection of the species and eliminates most of 
the project-by-project review related to the Indiana bat, therefore 
allowing needed transportation improvements to proceed. This effort was 
awarded the U.S. Fish and Wildlife Services 2007 Transportation 
Environmental Stewardship Excellence Award.
    In 2006, the Center developed the Transportation and Environmental 
Research Ideas (TERI) Database. TERI provides an organized structure to 
capture and catalogue research ideas by environmental topic. The State 
DOTs use the data base to evaluate and prioritize the environmental 
research needs from among a constant flow of new research ideas that 
come from federal, state, metropolitan and local transportation 
agencies, TRB, federal and state resource agencies, non-governmental 
organizations and other stakeholders.
    AASHTO urges continued funding to support the AASHTO Center of 
Environmental Excellence in its commitment to technical assistance, 
training, and information sharing to help transportation professionals 
to advance environmental sustainability and stewardship and to deliver 
transportation improvements more efficiently and expeditiously.

Funding and Finance

    Established in the 2005 SAFETEA-LU transportation authorization 
act, the mission of the AASHTO Center for Excellence in Project Finance 
(the Center) is to provide support to State DOTs in the development of 
finance plans and project oversight tools, and to develop and offer 
training and state-of-the-art finance methods to advance transportation 
projects and leverage funding.
The Center provides four primary services:

    <bullet>  Professional Education

    <bullet>  Research Services

    <bullet>  Information Dissemination

    In education the center has implemented the Wharton Transportation 
Executive Program which is designed to provide executive education in 
finance to senior state DOT officials. The program is conducted by 
AASHTO and the Wharton School of Business at the University of PA. The 
Center also offers forums in Public Private Partnership's education. 
This past September the center offered a one day Congressional forum 
for Members and staff on revenue and financing options.
    The Center conducts research on cutting-edge project finance 
techniques and topics. The Center's Research Services aim to undertake 
objective research into specific financial management and policy 
issues, many of which are actually suggested by State DOTs. These 
findings are summarized in a series of Occasional Papers, as a resource 
for project sponsors and policy makers. Most recently the Center joined 
with the National Conference of State Legislatures in a research 
project to compile the first comprehensive set of material on how State 
DOTs are organized for making investment decisions including 
programming, and project funding and finance.
    Other examples of research and information exchange include the 
development of case study instructional materials for use by the Center 
and other educational organizations, and interdisciplinary academic 
assessments of project finance techniques. The Center also collaborates 
with other entities, such as TRB to help organize such symposiums as 
the National Conference on Transportation Finance to aid in the 
development of state-of-the-art project finance tools and methods.
    Using the center's website as its primary dissemination tool, the 
Center is a comprehensive source of information on transportation 
finance, financial management, and policy for the transportation 
community in the United States. The Center's website provides access to 
all activities and products under one umbrella functioning as a central 
clearinghouse for all issues relevant to transportation finance, 
providing extensive information on transportation funding and financing 
including tools and programs, information on legislation, a 
comprehensive calendar of domestic and international events and 
seminars on project finance, a glossary of terms, and links to 
extensive resources germane to transportation finance.
    AASHTO urges continued funding to support the AASHTO Center for 
Excellence in Project Finance in its commitment to technical 
assistance, training, and information sharing to help transportation 
professionals to advance environmental sustainability and stewardship 
and to deliver transportation improvements more efficiently and 
expeditiously.

Freight and Economic Competitiveness

    AASHTO has developed recommendations for the next surface 
transportation authorization that support continuation and increased 
funding for the NCFRP. These AASHTO proposals also include freight 
policy and program recommendations that need additional research as a 
foundation for effective implementation. AASHTO's proposals are 
consistent with those made by the Freight Stakeholders Coalition, which 
is comprised of the national associations representing the major 
elements of the freight transportation industry, including both 
carriers and shippers.
    The following are several research priorities related to AASHTO's 
authorization recommendations that are important for transportation's 
contribution to economic competitiveness:

    <bullet>  Defining the National Freight Transportation System. 
There is consensus, but not unanimity, on the importance of investing 
in the national freight transportation system in support of economic 
competitiveness. Unfortunately, there is not consensus on a definition 
or description of that system as a guide for productive investment. We 
must have a firm foundation of research and analysis to guide a freight 
investment program that is intended to generate economic 
competitiveness benefits for the nation.

    <bullet>  Freight Chokepoints. We know the freight chokepoints on 
the interstate system that are the most costly. However, we do not know 
how to translate that into a program of improvements that results in 
improved system performance that is feasible and cost effective.

    <bullet>  Calculating Public Benefits in Public/Private Freight 
Projects. It is important to justify all public investments made in 
transportation in terms of public benefits. It is especially important 
for freight transportation investments where there may be private 
profit on the same balance sheet and where we want to document regional 
and national benefits, as well as local. Currently there is no 
standard, widely-accepted approach for doing this.

    <bullet>  Measuring Performance. Knowing where to invest and 
whether or not the investment has been productive requires performance 
measurement. What you can't measure, you can't manage. AASHTO has 
invested considerable effort to advance this objective, but more 
analysis is required to know not only what the appropriate measures 
are, but most importantly how to apply them for policy, program, and 
project purposes.

    <bullet>  Financing. At present we do not have the funding 
necessary to simply maintain our core freight transportation systems. 
We will not get that funding from the traditional sources. We need to 
figure out how to generate new revenues for this purpose--directly or 
indirectly--from the beneficiaries of freight improvements that do not 
have adverse consequences for specific industries, modes, or regions.

    <bullet>  Multi-State Planning and Investment. Freight moves across 
state lines, but for the most part our processes for planning and 
financing do not. There are projects important for economic 
competitiveness for which benefits are widespread but costs are 
concentrated. These projects cannot be realized, without immense 
effort, because our institutions or planning and financing are not 
organized for this purpose. We need to know how to build on the 
strength of our existing institutions to develop mechanisms for doing 
these projects.

    Without research in these areas, we cannot hope to have a 
transportation program that meets the nation's economic competitiveness 
needs.
    There is another important category of research that often gets 
lost in the high-level policy, sometimes abstract, discussions related 
economic competitiveness. This research is related to simply making 
sure that the condition, performance, and capacity of the basic 
transportation systems are adequate to meet the need. Virtually all 
freight moves on systems that are shared with passengers--road, rail, 
and water. Continuing research that addresses basic elements of these 
systems is essential
    Furthermore, there are many operational objectives for State DOTs 
that are important for economic competitiveness for which we do not 
currently have well-grounded standard practices. Research can support 
the advancing the state of the practices in a number of areas including 
areas identified above as research priorities and also including:

    <bullet>  Incorporating freight factors into the project selection 
process

    <bullet>  Assessing the adequacy of secondary freight routes for 
large truck traffic

    <bullet>  Experience with highway improvements to support 
intermodal terminals

    <bullet>  Guidelines for adequacy of connector roads to seaports

    <bullet>  Translating highway engineering and construction 
experience into the rail arena

    <bullet>  Engineering issues related to truck-only lanes

    <bullet>  Procedures for managing a rail-crossing program to 
maximize efficiency on rail and road

    <bullet>  Standardizing bridge analysis among the states relative 
to vehicle weight

    AASHTO supports sufficient funding for federal highway research to 
enable the agency to continue its research, technology and innovation 
deployment, and technical assistance to advance all aspects related to 
freight.

Conclusion

    Ultimately, AASHTO cannot stress enough the importance of research 
implementation, transfer of research into practice, and technology 
transfer. Multiple and varied efforts are underway to move research 
into practice, and the variety of methods to do this are dependent on 
the actual results and specific solutions.
    To use a potentially overused phrase, ``it takes a village'' to 
accomplish all of the research objectives within transportation, 
including developing the data, establishing the needs, conducting the 
research, sharing the results, and implementing the best ideas. And 
through coordination and collaboration, leveraging time and money, 
utilizing the combined knowledge and expertise, our village is making 
significant contributions to the advancement of our nation's 
transportation system.

    Chairman Quayle. Thank you very much.
    Mr. Gehr, you are now recognized for five minutes.

                    STATEMENT OF DAVID GEHR,

             SENIOR VICE PRESIDENT, HIGHWAY MARKET,

                     PARSONS BRINCKERHOFF;

              CHAIRMAN, AMERICAN SOCIETY OF CIVIL

           ENGINEERS TRANSPORTATION POLICY COMMITTEE

    Mr. Gehr. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am David Gehr. I am Chairman of the 
Transportation Policy Committee for the American Society of 
Civil Engineers. ASCE is pleased to offer our views on how to 
maximize funding for transportation research priorities.
    The Highway Trust Fund has been an essential source of 
funding for surface transportation research and technology for 
decades and has led to critical benefits for the development of 
a 21st century surface transportation system.
    While research has provided benefit, in ASCE's 2009, 
``Report Card for America's Infrastructure,'' roads received a 
D-, bridges a C, and transit a D. To bring these three 
categories into a state of good repair would require a five-
year investment of about $1.2 trillion. While an investment of 
this magnitude is very unlikely, a number of targeted research 
programs could extend the life span and effectiveness of our 
transportation infrastructure. As passed, the 2005 Surface 
Transportation Research Development and Deployment and the 
University Transportation Research sections in SAFETEA-LU were 
completely programmed or earmarked and over-authorized, thus 
creating a difficult environment to allocate funds.
    Additionally, the Federal Highway Administration had no 
discretionary funds to maintain certain core research programs, 
meaning critical efforts like the biannual conditions and 
performance reports struggled for funding. This speaks to the 
need for minimal earmarking and free and open competition among 
non-federal entities performing research utilizing federal 
funding.
    Currently the entire transportation research community 
focuses on short-term, applied problem-solving research instead 
of the advanced, higher-risk, multi-year projects which would 
lead to the development of a more efficient system. The longer 
we delay the necessary research, the longer the Nation delays 
implementation of a 21st century transportation system.
    The University Transportation Centers Program should be 
continued, but the program can be improved. Universities work 
well in high-risk, long-term research, so new legislation 
should emphasize their role and ensure that the best 
universities are selected through a competitive process. The 
existing program levels should be simplified, and authorized 
funds should be subject to open competition.
    Given the large number of entities in the UTC Program, 
coordination of research activities is a challenge, and we run 
the risk of duplicative research. Efforts have been made to 
improve coordination but more needs to be done. The program 
needs to reduce the number of UTCs in order to increase 
competition, and all centers should receive the same level of 
funding.
    Awarding each center 2 million annually would provide 
enough critical funding for each center to develop significant 
research projects. To help facilitate a more competitive 
selection process the current match should also be adjusted. 
Changing the match to 80 percent federal UTC program funding 
and 20 percent match from the centers would allow a break from 
using State DOT funding as the matching source. Centers would 
then not be obligated to focus on short-term solutions for 
State DOTs and could focus on long-term research endeavors.
    Technology transfer activities are critical to the 
successful completion or implementation of research results. 
The transfer of technology from the research stage to the 
application stage must be emphasized in surface transportation 
research. The application of improved or new technology is the 
ultimate goal and must be supported by funding.
    While there are some research and publication successes, 
many university programs do not have proper channels for 
assuming ownership of the technology transfer process. A 
research project should need to have an implementation plan 
worked out with the funding agency during the proposal process. 
Adding this step will increase the actual implementation of 
research.
    Furthermore, the Long-Term Bridge Performance Program 
should be continued in the authorization bill. There is a need 
to study long-term bridge life to develop a better 
understanding of how bridges age and deteriorate. This allows 
engineers to better predict bridge behavior and should lead to 
improved maintenance and management practices. The Long-Term 
Bridge Performance Program can lead the way in this effort.
    Finally, the Intelligent Transportation Systems section 
must be more long-term in nature. ITS is a cost-effective means 
of addressing rising demand by increasing the efficient 
utilization of our transportation systems. The technology 
revolution in transportation will require a wide range of 
independent yet coordinated actions by public and private 
sector interests.
    Improvements resulting from research and technology remain 
critical to achieving national transportation goals. Therefore, 
funding for research should be increased to levels that will 
provide high returns on investment.
    ASCE looks forward to working with Congress as it develops 
a robust surface transportation system for the future. Thank 
you very much.
    [The prepared statement of Mr. Gehr follows:]

      Prepared Statement of Mr. David Gehr, Senior Vice President,
       Market, Parsons Brinckerhoff; Chairman, American Society of
            Civil Engineers Transportation Policy Committee
    The American Society of Civil Engineers (ASCE) \1\ would like to 
thank the Technology and Innovation Subcommittee for holding a hearing 
today on how to maximize funding for transportation research 
priorities. The Society is pleased to present to the Subcommittee our 
views on investing in surface transportation research.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 140,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a non-profit educational and 
professional society organized under Part 1.501(c)(3) of the Internal 
Revenue Code.
---------------------------------------------------------------------------
    The Highway Trust Fund has been an essential source of funding for 
surface transportation research and technology (R&T) for decades. 
Research results have lead to many benefits including: materials that 
improve the performance and durability of pavements and structures; 
design methods that reduce scour (and consequent threat of collapse) of 
bridges; intelligent transportation systems technologies that improve 
safety and reduce travel delay; methods and materials that radically 
improve our ability to keep roads safely open in severe winter weather; 
innovative management approaches that save time and money; analytical 
and design approaches that reduce environmental impacts that support 
sustainable development and improve the aesthetic and cultural aspects 
of transportation facilities. These benefits are provided through 
several major transportation research programs and have proven critical 
in developing a 21st century surface transportation system.
    However, while research has provided many benefits for the nation's 
surface transportation systems, in ASCE's 2009 Report Card for 
America's Infrastructure roads received a D-, bridges a C, and transit 
a D. Furthermore, to bring just these three categories of 
infrastructure into a state of good repair would require a five year 
investment of $1.2 trillion from all levels of government. While an 
investment of this magnitude seems unlikely at a time of economic 
uncertainty, a number of targeted research programs could extend the 
life span and effectiveness of our built environment. In the long term, 
investment in research and development technologies and processes can 
help reduce the gap between the current transportation funds available 
and the $1.2 trillion necessary for road, bridge, and transit repairs. 
Research funding will prove critical to achieving national 
transportation goals in safety, quality of life, economic health, 
environment impacts, sustainability, and security in the next surface 
transportation authorization bill.
    ASCE supports several general principles in the reauthorization of 
research and technology programs in the nation's surface transportation 
legislation. Improvements resulting from research and technology are 
critical to achieve national transportation goals, therefore funding 
for these activities should be increased to levels that will continue 
to provide high returns on investment. Research programs should be 
conducted according to the highest scientific and engineering 
standards, from priority setting to the awarding of contracts and 
grants, to review and evaluation of research results for 
implementation.
ASCE supports the following actions regarding specific surface 
transportation R&T programs:

    <bullet>  The research and technology portion of the State Planning 
and Research (SPR) program should be maintained to help support state-
specific activities while continuing to encourage the states to pool 
these resources to address matters of mutual interest.

    <bullet>  University research should continue to be supported 
through the University Transportation Centers (UTC) program using a 
competitive selection process that guarantees quality participants and 
fairness in the allocation of funds.

    <bullet>  The Federal Highway Administration's (FHWA) program 
should be strengthened by giving it sufficient funding and flexibility 
to implement the recommendations of Transportation Research Board (TRB) 
Special Report 261 ``The Federal Role In Highway Research and 
Technology'' to focus on fundamental, long-term research; to perform 
research on emerging national issues and on areas not addressed by 
others; to engage stakeholders more consistently in their program; and 
to employ open competition, merit review, and systematic evaluation of 
outcomes.

    <bullet>  The recommendations of TRB Special Report 295 ``The 
Federal Investment in Highway Research 2006-2009, Strengths and 
Weaknesses'' should be implemented.

    <bullet>  The Strategic Highway Research Program (SHRP II) should 
be continued beyond the life of SAFETEA-LU, ensuring that critical 
research will be continued in key areas of surface transportation.

    <bullet>  Total Research and Technology funding for activities 
corresponding to Title V in SAFETEA-LU should be at least $750 million 
per year.

    <bullet>  The Federal Transit Administration's (FTA) research 
program should be free of earmarks and allocations and given 
flexibility to work with its stakeholders to develop and pursue 
national transit research priorities. The Transit Cooperative Research 
Program should be funded at a minimum of $20 million per year.

    <bullet>  The Research and Innovative Technology Administration 
(RITA) should have a well-defined scope and responsibility and 
appropriate funding, in addition to currently authorized research 
funding, so that it may supplement and support the R&T programs of the 
modal administrations.

University Transportation Centers

    University research should continue to be supported through the 
University Transportation Centers (UTC) program. However, the program 
could be improved in several ways. The existing multiple levels of the 
program should be simplified and funds authorized for this program 
should be entirely subject to free and open competition. At this time 
there are approximately 80 to 100 different universities participating 
in the UTC program. Given this large number of entities, coordination 
of research activities, so that each institution's research efforts are 
complementary and not duplicative, is a significant challenge. Efforts 
have been made to improve coordination, but more still needs to be 
done.
    The program needs to be competitive in order to award approximately 
forty UTCs through the research title and five to ten through the 
transit title. Additionally, the different types of UTCs should be 
eliminated, in order to allow all UTCs in the research title to fall 
into the same ``tier'' and therefore receive the same level of funding. 
The funding should amount to approximately $2 million per center 
annually. This would provide enough critical funding for each center to 
develop significant, long-term research projects, rather than projects 
that only last one year. Transit title centers should be selected on a 
competitive basis as well and receive the same level of funding as 
those in the research title.
    Currently the entire transportation research community focuses on 
short term, applied, problem solving research. By shifting primary 
research toward advanced, higher risk, longer term, multi-year 
projects, the surface transportation system that this nation will need 
in 40 years can begin to be developed. At this time very little high 
risk, long term research is occurring and the longer we delay the 
necessary research, the longer the nation delays implementation of a 
true 21st century surface transportation system.
    Much of the technology necessary for a future surface 
transportation system already exists, however UTCs can properly apply 
that technology for the greatest benefit of the nation. Universities 
work well in high risk, long term research, which is why new 
legislation should emphasize their role and ensure that the best 
universities are selected through a competitive process.
    To help facilitate a more competitive selection process adjusting 
the current match would be beneficial. The current match required for 
centers funded through the research title is dollar for dollar, however 
the match should be changed to 80% federal UTC program funding and 20% 
match from the centers. The revised match system would allow for 
centers to break away from using state department of transportation 
dollars as the primary matching source, therefore allowing UTCs to 
delve into advanced research, instead of focusing on state departments 
of transportation (DOT) problems. In general, state DOT's are more 
focused on short-term solutions rather than long-term, high risk 
research endeavors. With UTCs relying on state DOT funding, this 
limited focus is carried over into the research programs at the 
centers. ASCE believes that the revised match would not inhibit centers 
that are already very aggressive from securing more than a 20% match, 
but there will be some centers that can only raise the minimum revenue 
necessary.

Technology Transfer

    Technology transfer activities are critical to the successful 
implementation of research results. The transfer of technology from the 
research stage to the application stage must be emphasized among all 
participants in surface transportation research. The application of 
improved or new technologies is the ultimate goal, and must be 
emphasized to the point of being supported by research funding. 
However, while the Federal Highway Administration research program, the 
National Cooperative Highway Research Program, the Strategic Highway 
Research Program, and state DOT research funded by State Planning and 
Research funding each has a mechanism in place for technology transfer, 
many research programs do not have a similar system in place.
    While there are some research and publication successes like the 
Accelerated Bridge Construction program being undertaken at the Utah 
Department of Transportation, many other programs do not have proper 
channels for assuming ownership of the technology transfer process. 
Many times research reports from universities are sent to a funding 
agency, such as a state DOT, but the application of the research 
outcomes are not implemented. Instead, as part of a research project 
there needs to be an implementation plan worked out with the funding 
agency during the proposal and contract process. After the research a 
follow up report on the implementation successes or failures should 
then be prepared. Adding this step to the process will increase the 
actual implementation of research and will provide the primary federal 
research administration with evidence of research implementation, which 
is currently lacking.
    It should be understood that high risk, advanced research does not 
always have an implementable outcome. Since UTCs are currently unable 
to push state DOTs to implement applied research, this provides another 
example as to why UTCs should instead focus on higher risk projects 
that do not necessarily require an implementation process.

Improving Transportation Research Programs in a Reauthorization

    As originally passed, the Surface Transportation Research, 
Deployment and Development and the University Transportation Research 
sections in SAFETEA-LU were both completely programmed or earmarked and 
over-authorized, creating a difficult environment within which the 
Federal Highway Administration and the Research and Innovative 
Technology Administration (RITA) had to allocate funds. An additional 
effect was that the Federal Highway Administration had no discretionary 
funds to maintain certain core research programs, which meant that such 
critical efforts as the biannual Conditions and Performance Report 
struggled for funding. These problems were partially relieved by the 
SAFETEA-LU Technical Corrections Bill in 2008. However, the research 
programs continue to be adversely impacted by the level of programming 
and earmarking. This speaks to the need for minimal earmarking and free 
and open competition among non-federal entities performing research 
utilizing federal funding.
    Specifically ASCE would better define a UTC program with 
approximately 40 centers funded at $2 million annually, which focus on 
long term, advanced research. Additionally, there needs to be a larger 
Exploratory Advanced Research Program, funded with at least $20 million 
annually. The exploratory advanced research program should then fund 
only large, multi-year, high risk projects.
    Furthermore, the Long Term Bridge Performance Program, a planned 20 
year research program, should be continued in the authorization bill. 
There is a need to study long term bridge life to develop a better 
understanding of how bridges age and deteriorate. This allows engineers 
to better predict and model bridge behavior and could lead to improved 
maintenance practices and better bridge management. The FHWA's Long-
Term Bridge Performance Program should lead the way in this effort.
    Bridge maintenance is based on the funding available and which 
bridge is most in need of repair. That usually means deck repair, not 
the structure of the bridge. When the public notices problems, such as 
potholes, these get attention. The public rarely notices severe 
structural problems unless concrete is falling from the bottom of an 
overpass bridge. Obviously, to properly maintain bridges, more funds 
are needed, and more of those funds need to go into the maintenance of 
the structure, not just the deck. It is ASCE's hope that the Long-Term 
Bridge Performance Program will help to provide answers as to how to 
properly channel our nation's bridge maintenance funds.
    Finally, the Intelligent Transportation Systems (ITS) section must 
be more long term in nature, rather than looking at five year horizons. 
A transportation system for the 21st Century will be developed in part 
by ITS research and therefore must have a long term outlook. 
Intelligent Transportation Systems are a cost-effective means of 
addressing rising demand by increasing the efficient utilization of our 
transportation systems. The technology revolution in transportation 
will require a wide range of independent yet coordinated actions by 
public and private sector interests, which must be sustained by a major 
federal commitment. The federal government should provide the 
leadership and commitment to direct the complete deployment of ITS for 
consumers of passenger and freight transportation across the nation.
    At a minimum Congress should maintain the funding that is currently 
in place for surface transportation research in the new authorization. 
By investing in smarter, more efficient transportation systems now, 
operations and maintenance costs in the future could be significantly 
reduced. In order, to acquire these efficient systems in the nation 
must invest in research programs today.

Conclusion

    Surface transportation infrastructure is a critical engine of the 
nation's economy. It is the thread which knits our nation together. To 
compete in the global economy, improve our quality of life and raise 
our standard of living, we must successfully rebuild America's public 
infrastructure. Faced with that task, the nation must begin with a 
significantly improved and expanded surface transportation system. A 
surface transportation authorization must be founded on a new paradigm; 
instead of focusing on the movement of cars and trucks from place to 
place, it must be based on moving people, goods, and services across 
the economy. Beyond simply building new roads or transit systems, an 
intermodal approach must be taken to create a new vision for the 
future.
    The nation's economic competitiveness will be tied to the ability 
to reduce congestion, reduce use of fossil fuels, and reduce the 
production of greenhouse gases. This work can only be done through high 
risk, advanced, long-term research. The transportation research title 
in the new surface transportation authorization bill, must emphasize 
this need and therefore should focus on the UTC program, the ITS 
section, the surface transportation research section that supports the 
Federal Highway Administration, and the Exploratory Advanced Research 
Program. ASCE looks forward to working with the Congress as it develops 
robust surface transportation authorization legislation which is 
founded on a strong national vision, adequate funding and new 
technology and research, and creates an integrated, multi-modal 
national transportation system.

    Chairman Quayle. Thank you.
    The chair now recognizes Dr. Feller for five minutes.

                 STATEMENT OF DR. IRWIN FELLER,

                PROFESSOR EMERITUS OF ECONOMICS,

                 PENNSYLVANIA STATE UNIVERSITY;

                SENIOR VISITING FELLOW, AMERICAN

           ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE

    Dr. Feller. Good morning, Mr. Chair, Ranking Member Wu. It 
is an honor to testify------
    Chairman Quayle. Dr. Feller, could you put your microphone 
up?
    Dr. Feller. It is an honor to testify before this 
Subcommittee.
    Over several decades and under the leadership of several 
distinguished chair and subcommittee chairs, this Committee has 
played a distinctive and essential role ensuring that federal 
investments in research and development are allocated to those 
ends and performed in ways that maximize the taxpayer returns, 
be these in the form of increased standards of living, safer, 
healthier lives, and other forms of monetary and non-monetary 
benefits.
    The questions I have been asked to answer relate to the 
vitality, productivity, and efficiency of those taxpayer 
returns of surface transportation of specific applications of 
these overarching Subcommittee concerns. My answers derive from 
a career studying and evaluating federal and State government 
science and technology programs and the organization and 
performance of university research centers. These studies have 
been enlivened and enriched by service and chairing of several 
federal advisory panels, National Research Council panels, as 
well as service on the Transportation Research Board, Research 
and Technology Coordinating Committee.
    Let me start with an overarching answer to the questions 
that the Committee posed to me, and recommendations about 
changes in the highway bills' reauthorization of its research 
titles. They are as follows.
    Deregulate the surface transportation R&D system by 
removing earmarks. Earmarks constitute a deadweight tax on the 
performance of federal investments and surface transportation 
R&D. Steer funding to longer-term, more fundamental research 
questions prioritized through consultation among Congress, the 
Executive Branch, major stakeholders, and the research 
community.
    Allocate these funds by opening all competition and merit 
review processes. Reshape the UT system into a smaller number 
of centers as now being proposed by the Department of 
Transportation's Research and Innovative Technology 
Administration with provision for placing at least one center 
in each of ten regions to ensure geographic dispersion.
    Modify and expand DOT's Technology Transfer Programs to 
mesh with changes that occur in the underlying research and 
development system, and here I would simply extend a previous 
speaker's statement about understanding a broader 
conceptualization of technology transfer and working with 
universities on related measures to form closer cooperation.
    Provide funding for systematic, independent, state-of-the-
art assessments of the public's return to federal investments 
in surface transportation. One of the clear limitations 
addressed in the question to me was how to measure public 
returns to transportation R&D. There are very few studies that 
I am aware of and to a large extent they fall behind the state-
of-the-art now being developed by other agencies.
    Let me just expand upon these comments. The existing 
surface transportation R&D system obviously produces a steady 
stream of new knowledge, products, and techniques that yield 
benefits, and the UTC System is an important source for 
replenishing and upgrading the transportation sectors' need for 
technically-trained labor force.
    With all these benefits, both the design and performance, 
the current system operates under constraints that 
significantly impair its performance, producing a return to the 
taxpayer well below obtainable levels. Earmarking is not 
innovative. Earmarking reduces the incentives that the faculty 
have to seek ambitious, challenging, larger, more complex, but 
competitively awarded projects. Earmarking reduces the basic 
quality controls both at the input stage in terms of the 
selection of products and projects and performance, and at the 
output stage in terms of systematic, rigorous, independent 
evaluation of taxpayer returns.
    Earmarking, and here I speak from reviewing the research 
programs of many other federal agencies, transportation 
research is isolated from the larger stream of research being 
conducted across many fields and many agencies and many 
university activities. Earmarking essentially provides no 
incentive for faculty to collaborate with faculty in other 
fields. It provides no opportunity for researchers in other 
fields to collaborate or to enter into research with 
transportation research. Transportation research, in effect, 
has become a backwater, which is inconsistent with the changes 
in science and opportunities for collaborative, 
interdisciplinary work.
    And lastly, I would emphasize that these are not my views 
alone. I am privileged to say that I believe I am reflecting 
the views of many of the leaders of the transportation research 
system.
    Thank you, Mr. Chair, Ranking Member Wu.
    [The prepared statement of Mr. Feller follows:]

     Prepared Statement of Dr. Irwin Feller, Professor Emeritus of 
                               Economics,
         Pennsylvania State University; Senior Visiting Fellow,
          American Association for the Advancement of Science
    Mr. Chairman and Members of the Subcommittee,
    It is an honor to be invited to testify before the House Committee 
on Science, Space, and Technology, Subcommittee on Technology and 
Innovation.
    Over several decades and under the leadership of several 
distinguished committee and subcommittee chairs, the House Science, 
Space and Technology Committee and its Subcommittees have played a 
distinctive and essential role in ensuring that the Federal 
Government's investments in research and development are allocated to 
those ends and performed in ways that maximize the taxpayer's benefits, 
be these in the form of increased standards of living, safer, healthier 
lives, or comparable monetary and non-monetary returns. Spanning the 
R&D, technology transfer and related educational activities of 
individual Federal agencies and departments, it has assumed 
responsibility for monitoring the performance of major components of 
the larger Federal R&D enterprise. It thus has contributed and 
continues to significantly contribute to the vitality, productivity, 
and efficiency-and thus taxpayer returns-of this enterprise.
CONTEXT
    The questions that I have been asked to respond to in today's 
testimony on Transportation Research Priorities are specific 
applications of the Committee's larger purview. Correspondingly, my 
answers are specific applications to the field of surface 
transportation research of overarching principles and findings about 
how best to allocate Federal R&D funds to achieve maximum benefits and 
how to assess the performance of those receiving these funds.
    These answers distill findings from a career as a researcher into 
technology transfer, evaluation of Federal and state government science 
and technology programs, performance measurement, and the organization 
of university research centers. This research has been enriched, and 
enlivened, by service as a member and chair of numerous Federal agency 
advisory and evaluation panels, related experiences on several National 
Research Council committees charged with studying the effectiveness of 
the Federal R&D programs, and similar international experiences, 
including advisory and consulting work for the European Commission, the 
Organization for Economic Development and Cooperation and several 
countries.
    My work on technology transfer was the basis for an invitation to 
become a member of the Transportation Research Board's (TRB) Research 
and Technology Coordinating Committee (RTCC), on which I served between 
September 1, 1997, and August 31, 2003. Likewise, my work on 
comparative national science and innovation policies has led to my 
current membership on the National Research Council`s Committee on 
National Research Frameworks: Application to Transportation.
    My answers to Questions (2)-(5) in the Committee's invitation thus 
blend facts and findings that span most of the Federal Government's 
domestic R&D activities, with working knowledge of specific Federal 
surface transportation R&D program and policy issues. My expertise 
regarding the technical contents of specific R&D programs and projects 
though is limited. My answer to Question (1), which requests a brief 
overview of the Transportation Board's roles and responsibilities is 
taken from the TRB's website and communications with TRB staff.
    In key respects, my answers restate long recognized, well 
documented, and articulately expressed concerns about the shortcomings 
of the current system of Federal funding of surface transportation 
research that can be found in numerous independent, expert reports and 
in previous testimony before this Committee and other Congressional 
committees. These shortcomings include the excessive earmarking of 
transportation funds that limits the ability of Department of 
Transportation agencies to shape a coherent, sustainable national 
transportation R&D program and the dilution of the impact of Federal 
R&D research dollars associated with having to disburse them through an 
unduly large number of University Transportation Centers (UTCs). Each 
condition drives the transportation research system to short-term, 
incremental research undertakings at the expense of the higher 
priority, longer term, more fundamental, more collaborative and thereby 
more impactful research topics that could be funded with the same 
research dollars. Simply put, current arrangements constitute systemic 
obstacles to garnering the maximum benefits from Federal surface 
transportation R&D outlays.
    If there is a value-added to be found and generated by my 
testimony, it rests perhaps in two things. First, as evidenced by 
enactment of the Government Performance Results Act and recent salutary 
reforms already taken to reduce earmarking across the swathe of Federal 
government expenditures, Congress has demonstrated an increasingly 
unwillingness to accept inefficient budget practices and ineffective 
programs. Thus, on this Committee, as well as hopefully on related 
authorization and Appropriations Committee, old words may be heard by 
new ears.
    Second, viewing transportation R&D from the enlarged cross-agency 
perspective that weaves through my answers offers additional, new 
insights into why current arrangements for funding and organizing 
transportation R&D are inconsistent with basic principles for 
justifying Federal government investments in domestic R&D. Equally 
importantly, as my answers detail, current arrangements are 
inconsistent with the internal dynamics of scientific discovery and 
technological innovation. It is not that some beneficial results do not 
emerge from current surface transportation research programs. Of 
course, they do. Rather, it is that the benefits are small relative to 
what is needed and what is possible.

QUESTIONS

(1) TRB in the National Academies
    TRB is one of six major divisions of the National Research 
Council--a private, nonprofit institution that is the principal 
operating agency of the National Academies in providing services to the 
government, the public, and the scientific and engineering communities. 
The National Research Council is jointly administered by the National 
Academy of Sciences, the National Academy of Engineering, and the 
Institute of Medicine.
    TRB was created in the 1920s to be an intermediary between newly 
formed state highway departments and research programs and the federal 
government, then the Bureau of Public Roads. Since the 1980s TRB has 
also convened committees under the auspices of the National Research 
Council, which advise Congress and federal agencies on transportation 
policy issues and evaluate and advise agency research programs.
    TRB is supported by state transportation departments, federal 
agencies including the component administrations of the U.S. Department 
of Transportation, and other organizations and individuals interested 
in the development of transportation. Since its inception, TRB has 
provided opportunities for dialogue, information exchange, and sharing 
of research activities (to avoid duplication of effort) and research 
results. For more than 40 years TRB has been a multimodal research 
organization with activities in all modes. TRB provides an extensive 
portfolio of services, including:

    <bullet>  Information exchange on current transportation research 
and practice,

    <bullet>  Management of cooperative research and other research 
programs,

    <bullet>  Analyses of national transportation policy issues and 
guidance on federal and other research programs, and

    <bullet>  Publications and access to research information from 
around the world.

    These activities annually engage more than 7,000 engineers, 
scientists, and other transportation researchers and practitioners from 
the public and private sectors and academia, all of whom contribute 
their expertise in the public interest by participating on TRB 
committees, panels, and task forces.
(2) Earmarking
    Earmarks are a tax on the rate of return to the national investment 
in transportation R&D. Earmarks constrain the publicly funded 
transportation research system's ability to produce other than 
incremental solutions to incremental problems. Legitimate objectives to 
insure that the national transportation R&D portfolio take into account 
geographical, climatic, and demographic differences while 
simultaneously providing geographically dispersed opportunities for the 
education and training of technically trained transportation personnel 
do not require earmarks. These objectives can be met by far simpler, 
more cost-effective policies and programs.
    Indeed, to someone who has only recently migrated into the domain 
of transportation R&D, its most striking landscape feature, as 
documented in several TRB reports and the overview article, 
``Earmarking in the U.S. Department of Transportation Research 
Programs,'' by Ann Brach and Martin Wachs (Transportation Research Part 
A 39 (2005), 501-522), is the pervasiveness of earmarking in the 
allocation of transportation R&D programs. Both in terms of total DOT 
transportation research and the allocation of UTC funds, earmarking has 
gone viral. Its causes have moved from the opportunistic actions of 
influential members of Congress to designate funds for selected 
purposes and/or performers within their jurisdictions to what I have 
termed a race to the bottom among academic administrators and faculty 
who increasingly ``view earmarks . . . as an acceptable way to get 
financial support for projects and facilities that might not survive 
review procedures based on merit'' (``Research Subverted by Academic 
Greed,'' Chronicle of Higher Education, January 16, 2004; B6ff).
    Only in my earlier work on the U.S. agricultural research and 
technology transfer system have I encountered such pervasive 
earmarking. This comparison, I believe, is an especially telling one in 
considering the future. Earmarking contributed to ``same old/ same 
old'' research agendas--some of it highly productive, some of it 
mundane-of agricultural researchers in the USDA's Agricultural Research 
Service and university faculty receiving funds via State Agricultural 
Experiment Stations. It thus was a factor in the limited role of these 
research communities in the genetics-biotechnology scientific and 
technological revolution that has since transformed plant and animal 
research. The major scientific and technological advances that spawned 
this revolution came from researchers in the life sciences whose work 
was funded by other Federal agencies and other sources. Indeed, the 
backwater nature of mainstream agricultural research even gave rise to 
proposals, some of them originating in this Committee, for moving 
funding for agricultural research from USDA to other Federal agencies. 
Even today, the mix of formula funding and competitive awards in the 
funding of agricultural research remains at issue, but at least it is 
one openly debated, leading to some acceptance, albeit at times 
grudgingly, that some provision for all-comer, competitively awarded 
grants is needed to insure the continuing vitality and thus 
productivity of the underlying research.
    Earmarking, by definition, is a method for circumventing the 
quality control contained within competitive, merit review processes. 
The result is not necessarily that earmarked projects do not produce 
useful findings. Research by definition involves uncertainty; not 
inconceivably, as in selecting single entries from two sample 
distributions, one may find some earmarked awards producing results 
that are at least as good or better by some standard than those 
allocated by competitive merit review processes. But one has every 
reason to expect that a comparison of overall statistics--mean, mode, 
lower and upper tails--will document the greater return on the public's 
investment to those allocated via competitive, merit review processes.
    Beyond the quality control issue, there are increasingly compelling 
reasons to expect this difference. These differences derive from the 
dynamics of faculty and institutional behavior and the dynamics of 
scientific and technological discovery.
    Earmarking of academic R&D funds is enervating. It provides 
researchers and their institutions with assured funding that need not 
necessarily require their best efforts. It reduces the incentives 
faculties have to respond to new scientific or technological advances 
or new sources of funding. As a dean of engineering once lamented 
during an interview I conducted during a study of the determinants of 
university research competitiveness, he had little ability to motivate 
his faculty to seek larger, more technically challenging but 
competitively awarded grants because they were ``comfortable'' with the 
support for summer salaries and graduate research assistants they 
received from a congressional earmark.
    Insulation from competitive, merit review processes also removes 
opportunities for constructive learning. Painful and idiosyncratic at 
times that it can be, and here I speak from considerable experience, 
running the gauntlet of competitive merit reviews can contribute 
significantly to the improvement of one's work. The judgment and advice 
of peers about ways to reconceptualize a problem or to attend to 
otherwise overlooked analytical techniques or data sources are low cost 
ways of increasing the yield from specific projects. These 
opportunities are missed or diluted when earmarking occurs.
    My current research into the dynamics of scientific and 
technological advances across many fields of endeavor highlights yet 
another debilitating effect of earmarking on the returns to Federal 
investments in transportation research. As cross-disciplinary, cross-
sector/collaborative research becomes an increasingly essential element 
in generating significant/transformative/impactful discoveries, other 
Federal R&D agencies have responded by increasing their support for 
multi-year, multi-institutional R&D awards. A key requirement in this 
new mode of funding academic science is the requirement that the 
research program involve participation by faculties in multiple 
disciplines, departments, and colleges.
    Cross-fertilization of ideas, techniques and discoveries are 
increasingly the seedbed of significant advances, not only in ``basic'' 
science but also in mission-oriented/problem-focused research. To cite 
but one of numerous contemporary examples, the University of 
California-Santa Cruz's Center for Adaptive Optics research efforts to 
improve the precision of telescopes used in astronomical research also 
have yielded important advances in vision science that ultimately will 
enter into practical applications in optometry.
    Existing earmarking arrangements limit these possibilities in 
transportation R&D. In particular, earmarking serves to isolate the 
transportation research community from researchers in cognate 
disciplines. Isolation occurs because the recipients of earmarks have 
little incentive to seek out or engage colleagues in disciplines whose 
work may enhance their own. Further contributing to this isolation is 
that faculties outside of the transportation field have little 
opportunity to extend their techniques or findings to transportation 
related problems. Isolation in turn contributes to making 
transportation R&D an academic research backwater.
    Indeed, writing now clearly as a lay person and not a technical 
expert, I continue to be struck by the opportunities for collaboration 
and cross fertilization of ideas and techniques--all pointing to higher 
returns on the nation's investments in R&D--in the thematic areas I 
have encountered during my participation in a recent assessment by the 
American Association for the Advancement of Science of the National 
Science Foundation's Science and Technology Center's program and those 
identified in several TRB reports about opportunities and needs in 
transportation R&D. New materials, nanotechnology, remote sensing, 
optics, computer software, and more, are but a few such examples of the 
research being conducted by these centers that appear to connect 
directly to the larger transportation R&D agenda. A more open, flexible 
and competitive transportation system that fosters such connections 
would contribute both to more impactful findings and by narrowing the 
gap between discovery-oriented and mission-oriented work also serve to 
accelerate the incorporation of new scientific and technological 
discoveries into socially beneficial practices.
    The essential point to my answer about earmarking is that it is 
mainly a restatement of views already expressed by key performers and 
users of transportation R&D. One of the most striking, and indeed 
gratifying experiences, I had as a member of the RTCC that prepared the 
2001 report, The Federal Role in Highway Research and Technology 
(Transportation Research Board, Special Report 261) was to observe its 
members-representatives from industry, state government, universities, 
not-for-profit organizations, and professional association-advance as a 
core recommendation that:
    ``University transportation research funded under the UTC program 
should be subject to the same guidelines as FHWA's R&T program-open 
competition, merit review, stakeholder involvement, and continuing 
assessment of outcomes-to ensure maximum return of the funds invested 
(p.9).'' Similarly, the 2008 RTCC report, The Federal Investment in 
Highway Research 2006-2009, offers as a recommendation:
    ``To the maximum extent practical, research funding should be 
awarded through competition and merit review'' (TRB 295, p.4).
    Far more important than may be my views, it is the stakeholder 
community that is asking for relief from current earmarking 
arrangements. It is they who are asking to be allowed to be all that 
they can be.
(3)
    This is a multi-part question, with my answers limited to the two 
areas--measuring returns to Federal investments in research and 
technology transfer-on which I have conducted research and professional 
activities. My answer to the question, ``How is the value of Federal 
transportation measured,'' is based on a general impression, augmented 
by a review of FHWA's Office of Research Development and Technology's 
2007 ``Synthesis of R&D Benefits Case Studies,'' which reports on 
findings from 3 contractor studies.
    At present, assessment of the value of transportation R&D appears 
to be based heavily on expert review panels, augmented, as above, with 
infrequent contractor studies. Expert review is a mainstream technique, 
widely used by and for Federal agencies to assess R&D programs. But it 
is not state-of-the art. Increasingly, both Congress and the Executive 
Branch are demanding or requiring that expert judgment be augmented 
and/or supported by ``evidence,'' typically of a quantitative nature.
    As the author of several recent review articles on measuring the 
returns to Federal government R&D and as an active participant in 
recent workshops and forums relating to the ``science of science policy 
research,'' I recall no participation of anyone whose work bore upon 
transportation R&D. Noting that I have not had time to conduct a full 
review of the above cited contractor studies or the larger published 
literature, I am not presently aware of any studies related to 
transportation research that have employed the concepts--e.g., 
knowledge spillovers; social savings--or employed the methodological 
techniques--e.g., network analyses, patent analysis, bibliometric 
analysis--that are becoming standard components of efforts to measure 
the value of Federal R&D in other domestic domains.
    The cause and consequences of this lag are circular. Without the 
type of evidence now being demanded of research programs in budget 
reviews, advocates for Federal support of transportation research are 
at a competitive disadvantage relative to those in other fields who 
have advanced beyond review panels and are tackling the admittedly 
formidable challenges of deriving valid and credible estimates of 
outcomes and impacts from what is inherently a long-term, circuitous 
and probabilistic process. Lacking funds, and especially discretionary 
funds to support policy oriented research, which is not cheap, DOT and 
its subunits cannot gather the type of evidence needed to make a 
``convincing'' case about the value its research activities have 
generated.
    My answer to the question, ``Is technology transfer from federally-
funded research and development effective,'' and ``How could it be 
strengthened'' is an indirect one, in part again because of what I 
perceive to be the limited availability of quantitative evidence that 
would permit program level assessments along cost-effectiveness or 
benefit-cost lines, and in part because the processes of technology 
transfer are so variable and context dependent that it is difficult to 
generalize from one or a few cases--successes or not--to a program 
level assessment.
    Certainly, one can point to notable successes in technology 
transfer. Moving beyond the justifiably oft-cited example of SuperPave, 
my favorite example based on personal experience as a taxpaying 
consumer is the increased adoption of roundabouts. According to TRB 
295, the diffusion of roundabouts was spurred by an FHWA 2000 report, 
Roundabouts: An Informational Guide, which is described as having lent 
``legitimacy and credibility to an alternative intersection design.'' 
(p. 78) that has considerable safety benefits. I now encounter 
roundabouts on Route 15 crossing over between Virginia and Pennsylvania 
and most especially, and thankfully, on Route 179 between Oak Creek and 
Sedona, when my wife and I spend time there in the winter. I also 
believe that I am about to get a roundabout in my local neighborhood as 
construction continues on a new intersection between Old Gatesburg Road 
and Pine Hall Road in Ferguson Township, Pennsylvania.
    DOT's existing technology transfer programs consists of information 
dissemination, technical assistance, and demonstration projects. These 
are the tried and true technology transfer techniques of most Federal 
agencies. Thus FHWA's Priority, Market-Ready Technologies and 
Innovations List which offers clear, concise, and informative 
information about ``vetted'' new technologies is one means of reducing 
the technical and regulatory uncertainties associated with trying new 
things, thereby making them more attractive to potential adopters.
    What needs to be considered here is less the present than the 
future. The design and operation of a technology transfer system must 
be based on the design, operation and outputs of its parent R&D system. 
Whatever may be the current level of effectiveness of DOT's technology 
transfer activities, a new, expanded Federal role and set of techniques 
will be required if the recommendations relating to the restructuring 
of the direction and conduct of transportation research contained in 
the other answers are adopted.
    In particular, a shift to a system directed at longer-term, more 
exploratory research, especially one predicated heavily on the 
participation of universities, requires a broader conceptualization of 
meaning and implementation of technology transfer. Only sketching here 
the elements of such a system, added emphasis would need to be given on 
how the Federal government could assist in the development of 
university-industry-state and local government cooperative agreements 
or research centers that provide for closer, upfront connections 
between research agendas and user needs. Also, under a similar 
revamping of the research agendas of UTCs, additional attention would 
need to be given to policies and terms relating to patent and licensing 
arrangements between Federal labs and universities and private sector 
firms. Again, focusing on technology transfer from the UTCs, added 
attention would need to be given to the role that the placement and 
mobility of graduates of university research centers or of other 
university degree programs plays in disseminating new practices into 
the agencies and firms in which they work.
(4) University Transportation Centers
    I am aware that in the interval between the Subcommittee's 
invitation to me to address this topic and submission of my written 
testimony, important administrative actions have been taken by DOT to 
modify the program. Specifically, it is my understanding that the 
Research and Innovative Technology Administration (RITA) has decided to 
end funding for all 59 UTCs (including those selected through 
competition) and hold a new competition that will select a total of 20 
UTCs.
    Recognizing then that I address a situation much in flux, my 
answers relate to the previous setting, while in the process being 
consistent with the general thrust of RITA's recent actions.
    My recommendations for improving the University Transportation 
Center program essentially extend the above answers about the need to 
curtail the earmarking of transportation research funds to specific 
projects and performers, with the added observation that specific 
provisions of the UTC program further sap its potential to be a 
significant contributor to a vibrant national transportation R&D 
program. In particular, the requirement that UTCs match their federal 
funding with nonfederal funding on a dollar-for-dollar basis and the 
peanut butter spreading of program funds among such a large number of 
recipients cannot but serve to drive research agendas to short-term, 
applied projects. Basing my answer on my experience as a social science 
researcher accustomed to the modest size awards offered by NSF but also 
as the director for 25 years of a social science research institute in 
which single investigators received competitive multi-year awards for 
several hundred thousand dollars, the $500,000 annually awarded to the 
earmarked Tier II schools is below the threshold needed on average to 
engage in a substantial, sustained research program.
    The program's 4 tier categorization serves little purpose but to 
ensure that each state has 1 center, each doing what it states it can 
do best, with little regard for an integrated, priority-driven national 
transportation R&D agenda. Moreover, quality control checks on the 
program's performance are reported as weak or lacking. According to the 
2008 TRB, The Federal Investment in Highway Research, only 38 percent 
of the Title V UTCs are awarded their funds competitively (p. 77). More 
strikingly, in contrast to the increasingly rigorous evaluations 
already undertaken or being planned for the R&D programs of agencies 
such as NIH, NSF, NIST, DOE, and USDA, ``There is little program 
oversight for the earmarked universities'' (TRB, 2008; p. 73).
    Overall, whatever its initial merits as both a research and 
educational program, at present the UTC program is poorly designed to 
produce substantial returns. The program requires fundamental re-
engineering based on the design principles of providing adequate funds 
for some smaller number of competitively selected universities so that 
they can engage in longer term, more fundamental research. The original 
design principal of one UTC in each of 10 districts should be retained, 
with the collective university research agenda closely linked to a 
clearly articulated set of national transportation R&D priorities. 
Rather than relying on earmarking to insure participation of other 
universities (and political jurisdictions), one of the selection 
criteria used to competitively select host institutions should be the 
extent to which the proposed host institution can demonstrate 
partnership relationships with other universities and stakeholders 
within the region.
(5) Recommendation
    The above answers not surprisingly lead to this final answer about 
recommended changes in the highway bill's reauthorization of its 
research titles. My overarching recommendation is to deregulate 
transportation R&D. Existing provisions are overly restrictive, 
prescriptive, and inflexible. New titles should be based on setting 
forth broad national transportation objectives--economic productivity/
competitiveness/efficiency; safety and the like, as have been 
identified in earlier national reports; funding for these objectives 
should reflect mutually arrived at agreement among Congress, the 
Executive, and stakeholders about the relative priorities to be 
assigned among these objectives along with the assessments of existing 
and newly consulted relevant research communities about the feasibility 
and the opportunities predicted for research and development; funding 
should be provided for a modest number of multi-year research centers 
in order to foster longer-term, interdisciplinary research, with awards 
made on the basis of competitive merit review; funding also should be 
provided for all-comer, unsolicited proposals directed at stated 
research priorities, with awards again based on competitive, merit 
review; and procedures should be put in place for systematic, 
independent, expert assessment of the quality of research and of 
subsequent impacts.
    In one sense, these are very modest recommendations. They integrate 
best R&D organizational design, management practices, and evaluation 
procedures from across Federal agencies. They are clearly grounded in 
the oft expressed views of transportation R&D leaders and users across 
levels of government as well as the private, public and not-for-profit 
sectors. In another sense though they clearly are stretch goals for the 
Congress and for the relevant stakeholder and performer communities for 
they represent far reaching changes in the status quo.
    They are presented here today in the view that this Subcommittee is 
in a unique position to substantially increase the national return on 
Federal investments in transportation R&D by catalyzing long recognized 
and much needed changes.
    There are more specific recommendations to the transportation 
research title made in the 2008 report of the Research and Technology 
Coordinating Committee referenced earlier. Although I was no longer a 
member of the committee when this report was developed, it is relevant 
to your work and I recommend that the Subcommittee request a briefing 
on it from the Transportation Research Board.
    Thank you, Mr. Chairman

    Chairman Quayle. Thank you.
    The chair now recognizes Ms. Peterson for five minutes.

                STATEMENT OF MS. LYNN PETERSON,

                TRANSPORTATION POLICY ADVISORPR,

             OFFICE OF GOVERNOR JOHN KITZHABER (OR)

    Ms. Peterson. Good morning, Chairman Wu and Ranking 
Member--I am sorry. Chairman Quayle and Ranking Member Wu and 
Members of the Committee. I am Lynn Peterson. On behalf of the 
governor's office of the great State of Oregon, thank you for 
the invitation.
    You know, I have spent my career as a transportation 
engineer, and you know, really trying to find ways to reduce 
costs within the entire transportation system and as a whole in 
designing construction. As an entry-level engineer in 
Wisconsin, I was told that because I was designing for the 
public infrastructure my number one priority was public safety, 
and while I completely and utterly agree with that, what we 
were taught was basically take everything from the 13 three-
ring binders that I was told to memorize my first couple months 
and basically look at adding 20 percent plus 20 percent in 
order to make sure that we were accommodating for public 
safety.
    But over the 20 years that I have been out of school that 
over-design because we didn't know, and there were a lot of 
myths out there, that over-design is slowly going away, and we 
are getting to a much more cost-effective delivery system.
    So let me just give you an example. If it said a 12 foot 
lane, add 20 percent, 14 feet wide must be better. We now know 
that depending on the context of how you are building, what the 
land uses are or what the users of the system are, you may or 
may not need that width or the width may be needed for 
something else.
    So we are really looking to reduce costs. In these tough 
times we can't afford to continue not having the research, 
especially in safety and all of the other things that these 
fine gentlemen have pointed out in order to reduce costs. And 
we also cannot allow ourselves to kind of dip into the point of 
getting back into the myth creation by not having a workforce 
that is either being trained or retrained in what actually the 
experiments have shown, what the testing has shown, whether it 
is concrete or the turn radius for a roundabout.
    So we have to continue these robust engineering research 
programs, and I want to just call your attention to page 2 of 
my testimony where we talk about the types of things that--
savings that we have been able to achieve both in the Oregon 
Department of Transportation and OTREC, our Transportation 
University Research Center. The first example that I would 
point to is our cracked bridge program, where we spent $1.3 
billion in replacing bridges, but we were able to save $500 
million by looking at the research over a series of years and 
demonstrate that given allowable revisions to load rating 
procedures, many of these bridges did not need repair or just 
needed small repairs.
    We also did an applied research with Transportation 
Research Board that saved about $73 million on expediting 
project delivery while improving environmental outcomes by 
moving to an outcomes-based environmental approach.
    And then just let me bring up the example of Missouri DOT, 
who has moved into what they call practical design. Based on 
safety research they have been able to figure out how to reduce 
costs for delivery of projects and do more projects, and has 
seen significant reductions in the number of fatalities over 
the last five to six years.
    This applied research such as ODOT examples must be paired 
with the Transportation Research Board and local advanced 
research development such as the university transportation 
centers. OTREC or Oregon Transportation Research and Education 
Consortium is doing that by integrating and looking ahead of 
the research development arm of the State by working with all 
of our universities to coordinate research and expertise. Each 
one of our universities in the State has a specific expertise 
which I think while we talk about needing to reduce the number 
of university transportation centers, we also need to recognize 
geographic diversity and uniqueness of where that expertise is 
housed from past years of how--where is that research coming 
from.
    Which is important because we need to be able to implement 
lease cost planning within our infrastructure. One of the 
largest gaps in advanced research is the integration of freight 
and bicycling into regional travel demand models. It is 
something we really need to pay attention to.
    And as I sum this up, probably the most important thing to 
remember is that we need to support workforce development. Let 
me just emphasize that we have a lack of engineers in this 
country. Just like Intel which is in Congressman Wu's district, 
they only look for the best and the brightest, and they are not 
looking in the United States as much as they looking abroad.
    We need to actually develop the workforce here in this 
country, and we can't do that without being able to provide 
research-type opportunities for them in order to be able to 
have commonsense judgment on the ground when they are 
implementing. They need to be able to test and experiment. Our 
University Transportation Research Centers allow that to 
happen, and without that we are not teaching strategic 
thinking.
    Let me just finish by saying that the Federal Government 
should continue to play an integral role in financing and 
setting performance measures in transportation because from a 
local street to the interstate, from a local airport to the 
international airport, between the actual local bus stop to 
busses and other forms of public transit options between 
cities, the transportation system is a connected system, and 
the user doesn't care who owns what. This is a shared system 
that only works if all the pieces are working together, and 
since research is learning and learning is necessary to compete 
and create a skilled workforce, competition for economic 
prosperity is tight worldwide and in order to keep the U.S. 
moving, we need to keep our research strong to keep our 
economic advantage.
    Thank you.
    [The prepared statement of Ms. Peterson follows:]

Prepared Statement of Ms. Lynn Peterson, Transportation Policy Advisor,
                 Office of Governor John Kitzhaber (OR)
    Good morning Chairman Quayle, Ranking Member Wu and Members of the 
Subcommittee. My name is Lynn Peterson and I am the Sustainable 
Communities and Transportation Policy Advisor to the Governor of the 
State of Oregon.
    I would like to begin by thanking you for this opportunity to share 
our views and perspectives on our ongoing research and development 
activities. On behalf of my colleagues in academia, government and 
industry, I appreciate this chance to address the technical, 
regulatory, social and financial challenges to implementing new 
measures and integrating new technologies into existing transportation 
networks.
    The State of Oregon has a long history of research and development, 
and we learn from the cutting edge application of policies and 
technology we have put in the field. This has encouraged an environment 
of learning within the state. I have benefitted as a professional of 
having this environment by receiving two masters degrees from Portland 
State University (transportation planning and engineering), and the 
citizens have benefitted with increased efficiencies, choice of modes, 
environmental quality and safety.
    Oregon has focused on applied research, which has allowed us to do 
more with less. In order to maximize this approach, we need all federal 
programs to be as flexible as possible so that Oregon and other states 
are allowed to make the most effective use of limited funding, leverage 
resources and maximize their economic competitive advantages.
    There are four things I hope you will take to heart from this 
testimony. The first is that you will appreciate the key role that 
research plays in continuing to meet the mobility needs of Americans 
and building stronger communities.
    The second is that virtually every aspect of our transportation 
system needs to be transformed in the short and medium term future, and 
this challenge can only be met through innovations developed through 
research. Congestion threatens our economic viability and our quality 
of life. Fuel taxes, which currently provide the core of transportation 
funding in America, are not able to keep pace with the cost of 
preserving, maintaining and operating our transportation system, much 
less improving it. Energy consumption by the transportation sector 
frustrates efforts to achieve energy independence. The future 
transportation system needs to be safer, cleaner, more efficient, more 
equitable, more reliable and more cost-effective. Research will play an 
indispensable role in achieving those objectives. We value research in 
spite of limited resources because research spurs innovation and helps 
to tackle difficult transportation issues.
    The third is that in Oregon our research needs exceed our research 
resources. The scope of our research activities are largely limited to 
applied research which has applicability primarily to local conditions 
in Oregon. Oregon and other states rely on other programs to carry out 
applied research that has regional and national applicability. We also 
rely on other programs, such as research conducted by University 
Transportation Centers (UTCs) and sponsored by USDOT and the 
Transportation Research Board, to pursue more advanced research. 
Advanced research, like applied research, also has a practical 
objective, but it tackles bigger and less tractable problems in 
transportation. The next transportation authorization needs to continue 
to provide a means of addressing the needs of applied and advanced 
research which is regional and national in scope.
    Fourth, in Oregon we have developed a very successful model of 
collaboration between our research universities and between the Oregon 
Transportation Research and Education Consortium (OTREC), the state 
department of transportation (ODOT) and local governments. This 
collaboration allows us to stretch our resources further and leverage 
our expertise and funding across our institutions, and it ensures that 
research is able to be put into practice more effectively. Oregon's 
model can be used by other states and universities as a way to build a 
successful research partnership.

The Value of Research

    I would like to offer a number of instructive examples of how 
research efforts can be applied in the real world and help government 
agencies stretch public resources further and address emerging 
challenges.
    Cracked Bridges. A decade ago, ODOT discovered a widespread 
cracking problem in a specific type of reinforced concrete girder 
bridge that affected approximately 500 bridges statewide. Under 
existing load rating criteria these bridges would have to be replaced, 
repaired, closed or weight-restricted for heavy trucks, causing 
significant economic costs to our trade-dependent state. ODOT undertook 
the $1.3 billion Oregon Transportation Investment Act (OTIA) III State 
Bridge Program to repair and replace hundreds of bridges, which was by 
our state's standards a massive investment. In the meantime a series of 
ongoing research projects were able to demonstrate that given allowable 
revisions to load rating procedures, many of these bridges could be 
shown to be safe with only repairs or without any work. As a 
consequence, almost 200 bridges were either downgraded from replacement 
to repair or removed from the list of bridges needing work entirely. 
This research saved Oregon almost $500 million.
    Effective Bridge Repairs. Oregon has many older reinforced concrete 
bridges still in service that are showing signs of cracking and need to 
be strengthened or replaced to maintain safe and efficient travel, 
particularly for heavy trucks. However, ODOT simply does not have 
enough money to replace all of these bridges and instead is focusing 
its limited resources on cost-effective repairs that keep bridges in 
service longer. To do this, ODOT has conducted research to test 
effective repair techniques. Of particular concern is the capability of 
girders and cross-beams in bridges to withstand forces caused by bridge 
self-weight and truck traffic. ODOT has used a number of methods for 
increasing the capacity of girders and cross-beams, but there was no 
comparison of these techniques that could help engineers decide which 
method was most appropriate for a particular situation. ODOT contracted 
with Oregon State University to conduct testing on large-scale beams in 
order to compare the various repair methods, analyze the expected life 
and make recommendations for repair approaches. The outcome of the 
research provides bridge designers with a basis for selecting repair 
methods, and it provides guidance on calculating design capacity for 
the repairs.
    Expediting Project Delivery While Improving Environmental Outcomes. 
The Transportation Research Board's Strategic Highway Research Program 
2 (SHRP2) funded research carried out by OTREC faculty members to 
develop an Ecological Assessment Method for Highway Capacity Projects. 
This research built on earlier work by ODOT to develop a method for 
systematically aligning transportation and conservation priorities to 
achieve improved environmental outcomes and accelerate project 
delivery. ODOT used this approach in securing environmental permits 
under the $1.3 billion OTIA III State Bridge program. ODOT saved $3 for 
every dollar it invested in this approach during the bridge program, 
with total savings of $73 million. TRB has now funded a smaller 
metropolitan planning organization in Oregon to test the methodology. 
This approach could potentially transform environmental permitting for 
transportation projects from a prescriptive command and control 
approach to an outcome-based approach that saves time and money and 
leads to better environmental outcomes.
    Energy Independence and Economic Competitiveness. OTREC is 
conducting research that will help develop tools for local governments 
in reducing air pollution and meeting energy independence goals, all of 
which links back to mobility and the economic competitiveness of our 
communities. OTREC research has paved the way for advances in a number 
of areas. In the area of emissions, breakthroughs have been made on 
linkages between the impact of emissions and health of pedestrians, 
bicyclists, public transit users and residents due to exposure to 
particulate matter. Important advances are also being made in the area 
of fleet replacement models that consider hybrid and alternative fuels 
in addition to impacts on emissions.
    Researchers are currently analyzing the relationship between 
vehicle miles traveled (VMT) and economic activity to see if there is 
reason to be concerned about the impact that VMT reduction might have 
on local economic activity. Researchers are helping to explore wider 
application of land use models and adapting analytical methods to 
better reflect the relationship between land use, transportation and 
travel demand for specific land use types. This is extremely important 
in determining the impact of different development types on the 
transportation system.
    Examples of non-motorized travel research completed and underway 
include integrating bicycling to improve the regional travel demand 
model, understanding bicyclist route choice, investigating the 
effectiveness and safety implications of various bicycle infrastructure 
and the relationship between bike infrastructure and cycling activity 
to the patronage of local businesses. As it relates to commercial goods 
movement, one particularly innovative and completed research project 
focuses on the development of multi-criteria tools for measuring and 
analyzing the impacts of congestion on freight and the impact on 
reliability, delay, costs and emissions.
    While no single strategy will significantly reduce the 
transportation system's energy consumption, together these efforts will 
move us toward meeting state and national goals.

Overview of Transportation Research in Oregon

    The two key components of Oregon's transportation research system 
are the Oregon Department of Transportation (ODOT) and the Oregon 
Transportation Research and Education Consortium (OTREC).
    Our model in Oregon has been based on partnerships and 
collaboration since day one. Oregon's research program has been more 
successful than many state DOT programs in finding common ground with 
and leveraging assistance from University Transportation Centers. Part 
of the mission of University Transportation Centers is service to and 
collaboration with state transportation departments, and OTREC has been 
a strong partner with the state and local governments, including MPOs, 
transit districts and Port authorities.

ODOT's Research Program

    Again, transportation research needs of the states are primarily 
applied research to solve specific problems. The state Departments of 
Transportation generally expect a research project to deliver a product 
that can be put directly to use by the agency. Research interests are 
broad and eclectic, though most states do have well-defined priorities 
that change as problems are solved and as conditions change. Because 
states expect our research results to be used, these state programs 
also have a strong technology transfer or implementation component.
    The research and development that Oregon carries out independently 
focuses on the unique circumstances of the state: its geography, 
geology, climate, state laws and existing practices. For example, most 
states use the same engineering design manuals and guidebooks for 
structures, pavements, highway capacity, safety and traffic control 
devices. When these manuals are revised or updated, additional research 
is needed to adapt them to local conditions. Recent major revisions to 
the pavement design guide and the release of the new Highway Safety 
Manual triggered research efforts in Oregon and in other states to make 
these tools more readily usable given local conditions.
    State DOTs receive research funding through the Federal-Aid Highway 
Program. Under the State Planning and Research Program (SP&R), two 
percent of each state's federal transportation funding is set aside for 
planning and research activities. This system allows each state to 
address its top concerns and identify solutions at the state level. 
Since the research program is a portion of each state's federal 
funding, any reduction in federal funding for surface transportation in 
the next authorization bill will reduce funding for research as well, 
just at the time that more resources will be needed to find the best 
ways to stretch public dollars further.
    States rely on others to conduct applied research which is regional 
or national in scope and to pursue advanced research. For research that 
is of interest for more than one state, Oregon and most other states 
use the Transportation Pooled Fund (TPF) Program and/or the Cooperative 
Research Programs administered by the Transportation Research Board. 
These programs allow states to easily partner and leverage resources to 
solve common problems of a regional or national scope. For example, 
Oregon and other states recently teamed up for a pooled fund research 
project to examine strategies and best practices for state DOTs to 
support commercialization of electric vehicles and infrastructure, a 
key emerging technology that has strong potential to advance energy 
independence.

Oregon Transportation Research and Education Consortium (OTREC)

    The Oregon Transportation Research and Education Consortium (OTREC) 
is a National University Transportation Center that was established in 
December 2006 through a partnership between Portland State University, 
the University of Oregon, Oregon State University and the Oregon 
Institute of Technology.
    OTREC has chosen three focus areas: advanced technology, 
integration of transportation and land use and healthy communities. 
Each of these four institutions of higher education bring their unique 
expertise to the table, providing a relatively small state like Oregon 
the best opportunity to have a world-class transportation research 
center. The figure above illustrates how the many disciplines at the 
four campuses are interrelated around the consortium's theme.
    OTREC has funded 100 research projects involving 89 faculty members 
and 13 laboratories and research groups. All projects include external 
public and private matching partners with a total of 42 different 
entities involved. OTREC is multidisciplinary, with 22 different 
academic disciplines currently participating in our projects.
    Collaboration is strongly valued by OTREC, our partner universities 
and our many stakeholders, and it has been woven through our activities 
as an important cornerstone:

    <bullet>  New Collaboration Among Faculty. Faculty are encouraged 
throughout the proposal and project process to think of innovative and 
collaborative approaches to research, education or technology transfer. 
To date, 32 projects involve faculty at more than one campus and 78 
have multiple investigators.

    <bullet>  Strong Ties to ODOT and Transportation Community. More 
than 42 external partners provide matching funds of cash or in-kind 
support for faculty-led projects. ODOT is a primary partner, jointly 
funding nearly half of OTREC's research projects selected to date.

    <bullet>  Regional Collaboration. OTREC is part of the Region X 
Transportation Consortium, made up of UTCs in Oregon, Washington, Idaho 
and Alaska, as well as the four state DOTs, with input and 
participation by representatives of the USDOT. The Consortium funded 
one joint project focusing on regional impacts of climate change and 
teamed up to offer the first long-distance, multi-campus class between 
Oregon and Idaho.

    <bullet>  National Connections. OTREC strives to meet national 
transportation research and education needs and is active with the 
American Association of State Highway and Transportation Officials 
(AASHTO), the Transportation Research Board (TRB), the Council of 
University Transportation Centers (CUTC) and other national activities.
    OTREC uses the national DOT priorities to guide its research 
program. It is encompassed in the strategic plan, and every research 
proposal needs to relate back to one or more of the national 
priorities. One of the more significant activities that ensure that 
federal research efforts are coordinated at the state level is the 
involvement of OTREC staff and affiliated faculty in the TRB committees 
and research panels. Fifteen OTREC-affiliated faculty and staff 
represent 30 different committees and panels at the national level. 
Participation in national-level research activities ensures that 
research is better coordinated and avoids duplication.
    ODOT and OTREC work very closely together to address research 
needs, using State Planning and Research funding to leverage UTC 
funding, thereby stretching state resources further. ODOT employees are 
involved directly in governance of OTREC, and OTREC has a direct role 
in governance of ODOT's research program. State Planning and Research 
Program funding, which is eligible as match for UTC activities, is a 
very valuable tool for fostering partnerships. State funding beyond the 
State Planning and Research Program has been used to leverage federal 
funds and has contributed to advancing issues of national significance.
    OTREC has also fashioned similar relationships with Oregon's MPOs, 
transit districts, local governments and Ports. Joint research efforts 
have been established around freight and goods movement, transit 
operations, active transportation and healthy communities. Those 
relationships help to further leverage UTC funds.
    Alongside research, OTREC's mission includes educating the current 
and future workforce and sharing and implementation of research 
results. OTREC has been particularly successful in elevating the number 
of graduates enrolled in transportation degree-granting programs. OTREC 
requires that every research project involves undergraduate or graduate 
students--a strategy that helps to train the future transportation 
workforce. OTREC estimates that approximately 102 graduate students and 
48 undergraduate students have worked on OTREC-funded projects over the 
last four years. The most prominent outcome is helping to establish a 
graduate program at Oregon Institute of Technology that attracts 
students from the smaller and rural communities in Southern Oregon.

Disseminating Research

    The research conducted in Oregon has broad-reaching impacts on 
public and private sector work in transportation, helping to better 
inform and educate professionals and institutions. Researchers work 
hard to communicate their research results to transportation 
professionals who can put that research into action.
    ODOT and OTREC have undertaken a number of efforts to disseminate 
research to a broad audience. For example, ODOT Research publishes 
brief summaries of research reports for use by practitioners. These are 
available online and are distributed through the state's Local 
Technical Assistance Program (LTAP) Center. ODOT Research staff 
routinely attend agency-sponsored training events both to market 
research services and to disseminate research results.
    OTREC, along with many local partners, coordinates the annual 
Oregon Transportation Summit. The Summit is an opportunity to showcase 
important advances in research as well as an opportunity for 
stakeholders to provide insight into the most pressing needs of their 
agencies and organizations. The feedback obtained from the Summit has 
been used to guide research emphasis areas for OTREC's annual 
solicitation process.
    Similarly, the Northwest Transportation Conference brings 
nationally known speakers and supplements them with research and 
subject matter experts from Oregon universities and transportation 
agencies as well as the private sector. Presentations are often based 
on recently completed research and research in progress. The program is 
developed to offer something for the entire spectrum of the 
transportation workforce from the snowplow operator to the chief 
executive.
    ODOT Research also offers a number of training events. Street 
maintenance and collection schools that target the blue collar end of 
the public works workforce in Oregon. Courses address recent 
innovations in equipment, employee and work zone safety, signing and 
roadway marking materials, storm water management and other topics 
concerning innovations and new technology relevant to city and county 
road maintenance supervisors and workers.
    Over the past year, OTREC has focused on disseminating research 
results in more usable formats and has developed a communications 
strategy for what information, to whom and at what stage during a 
research project the information should be communicated. OTREC 
recognizes the need to translate the work of academics in a format that 
can be easily understood by agencies, decision-makers and the general 
public. Through a more concerted effort to develop project briefs and 
news articles, OTREC has seen an increase in the media and public 
interest in our research results. OTREC has also had good success in 
sharing results in weekly OTREC seminars open to the public and 
streamed over the Internet.
    Since inception, OTREC has funded 19 education and 14 technology 
transfer activities. Among the array of workshops and technology 
transfer activities offered, the most significant interest nationally 
is OTREC's light rail short course.
    One other key element in the system of getting innovations out to 
local governments is FHWA's Local Technical Assistance Program. This 
program funds a center in each state, the role of which is training and 
technology transfer serving the state, local and tribal transportation 
agencies within the state. LTAP is the primary conduit through which 
innovations developed throughout the system are put into the hands of 
potential users at the local level, in a form that they can use.

Transportation Research Needs of the States

    Each state differs in funding and priority needs for transportation 
research, but we share many in common. These needs are necessary for 
all states to increase economic competitiveness, especially in times of 
recession. Increasing focus on practical design, context-sensitive 
solutions, maximizing the efficiency of the existing system and 
preserving the system and freight movement will allow states to do more 
with less when investing their transportation dollars.

Oregon has identified a number of gaps in research:

    <bullet>  Efficiency. In the future, increasing highway capacity 
cannot be relied on exclusively to address transportation needs. We 
need to find ways to use existing capacity more efficiently, encourage 
development and use of alternative modes and manage growth through 
strategic and effective land use planning. Research is desperately 
needed in all these areas, in Oregon and nationally.

    <bullet>  Seismic Activity. Seismic vulnerability is a major 
concern in the Pacific Northwest region because of new and better 
understanding of the Cascadia subduction zone 200 miles off the Oregon 
coast, which presents the potential for a magnitude 9 earthquake and an 
attendant major tsunami. The Japanese experience has taught the 
importance of keeping lifelines open for emergency response. Research 
is needed to pinpoint the risks and to prioritize remedial actions.

    <bullet>  Mileage-Based User Fees. Fuel taxes are rapidly becoming 
an obsolete tool for transportation funding as fuel efficiency improves 
and alternative fuels become more prevalent. Oregon has been a leader 
nationally in the move toward mileage-based road user fees. Making a 
transition to a suitable alternative has a significant research 
component.

    <bullet>  Energy. One way states can help advance energy 
independence and combat global warming is to use the transportation 
system itself to produce clean energy. ODOT's Solar Highway program has 
taken the first steps in that direction, and there are a number of 
promising nascent technologies that need to be explored, evaluated and 
tested.

Advanced Research

    As noted previously, states focus on applied research. Advanced 
research, in contrast, seeks to make progress toward a solution to a 
critical transportation problem, but without expecting to reach a 
solution within the scope of a single project. Advanced transportation 
research currently falls within the scope and responsibilities of 
University Transportation Centers and the various advanced research 
initiatives of the USDOT. While the DOTs do not engage in advanced 
research, it is important to Oregon and to the rest of the states that 
someone is tackling the bigger problems in transportation.

Stakeholder Needs Identified in USDOT

    Prioritization Oregon supports the top five key USDOT priorities. 
However, a number of other key areas could be emphasized and are 
perhaps not fully captured in the key priorities as currently stated. 
These include the following:

    <bullet>  Resiliency in the Face of Natural Disasters. Given the 
real and present impacts of recurring natural disasters and climate 
change on transportation infrastructure and communities across the 
country, more research and inclusion of resiliency across all key 
priorities is needed. Communities that are designed for change such as 
economic conditions, fuel prices and climate will be better adept at 
bouncing back in harrowing times. There are clear examples such as the 
rebuilding efforts that currently continue as a result of Hurricane 
Katrina and the communities recently devastated by flooding and 
tornadoes.

    <bullet>  Consider Equity Issues Across All Priorities. Vulnerable 
populations from the elderly to the socio-economically disadvantaged 
need greater consideration across all key priority areas. Similar to 
resiliency, transportation equity is yet another cross-cutting issue. 
For example, those who are most at-risk on the roads are older adults, 
the poor who cannot afford more advanced vehicle safety features and 
kids (where vehicle crashes are the leading cause of unintentional 
injuries and deaths). Another example is providing good access to 
sidewalks and better linkages between transit, pedestrian and bike 
facilities that make these viable transportation options for the 
vulnerable populations that cannot drive or own a vehicle. And equity 
needs to include a joint transportation and land use component to 
better link social and community services with disadvantaged 
populations.

    <bullet>  Align Performance Measures With New Policy Direction. 
Useful measures help states and MPOs better allocate scarce 
transportation dollars and better describe system performance to the 
public. Prevailing performance measures that have been used to 
historically characterize our transportation system are at odds with 
the direction that policy decisions are headed. Measures of success are 
evolving to reflect cross-modal benefits and better represent the 
transportation system as a whole. The research strategic plan should 
evaluate the applicability of traditional measures such as benefit-cost 
ratios or volume-to-capacity ratios across all modes and explore other 
options that support the Department's policy direction.

    <bullet>  Consider Health as Another Key USDOT Priority. Given the 
obesity, diabetes, asthma and other chronic disease epidemics stemming 
from the lack of physical activity and air pollution in addition to the 
exorbitant health care costs the U.S. is facing, health should be 
included as a sixth priority. This would address issues such as 
increasing walking and bicycling, as well as the issues that relate to 
an aging population and safety and accessibility issues of all users of 
the transportation system. Health impact assessments are also being 
integrated across the country as part of the transportation planning 
process and this perspective is gaining momentum at local levels.

    <bullet>  Recognize Active Transportation as a Mode. Active 
transportation, such as bicycling and walking, needs to be recognized 
as a mode, particularly because it is among the most cost-effective 
investments in improving the transportation system. This national 
recognition may be a catalyst for cities and regions that are seeing 
significant increases in bicycling, walking and non-motorized travel to 
help further implement infrastructure and safety programs. It would 
also encourage other areas to see active transportation as a practical 
strategy among others that can help address climate change, congestion, 
safety, health and equity issues.

Recommended Changes to Reauthorization of Surface Transportation Bill

    In looking ahead, we feel there are some opportunities for policy 
changes that would help to improve research both at the national and 
state level. For the next surface transportation bill, we urge you to 
consider some small but important changes that would encourage 
collaboration, in turn further leveraging existing resources. These 
changes include:

Broadening Federal Match for University Transportation Centers (UTCs)

    USDOT should re-examine match requirements and allow other federal 
sources as match (e.g., other USDOT, NIH, CDC, NSF, etc.). The next 
iteration of the USDOT research strategy should foster closer 
cooperation with other federal agencies such as the U.S. Environmental 
Protection Agency to work on greenhouse gas emission issues, the 
National Institute of Health to examine linkages between transportation 
and health policies, the Department of Housing and Urban Development 
and the Department of Energy to explore alternative energy for 
transportation. Allowing federal match dollars from these potential 
partners would encourage cross-agency and cross-discipline 
collaboration. In addition, federal transportation dollars from a 
metropolitan planning organization (MPO) should be eligible as match. 
Having a comparable program for MPOs similar to allowing federal State 
Planning and Research (SP&R) funds to be used as match would accelerate 
research innovation and adoption of federal priorities. For example, 
Metro (the Portland regional MPO) is an active research partner with 
OTREC making significant advances in modeling. They are seen as a 
leader nationally in adopting and applying innovative transportation 
planning and operational strategies.
    While there is widespread cooperation and collaboration between 
Metro and OTREC faculty, the inability to use Metro federal funding 
sources (both in-kind and/or cash) is a real barrier for leveraging 
local resources. In addition, the smaller MPOs in Oregon want to 
partner on research but have no non-federal funding available for 
research. Broadening the federal match eligibility would broaden local 
partnerships, reduce duplication and improve efficiency.

Streamlining the Adoption of New Innovations

    The current processes for adopting best practices and innovation 
need to be examined to find ways of encouraging or rewarding research 
with visible outcomes. For example, the current process for adopting 
and updating the Manual for Uniform Traffic Control Devices is 
difficult and stifles innovation. The state of the technology and 
innovative treatments being developed locally and regionally are 
constantly evolving. However, a shortage of funding directed at 
evaluating new, innovative technologies (including traffic control 
devices) limits the amount of innovation possible. Innovation that is 
proven and could help to advance the state of practice across the 
country is often hampered by slow policy changes. A new integral part 
of the DOT research program could be a way to help streamline the 
process for researching, evaluating and adopting new innovations.

Research on Mileage-Based User Fees

    In order to transition the transportation system to a user fee that 
is more sustainable in the long term, the next surface transportation 
authorization should create a research program designed to develop a 
mileage-based user fee system. This should include creation of a policy 
group within USDOT to oversee development of a mileage-based user fee 
system, as well as funding research and development efforts consisting 
of pilot projects and implementation trials that will identify the best 
option for a mileage-based user fee and design the system and 
technology required for implementation.

Making Better Linkages Between Research Groups

    We encourage more visible connections with and between national 
laboratories and research groups, including UTCs. The USDOT Research 
and Innovative Technology Administration should continue playing that 
role and help to communicate the work that is happening among the 
various groups. These connections again would help to broaden 
partnerships and promote collaboration.

Flexibility in Research

    Oregon's success in working with University Transportation Centers 
is not typical across the country. UTCs are expected to carry out 
advanced research within a defined topical subject area. State DOTs are 
interested primarily in applied research across a broad spectrum of 
topics. This can make common ground difficult to find.
    If the expectation is that states and UTCs should work together 
then there needs to be more flexibility in the expectations placed on 
UTCs regarding their research mission, so that they can respond to both 
national priorities and at the same time be responsive to the needs of 
the states.

Leadership and Strategic Direction

    There is a need for leadership and guidance from the USDOT on 
national research priorities. In order for the various players to do 
their parts, goals need to be articulated and hard choices need to be 
made about what is important enough to focus scarce resources on.
    In a few areas there are detailed, well-articulated roadmaps for 
research. An example is the Concrete Pavement Roadmap, a ten-year 
strategic plan that outlines approximately $250 million in needed 
concrete pavement research that will help develop a comprehensive, 
integrated and fully functional system of concrete pavement 
technologies. However, for most topic areas we have little more than 
very high-level summaries such as Highway Research and Technology: The 
Need for Greater Investment, the report of the National Highway R&T 
Partnership. Development of more detailed research roadmaps in DOT 
priority areas may help to provide clearer direction.

Conclusion

    Thank you once again for the opportunity to address the 
Subcommittee regarding transportation research needs of the states. In 
a down economy, research and innovation prove invaluable in providing 
new ideas and developing innovative solutions to help us do more with 
less and address rapidly changing realities.
    Oregon is a model for coordination and dissemination of research. 
The work of OTREC and ODOT has been very successful at maximizing the 
effectiveness of the money we invest in transportation research, and 
our state has seen the benefits of that in several instances discussed 
in this testimony.

    Chairman Quayle. Thank you very much, and I would like to 
thank the whole panel for their testimony today. I want to 
remind Members that--of the Committee rules limit questioning 
to five minutes.
    The chair will at this point open the round of questions, 
and I will recognize myself for five minutes.
    Mr. Appel, one of Secretary LaHood's strategic objectives 
is to support ``livable communities''. How does the Department 
define ``livable communities''?
    Mr. Appel. Livable communities in the context------
    Chairman Quayle. Could you turn on your mic?
    Mr. Appel. Livable communities in the context of 
transportation primarily is about transportation options. 
Realizing there are many different types of communities in the 
country and we want to ensure our citizens have good access to 
transportation to get to their libraries, their schools, their 
hospitals, and their retail establishments.
    And realizing that different segments of the population 
such as older Americans might not have the same access to 
automobiles or other modes of transportation as others, we want 
to make sure that, to the extent possible, members of our 
population are provided these options, so if one mode of 
transportation is not available, there might be others. In an 
urban area that might involve more transit. In a rural area 
there might be other creative options to provide multiple ways 
to get from point A to point B.
    But there is no cookie cutter answer to the question of 
what is a livable community because it really does depend on 
the nature of the community, but the transportation options is 
a major part of it.
    Chairman Quayle. So will we be able to quantify success on 
trying to basically achieve the objective of livable 
communities? I am just trying to think of what sort of 
objective ways we will be able to make sure that what DOT is 
doing and what we are trying to do is actually going to be 
accomplished?
    Mr. Appel. Yeah. Part of the Research and Innovative 
Technology Administration that I have is the agency known as 
the Bureau of Transportation Statistics, and so BTS is one of 
several groups within the DOT that are looking at things like 
performance measurement associated with strategic goals.
    So to take an example of a project that the Bureau of 
Transportation Statistics that is relevant to this question, we 
are looking at what we call the inter-modal connectivity 
database, looking at to what extent our communities are making 
good connections between one mode of transportation such as a 
rail line to another such as bus line or something else.
    To measure transportation options you often want to measure 
is it feasible to use a mode of transportation to get from 
point A to point B and if you take that mode of transportation, 
are you going to be able to connect to another mode to get 
where you want to get. There are quantitative ways to measure 
this by looking at the level to which one mode is providing 
connectivity to another.
    So that is one area that we are looking at. Do we have all 
the performance metrics in place right now? Not yet. It is kind 
of an ongoing process, but we are looking at that kind of 
metric, that kind of measure to say are we providing these 
transportation options.
    Chairman Quayle. Okay. Great. Mr. Halikowski, one of the 
challenges within the Transportation Research Committee has 
been to balance the immediate means for the short term while 
also not forgetting about long-term research goals.
    Besides increasing the federal cost share what other policy 
changes might allow the research conducted by the UTCs to be 
more focused on the long-term national needs?
    Mr. Halikowski. Well, thank you, Mr. Chairman. I will 
answer that this way. Arizona, as you know, does not have a UTC 
at this time. Right now the Department of Transportation is 
working with the three State universities to establish a UTC, 
and to put it in more practical terms of what we are looking 
and trying to do with the UTC is this, as some of the previous 
speakers have pointed out, the States do a pretty good job with 
applied research. For example, pavement durability, you know, 
bridge design, things like that. However, when it comes to some 
of those larger questions of economic issues and what effect 
transportation projects will have on the environment, on the 
social demographic, and on the economy, we look to the UTC to 
perhaps answer those larger questions and guide us through let 
us say a state-wide transportation plan.
    So as I look out into the future as to what UTCs might be 
able to do on a national level, it would be more of that idea 
of what is the national plan and how do you coordinate that 
across 50 different jurisdictions.
    Chairman Quayle. Okay. Thanks, and Dr. Feller, in your 
testimony you spoke very strongly about the harm that earmarks 
and the existence of too many UTCs have done--in setting 
research priorities. Do you think that the Administration's 
decision to make the UTC Program completely competitive and 
increase the grant size to about $2 million per consortia 
addresses that concern?
    Dr. Feller. I have limited detailed information about the 
proposal, but certainly I would certainly endorse going to a 
smaller number. In fact, I would start from a premise of 
starting at least one in each region, but building it as an 
award criteria, inter-state, inter-institutional collaboration. 
Two million dollars is certainly better than the $500,000, but 
I am not even sure that is enough. I would go for multi-year, 
long-term funding, and if I could just turn to your previous 
question, the way to ensure that the UTCs address important 
questions is to make this competitive and make the award based 
upon the importance of the novelty of the challenge of the 
questions that they are willing to address and show the 
capability of addressing, and if they do that, in most cases 
this will require collaboration with institutions in other 
states and other jurisdictions and other partners.
    Chairman Quayle. Okay. Thank you very much.
    The chair now recognizes the Ranking Member, Mr. Wu, for 
five minutes.
    Mr. Wu. Thank you very much, Mr. Chairman, and if I have 
enough time in five minutes, I am going to ask three hopefully 
quick questions, all aimed at, well, moving from the amount of 
research to earmarking to long term versus short term.
    In the background materials for this hearing and also for 
the hearing in the last Congress and the Congress before that 
what I have seen is that about one percent of the federal 
transportation budget is allocated towards research. To the 
extent that you all know, how does this compare with other 
fields? Is this an under-allocation to research?
    For anyone to address.
    Okay. All right.
    All right. We will come--well, then let us jump to the 
earmarking of projects.
    Mr. Gehr and Dr. Feller, you both addressed in your 
testimony how you feel that this damages federal research. Is 
it the case that the entire federal allocation to research at 
UTCs and more is earmarked by the time it goes out the door?
    Mr. Gehr. That has been our experience under SAFETEA-LU. 
When it was passed, as I mentioned, it was over-programmed. 
There were more projects identified than there were funds 
authorized to pay for those.
    So when that occurs, it takes away the flexibility that the 
research centers have to provide the creativity and the 
innovation when things have already been designed what they are 
to do rather than put it on a performance-based or an outcome-
based program, you know, with appropriate competition for the 
award of those dollars.
    Dr. Feller. If I may add, the TRB report, special report 
295: Federal Investment in Highway Research, contains the 
statistic that about 62 percent of the UTC funds are earmarked. 
I think the point that I would note is earmarking is not a one-
time thing. Earmarking as I pointed out in my paper is a 
contagious issue. It is viral. Once one group gets earmarking, 
you reduce the opportunity for competitive funding. I have 
interviewed university provosts and vice presidents for 
research who have had checklists of things that they were 
coming to Congress for to be earmarked.
    So, again, why compete in a game that essentially provides 
for lobbying and earmarking? It all--so it becomes systemic. It 
is not a one-time thing. The same groups, the same researchers 
get the earmarks year after year, and essentially the system 
runs downhill. You have no quality to check. I think Mr. Gehr--
you have no opportunity to assess the quality of the work that 
is being done.
    Mr. Wu. And the earmark projects tend strongly toward 
short-term rather than long-term research. Is that correct?
    Dr. Feller. That is the general observation that has been 
made.
    Mr. Wu. And in addition to the 80/20 allocation, what are 
some other mechanisms that you or the panel have in mind for 
shifting from short-term toward more long-term, more high-risk 
and high-return projects, research projects?
    Dr. Feller. If I could turn the question upside down, and I 
have seen this and just in terms of evaluating NSF's Science 
Technology Centers, researchers seek to answer the most 
important question for which they can get resources. So if you 
deregulate the system and have open competition, you will 
essentially unleash the creativity, the opportunity of 
researchers in the transportation field and in those fields 
that believe that their work can contribute to safety, cost 
reduction.
    Once you do that, the question really--you will have the 
Congress, the transportation, Department of Transportation will 
be able to see what is out there rather than prescribe who gets 
what to do what. I would not focus so much on the 80/20. That 
is valuable. It is certainly an important step forward, but I 
would basically say if you provide for an open competition 
geared against the set of overarching priorities that the 
Congress sets, that the DOT is charged with implementing, you 
will be both--you will be delighted and the transportation 
community will be delighted at the richness and the creativity 
of American engineers and scientists.
    Mr. Wu. Thank you very much, Dr. Feller.
    With a couple of seconds I have left, Ms. Peterson, you 
addressed in your testimony the need to ensure resiliency in 
the transportation infrastructure in case of natural disaster, 
and this is a particular interest of mine and a particular--of 
importance to the Pacific Northwest.
    Can you expand upon that and the current state of research 
in disaster resiliency, and I think that we have learned some 
particular lessons in the Chilean experience.
    Ms. Peterson. Well, within Oregon itself just with the 
tsunami that hit the West Coast of Oregon I think we have a lot 
of examples of economic, communities that are going to be at an 
economic disadvantage if we don't find ways to make sure that 
our transportation infrastructure can be put in place quickly 
after something happens in terms of environmental streamlining 
and the way we have done outcomes-based type of work but also 
with the type of pavement and how the pavement can drain. I 
mean, there are all sorts of technologies to allow for high 
water and that sort of thing.
    So I guess I would point to the type of research going on 
and the type of infrastructure we build and the type of 
environmental streamlining that we have shown to be able to do 
in Oregon to be able to get infrastructure back in place as 
quickly as possible with still good environmental outcomes.
    One thing I just wanted to mention in terms of competition 
is that competition is a good thing, especially when we are 
trying to achieve federal objectives. There are smaller local 
objectives that we also need to keep in mind that could become 
federal over time, and we need to be able to have some sort of 
consistent funding for those localized things that could at 
some point become part of a federal agenda.
    We also need to make sure that the flexibility of the types 
of money that can be used for match is a key part of moving 
forward. If we increase the match, if we continue the match, 
there is all sorts of federal money that is not allowed to be 
matched at this time. So I would love to follow up with you on 
those types of things in the future as well.
    Mr. Wu. Thank you, Mr. Chairman.
    Chairman Quayle. Thank you.
    The chair now recognizes the gentlelady from Illinois, Mrs. 
Biggert, for five minutes.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding today's important hearing on transportation research, 
and my first question is for Mr. Appel.
    Under DOT's new approach for allocating for fiscal year 
2011, funding for the UTC Program, the agency--you said that 
there will be 20 consortia to conduct research, and my concern 
is that this has just discontinued the funding for fiscal year 
2011, for the 59 programs that are now in existence. What 
greater benefits does DOT's new approach of selecting 20 
consortia seek to achieve when compared to the current UTC 
System? And do you plan on or anticipate capitalizing on the 
expertise that has been developed by many of the institutions 
participating in the program in order to ensure that we build 
on the expertise? Or is the objective to, just to created 
entirely new centers?
    For example, the new idea of competitively bidding to the 
20 university-based consortia appears to exclude the National 
Laboratories where there has been extensive modeling, 
university--and simulation with the universities and simulation 
capabilities being used by DOT, and it seems that if we are 
going to make good use of our existing dollars in a tight 
budget year, we should use those existing shared resources like 
high-performance computing capabilities that the government, 
universities, and the private sector already depend on. It 
seems like you are just cutting everything off to start over.
    Mr. Appel. Certainly we want to capitalize on some of the 
great capabilities that are out there at the universities. 
Yesterday in Portland, Oregon, I met with the leaders of many 
of the existing 59 University Transportation Centers, and I 
made clear to them that one of the primary criterion moving 
forward in the University Transportation Center Program is a 
demonstrated track record of excellence in transportation, 
research, education, and workforce development. And I would 
fully expect that a lot of the existing programs will 
demonstrate such a track record and will be very well 
positioned in a competition moving forward.
    That is not to say that there are not other universities 
outside the program that can also show or demonstrate a track 
record in that area. So we anticipate that there will be a mix 
of programs that already exist and perhaps programs that are 
new to the game to build the strongest pie of Transportation 
Research Programs moving forward.
    Mrs. Biggert.With this rapid transition in funding, how is 
that going to--everything stops until you have a competition, 
and when will that be--when will the awards be available?
    Mr. Appel. Yeah. We certainly have to recognize that 
universities have timeframes, and they have schedules, and they 
have deadlines, and getting as consistent as possible a flow of 
funding is an important thing to them. In the context of that 
we also had to look at the process that Secretary LaHood was 
asked to undertake, which is to review all programs in this 
category in the Department, not just the university programs 
but research programs in general to determine whether earmarks 
or other term-limited programs were, indeed, sufficiently 
funded. And the Secretary and his team across the Department 
went through a rigorous process to make that determination and 
ultimately made the determination that these programs had been 
sufficiently funded. The funds still are important to be used 
for the University Transportation Center purpose, and we want 
to very rigorously, yet very expeditiously move forward in 
getting the next rendition of the program.
    So, no, we don't want to stop and start over again. We want 
to maintain as much momentum as we can, and so in the design of 
the competition we are trying to do this in the most, not only 
rigorous, but fastest way we can.
    Mrs. Biggert. Okay. The other question was, will the 
National Labs be involved, or will they be included?
    Mr. Appel. The national labs play a very major role in 
transportation research across the Department. The UTC Program 
is just one of many research programs of the Department, and 
the national labs such as the national lab------
    Mrs. Biggert. But they have been involved in this with the 
universities.
    Mr. Appel. There have been partnerships with the 
universities, and there also have been grant funding that has 
flowed directly to National Labs, and we fully anticipate that 
the kinds of advanced computing capabilities, super computing 
capabilities at some of the National Labs and modeling 
capabilities will be part of the mix in research moving 
forward.
    For the university program itself, we are trying to drive a 
combination of research, transportation education, and 
transportation workforce development, and we want the core of 
that program to be universities, but at the same time we are 
very open to partnerships with other entities, including 
National Laboratories.
    Mrs. Biggert. And these will be $2 million awards?
    Mr. Appel. We are still working out what the request for 
proposal is going to look like for the UTC Program. We are 
actually currently looking somewhere in the range closer to 4 
million, but nothing is finalized until we work through the 
details to prepare a request for proposals, but, yes, something 
closer to the $4 million range per university consortium.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, Mrs. Biggert.
    The chair now recognizes the gentleman from Illinois, Mr. 
Lipinski, for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to follow up on a lot of the questions Mrs. Biggert 
was asking. I think a number of those questions are the same 
questions that I have about what is going to happen with the 
UTCs with the fiscal year 2011 funding.
    As you know, I strongly support the work of UTCs and was 
proud to help author the research title of the last surface 
transportation authorization, SAFETEA-LU, in 2005, that 
designated and funded UTCs.
    In particular I want to point out the work of one in the 
Chicago area, Northwestern University, and some of the work 
that they have done, including work related to structural 
health monitoring which provides real-time strain data on 
structures and the ongoing collaboration of the Business 
Advisory Committee there which brings together industry, 
academia, and government to identify key transportation issues 
and implement workable solutions. And these are the types of 
things I think that we all want to see going on at UTCs.
    My understanding is that the Department, in the 
redistribution of the fiscal year 2011 UTC dollars, said that, 
and I think you just mentioned this, I just want to better 
understand it, the Department believes that all 59 UTCs 
designated in SAFETEA-LU have been sufficiently funded to carry 
out their original purpose.
    Now, what exactly does this mean that they have been 
sufficiently funded that they have completed their purpose or I 
just want to get a clear sense of that.
    Mr. Appel. Well, they were originally set up in SAFETEA-LU 
as a four-year program, and they have completed the purpose set 
out of over a four-year period, in each case setting out a 
different strategic objective, and over a four-year period 
addressing that objective.
    We believe there has been great work done across these 59 
centers and ultimately the Secretary made a determination that 
based on what was originally laid out for this term of the 
program they have done that, and yet in anything involving 
ongoing research or education, we believe that there are 
opportunities for building upon that and moving forward.
    Mr. Lipinski. I just wanted to also make sure I understand 
that so universities can partner up with national labs, and 
what you are--the plans right now, I know the RFP is not out 
yet, but is that part of your------
    Mr. Appel. We are still working it through, and there are 
multiple types of partnerships. There is sort of the core 
program at what are the universities affiliated with the core 
program, and then who will they partner with to achieve further 
results. We are still working out the details of that, but we 
certainly want to be in contact with this Committee, with 
individuals that helped prepare the original SAFETEA-LU. We 
want to align as much as possible with the principles of the 
original SAFETEA-LU, at the same time building upon it to make 
an even stronger program.
    So bottom line it is an important question to address. We 
haven't finalized it in the development of the RFP.
    Mr. Lipinski. I just wanted to--I would say I think we all 
agree that we want to be spending our money wisely, and but I 
do share Ms. Biggert's concerns about money running out at 
these UTCs that are doing good work.
    Mr. Appel. And I have toured the UTC you are talking about, 
and you are absolutely right. There are--there is some 
incredibly good infrastructure work being done, not only at 
that university but their ability to collaborate with other 
strong engineering programs around the country is exactly the 
kind of spirit we are talking about, which is to take very good 
programs and encourage partnerships with other good programs 
around the country.
    Mr. Lipinski. And I want to make sure that we are--another 
concern is limiting the amount of money. I am not sure that 
that--the $2 million or the $4 million as you say you are 
considering now is enough money, but the last question I have 
is what is your timeframe right for announcing more information 
on having the RFP out there?
    Mr. Appel. We have a team very much focused on planning for 
this RFP in the weeks ahead. We hope to get a good solid 
amount, more information in the next few weeks or a small 
number of months, and we want to launch the competition as soon 
as we can as long as we have done that in a rigorous way. I had 
a good dialogue with the existing university transportation 
leaders yesterday as I mentioned, and we heard from them about 
what is on their mind. They want to make sure that they have 
enough time to respond to the RFP. This is coming out in the 
summertime where a lot of faculty are perhaps traveling or away 
from the university, so we want to hear from everyone about 
what timing works best for everyone, both for existing programs 
and potential future programs.
    Mr. Lipinski. If the chair would indulge me 1 more minute, 
I have one quick question.
    Chairman Quayle. One more minute.
    Mr. Lipinski. I just want to follow up, Mr. Appel, on your 
testimony discussing RITA's efforts to improve the 
accessibility in exchange of high-quality transportation 
information through partnerships with the National 
Transportation Library.
    Mr. Appel. Yeah.
    Mr. Lipinski. This is similar to a proposal I believe that 
I put forth two years ago when the Science Committee marked up 
the surface transportation R&D title. That proposal that I put 
in would have established a national clearing house for 
transportation R&D results at NTL.
    Could you tell me a little bit more about your initiative 
including whether it includes any efforts to promote the 
dissemination of or transfer of R&D results to industry and to 
government transportation workers?
    Mr. Appel. First of all, we are extremely appreciative of 
your leadership on the--on this topic of national 
transportation library collaboration. We have, as you know, we 
have a national transportation library at DOT, and it is a 
virtual library with connectivity to State DOTs and their 
libraries and universities around the country, and we are 
developing a broader effort known as the Transportation, 
National Transportation Knowledge Network, to as much as 
possible maximize that connectivity.
    So we are moving very aggressively down this road of 
finding databases around the country that are relevant to 
transportation decision making, making sure that the widest 
range of stakeholders has access to them, and we want to 
continue to build on that. We feel that these are very highly-
leveraged dollars. In other words the investment we make in 
setting up frameworks for this kind of communication has a very 
high payoff because we are providing access to information that 
essentially already exists and can be much more applicable when 
you provide better access to it.
    Mr. Lipinski. Thank you, Mr. Appel. Thank you, Mr. 
Chairman.
    Chairman Quayle. Thank you, Mr. Lipinski.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Fleischmann, for five minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman, Ranking Member 
Wu. Panel, thank you very much for being here this morning. 
This is very important to me. This morning I found out that I 
am going to be serving on the Transportation and Infrastructure 
Committee in addition to this Committee and very excited about 
that. In addition to that, ORNL, the lab, is in my district, 
third district in Tennessee, and I know they do a lot of 
research.
    I am trying to get a handle on, and I want to hear from all 
of you all about this. What do you think is--and it is a two-
part question, the highest value of research activity that you 
all do or that DOT does, what is the best and in the event that 
we have to cut, which is likely, what should be cut and why?
    So I would like to know what you all think the best is and 
where you think if we have to cut, what should go and why? And 
Mr. Appel, I will start with you, sir.
    Mr. Appel. That question would take a lot of thought. We 
have--I mentioned earlier in my testimony that we have 14 what 
are known as research clusters, basically different scientific 
disciplines of research that all contribute to the overall 
research efforts, and so for example, a couple of the clusters 
involve human factors like lifting the effect of fatigue on 
either a truck driver or a pilot of an aircraft. So that is a 
human factors cluster.
    Or there might be--there is a cluster more towards 
infrastructure, which looks at getting better pavement in a 
roadway that is going to last longer or provide a safer 
environment. It is actually very difficult to compare the 
results of the research in something like human factors or 
pavement design because they come at transportation from very 
different angles, and they both contribute to safety. We are 
not--we try not to be in a position of ranking one versus the 
other. What we try to do is look at the resources we have in 
each area and make the best possible use of those dollars to 
drive the best human factors work, the best infrastructure 
work, the best structure work, and the like.
    So I am not in a position right now to pick one program 
that is the best or one program that could go. I would just say 
that within each scientific discipline we try to prioritize to 
show high-impact work within that discipline.
    But you mentioned Oak Ridge National Lab. I just want to 
take a quick opportunity to thank the people of your district 
for Patricia Hu, who is our new director of the Bureau of 
Transportation Statistics, which is part of RITA, she served on 
the team at Oak Ridge National Lab for close to 30 years, and 
we recruited her last year, and she is now leading our national 
transportation statistics efforts, and we know that she was a 
loss to Oak Ridge National Lab, she is a tremendous gain for 
DOT, and we appreciate it.
    Mr. Fleischmann. Thank you, sir.
    Mr. Halikowski. Mr. Chairman, I assume I am next in line 
for that question. Mr. Chairman, Mr. Fleischmann, I am going to 
give you an answer that I think folks who are looking for a 
definite yes or no probably dislike, and that answer is they 
are all important because about a little over a year ago I 
became Chair of the Standing Committee of Research for AASHTO, 
and when I looked at the picture, it is complex, and it is 
diverse of the types of research that are done for 
transportation, but there is a reason for that.
    The research takes place at many different levels, whether 
it be local, State, or federal, and as we see we have got 
research that these panelists have talked about on technology 
transfer. There is particular research that may be conducted by 
the U.S. DOT. You have various agencies within the DOT with 
transit, highways, safety, motor carrier safety, railroad, and 
innovative technology.
    So it is very difficult to give you a definite answer. To 
say which one of those are the most important depending on 
where you are standing at any particular time it may be very 
important.
    In response to your second question as to which of those I 
would cut, again, my answer would be since they are all 
important, I don't think any of them should be cut. You might 
want to look at perhaps some sort of--if you are going to do a 
reduction, something more proportional along those lines, but 
to pick a particular one out to cut out of the program I think 
is very difficult to do because this research system is very 
intertwined.
    Mr. Fleishmann. Thank you. Mr. Gehr.
    Mr. Gehr. Yes, Mr. Fleischmann. Kind of like the previous 
speaker let me hit your second question first, and I will go 
back to Mr. Wu's question earlier of all of us about how much 
is spent in research in other areas, and while we are not in a 
position to know what that is, I would tell you that if--and I 
will take Mr. Wu's word that it is one percent of the Federal 
Transportation Bill spent on research, I will also say that 
about one percent of our GDP is invested in transportation in 
this country.
    And while I would not suggest we cut that one percent, in 
fact, it should be increased, I would not suggest that we cut 
the one percent of our federal transportation dollars that are 
going to research because they are all important.
    Some of the more important areas, you know, as I mentioned, 
the Long-Term Bridge Performance Program, which is a long-term, 
20-year program, needs to keep moving forward. Bridges are 
critical elements of our transportation system, whether it is 
for highways or transit or rail. All of those systems have 
bridges associated with them, and all it takes is for one 
bridge to go out, and you have lost an entire system. So that 
should continue as a very critical element.
    The Intelligent Transportation System Program, again, is 
another long-term investment looking to the future to make the 
more--most effective and efficient use of the systems that we 
have, and that is what technology does for us. We have to look 
beyond the short term to do that. We have to look at the very, 
very long term, and the federal labs such as ORNL and some of 
the others working on concert with the State DOTs, the Federal 
Government, and even those of us in the private sector are 
looking at those kinds of issues, and so they, too, should 
continue and not be cut.
    Mr. Fleischmann. I think my time is up, isn't it, Mr. 
Chairman, or------
    Chairman Quayle. Your time has expired, Mr. Fleischmann.
    Mr. Fleischmann. Yes, sir. Thank you all.
    Chairman Quayle. Thank you, Mr. Fleischmann.
    The chair now recognizes the gentleman from Minnesota, Mr. 
Cravaack, for five minutes.
    Mr. Cravaack. Thank you, Mr. Chair. Appreciate you allowing 
me to be here a little bit late. Sorry. I was in another 
committee, so may apologies to the panel.
    Ms. Peterson, thank you very much for being here, and I 
just have a couple questions. Very interesting in my district 
is the mileage charge, and could you kind of tell me how much 
it would cost to actually implement a program such as that? I 
live in a very rural community. Going to the grocery store 
might be an hour event, so if you could comment on that, I sure 
would appreciate it.
    Ms. Peterson. Chairman Cravaack, the--Oregon has been 
looking at this in very small steps towards a vehicle miles-
based utility fee. We started with two very small communities 
in Oregon and looked at the effectiveness of it and how it 
would be implemented.
    I think the question that you have raised is the question 
that our legislature has raised. I think that what we have done 
is we have looked to two more small steps. One is to in this 
legislative session that ends in a couple of weeks, one is to 
charge electric vehicle users a VMT because right now they are 
not paying anything, so the legislature is still mulling over 
how that would work, and it wouldn't have been implemented if 
passed until 2017.
    So because of those questions that you raised and others 
that have been raised around privacy, how do you actually 
implement a system where people's information is protected. So 
we are working towards the answers to those questions.
    The other issue specifically on costs for the entire system 
was something that was going to be looked at in the five years 
between now and implementation.
    The second part of the proposal was to do an opt-in, a 
voluntary opt-in, whether you are electric or a gas-powered 
vehicle, and the rate that they were talking about charging 
that would be equivalent to a gas tax was about $1.60 per--I am 
sorry. One point six cents and that was too high in the 
estimation of the electric vehicle folks in terms of getting an 
incentive over the next five years to get those vehicles out on 
the road. So we were looking at having that and then bringing 
it up over time.
    So that is where it is right now. It is still in 
conversation. I think what we are going to end up with is an 
all-voluntary opt-in, second-stage program. But in the rural 
communities I highly doubt we would get any voluntary opt-in. I 
think this is more geared at this point towards the urban 
areas.
    Mr. Cravaack. Okay, and just to--make sure I understand, 
you really don't know what your initial upfront costs will be 
for the capital investment?
    Ms. Peterson. No, because I think what they would do once 
given permission from the legislature is go out for an RFP.
    Mr. Cravaack. Okay. All right.
    Could I get just some other comments from the panel on what 
your feelings are in regards to a mileage tax versus how we 
currently tax right now and what moving forward, obviously we 
have to take care of our infrastructure. It is vital we take 
care of our infrastructure, but can you give us some comments 
on what you are feelings are regarding mileage-based tax and 
how it can be--actually be implemented.
    Mr. Appel. From the research and technology perspective at 
U.S. DOT we come at it from a perspective of if we look at 
intelligent transportation systems infrastructure that will 
help relieve congestion, help improve safety, we want to ensure 
that any investments we make in technology provide the maximum 
flexibility for different financing systems moving forward.
    So from the research perspective I don't want to weigh in 
specifically on what form of financing is the best versus 
another, but what I do want to say is that we want to look at 
technologies that are as accommodating as possible to whatever 
the future environment would look like, and one great thing 
about intelligent transportation system investment is the 
benefits can really extend to future frameworks that we might 
not even anticipate today. If we put in a good infrastructure 
that involves good communication between vehicles and 
infrastructure, it can accommodate lots of ways of doing 
business in the future.
    Mr. Cravaack. With that said, can you ensure the privacy of 
the U.S. citizen at the same time?
    Mr. Appel. We think that is a fundamental priority of any 
intelligent transportation system. If an intelligent 
transportation system technology is about safety and efficiency 
and environmental sustainability and good finance and 
techniques, it requires the buy-in from the users, from the 
people, and in order to get that buy-in we need to absolutely 
ensure privacy. So that will be top of our list for any 
implementation.
    Mr. Cravaack. Thank you. Appreciate that.
    Mr. Halikowski. Mr. Chairman, a VMT issue is something that 
I think you have to look at from a national perspective. 
Certainly the technology I think is probably there to do such a 
system, but as you point out, Mr. Chairman, Mr. Cravaack, there 
are many, many other questions that go into what you do with 
the VMT system involving the number of miles traveled in less 
populated areas, privacy, all of those issues.
    However, having said that, the other fundamental question 
we face, of course, is does gasoline tax as a method of funding 
transportation continue to be the workhorse it was since the 
1950s, and the answer to that is obviously with an 18.4 cent a 
gallon federal gasoline tax, fuel, economy, and inflation 
continues to erode that. Whether it is VMT or some other 
solution, there is a funding gap that has to be addressed. All 
of them have difficult questions surrounding them.
    Mr. Gehr. Mr. Cravaack, I would agree. I have been in 
transportation for 40 years in this country. We have been 
talking about the death of the gas tax for most of that time. 
When that comes, I don't know, but it still has to be part of 
the mix.
    But at the same time, you know, through the research that 
we are talking about today, we need to investigate all other 
options available to us, you know, for augmenting revenues for 
transportation. VMT is one, and yes, the technology is there, 
it can be done, but as in many of these it is more the 
institutional issues on, you know, how you collect it, how you 
distribute the revenues, and the privacy issues, and those 
sorts of things that become more and more difficult or more 
difficult than the technology aspects.
    So it is VMT that we are talking about today, and it may be 
something else tomorrow, but all of those other issues need to 
be dealt with as they are moving forward.
    Ms. Peterson. I would just add that Oregon was the first 
State in the union to have a gas tax, so the fact that we are 
looking to move away from it, I mean, it shows you the 
difficulties in transportation as a utility model. We just 
don't have it set up, and so as resources get tight, you know, 
with federal government aid, just like sewer and water we need 
to figure out how do we provide the infrastructure as a 
utility.
    Mr. Cravaack. Well, thank you very much, and thank you for 
the indulgence, Mr. Chair.
    Chairman Quayle. Thank you, Mr. Cravaack.
    I would like to thank the witnesses today for their 
valuable testimony and to the Members for their questions. The 
Members of the Subcommittee may have additional questions for 
the witnesses, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments from Members. The witnesses are excused, 
and this hearing is adjourned. Thank you.
    [Whereupon, at 11:19 a.m., the Subcommittee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Honorable Peter Appel, Administrator, Research and 
Innovative Technology Administration, U.S. Department of Transportation

Questions submitted by Chairman Ben Quayle

Q1.  You mentioned in your testimony that one of the Administration's 
goals is to ``simplify the existing surface transportation research 
program.'' Could you elaborate on what this means? Please provide 
details.

A1. As detailed in the Department's technical assistance provided to 
the Committee, the Administration seeks to maximize the effective use 
of scarce surface transportation research resources by eliminating the 
multiple earmarks, designations and funding categories as found in 
Title V of the Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy For Users (SAFETEA-LU). As has been often shown, 
the over-designation of Title V resources within SAFETEA-LU's multiple 
programs has severely limited the Department's ability to apply 
resources where they are most needed to address the most urgent 
national transportation research needs.

    In addition to pursuing the research principles I noted in my 
testimony, the Department specifically seeks to:

    <bullet>  Authorize the Secretary to develop and implement 
incentives to accelerate multimodal deployment of Intelligent 
Transportation Systems (ITS) technologies and research results flowing 
from the ITS Research Program, and to enhance transportation 
investments and the return on those investments.

    <bullet>  Focus the Federal role by restructuring the highway 
research and technology development and deployment program activities 
in the following core areas:

       1.  Improving highway safety,

       2.  Improving infrastructure integrity,

       3.  Strengthening transportation planning and environmental 
linkages,

       4.  Reducing congestion, improving highway operations, and 
enhancing freight productivity,

       5.  Assessing policy and system financing alternatives, and

       6.  Exploring next generation solutions, capitalizing on the 
Turner-Fairbank Highway Research Center, aligning national challenges, 
and disseminating information.

    <bullet>  Authorize a highway technology and innovation deployment 
program to test, evaluate, and accelerate the delivery and deployment 
of technologies ready to be implemented or in the last stages of 
development.

    <bullet>  Focus the transit research program on nationally 
significant research, development, demonstration, deployment and 
evaluation projects that the Secretary determines will improve public 
transportation.

    <bullet>  Enable cooperative research and evaluation programs 
addressing priority highway safety countermeasures.

    <bullet>  Conduct motor vehicle safety research, development, and 
testing programs and activities, including new and emerging 
technologies that may impact motor vehicle safety.

Questions for the Record from Representative Lamar Smith


Q1.  Some competing legislative proposals before the Congress seek to 
extend the federal weight limit on trucks to 97,000 pounds while 
equipping the tractor-trailer with an additional sixth axle. Such a 
weight increase and lengthening of tractor-trailers raises several 
safety concerns, especially with the wear and tear on brakes of such 
trucks and ability of such larger trucks to operate safely on our roads 
with other vehicles. However, larger semi-trucks would generally mean 
fewer trucks on the road, which could also save money in operating a 
fleet of such trucks.

   a.  Has the Department of Transportation researched the pros and 
cons of increasing vehicle weight limits on tractor-trailers? 

   b.  Has the Department reached any conclusions based on this 
research about the economic benefits and ability of trucks with 
increased weight limits to operate safely?

A1. On the National Network, which covers approximately 200,000 miles, 
States are required to allow access to commercial motor vehicles (CMV) 
that have a 48-foot trailer or twin 28-foot trailers, and are up to 102 
inches wide. On the Interstate Highway System, a subset of the National 
Network, Federal law limits the gross vehicle weight of CMVs to 80,000 
pounds (there are, however, multiple grandfathered provisions allowing 
higher weights in various States). There is no Federal weight 
restriction on the rest of the National Network or on State and local 
roads beyond the National Network.

    In some legislative proposals, a 6th axle is proposed to be added 
to the tractor-trailer combination, to form a tridem axle arrangement 
at the rear of the trailer. The Department of Transportation researched 
the potential impacts of changing truck size and weight in the 2000 
Comprehensive Truck Size and Weight (CTSW) Study, and has recently done 
additional analysis on pavements. The CTSW study examined impacts on 
pavement, bridges, roadway geometry, safety, traffic operations, rail 
freight, shipper costs and vehicle miles traveled for several 
scenarios. The 97,000-pound 6-axle tractor semitrailer was one of the 
configurations analyzed in the international scenario (see Figure 1). 
This scenario allowed up to 51,000 pounds on a tridem axle group for a 
4-axle short wheel base truck, an 8-axle double trailer truck and the 
6-axle tractor semitrailer. Regarding pavement impact, follow-up 
analyses related to pavements found that tridem axles do not result in 
more pavement damage than tandems. However, the loading of the trailer 
is critical. If the trailer is evenly loaded with the additional 
weight, it results in the load on the forward tandem being greater than 
the 34,000 pounds currently allowed and less than 51,000 pounds on the 
rear tridem. This overload on the forward tandem axles will cause 
additional pavement damage.

    Regarding bridge impact, a 6-axle 53-foot tractor semitrailer 
configuration would not meet the current Federal Bridge Formula B (BFB) 
and would not be allowed to operate on the Interstate system. To remain 
within the requirements of the BFB, the trailer would need to be 
lengthened to 59 feet and the rear tridem spread to 20 feet (see Figure 
2). Even though this extended configuration would conform to the BFB, 
the configuration would increase the stresses on most bridges by up to 
15 percent more than the stresses produced by the currently legal 
80,000-pound 5-axle tractor semitrailer. Additionally, due to the 
spacing of the tridem axles the tires would scrub and chaff, causing 
the vehicle to handle very poorly in turns. A 59-foot trailer would 
also present safety and roadway geometry challenges, as the turning 
radius for this configuration would be increased compared to a current 
53-foot trailer and would require a change to current law to amend the 
length restrictions in almost all States.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Based on current research, the Department has not reached final 
conclusions concerning the ability of trucks with increased weight 
limits to operate safely. However, the Federal Highway Administration 
and the Federal Motor Carrier Safety Administration have found that 
loading additional weight within existing trailer dimensions raises the 
center of gravity, increases rollover propensity and reduces vehicle 
stability and control. There are significant safety concerns when a 
used tandem rear axle trailer is modified to a 3-axle trailer (by 
addition of an axle), as the trailer may not be structurally sufficient 
to withstand the added stresses placed on the frame and body when 
turning and braking due to the added 17,000 pounds (approximately 20 
percent) of weight.

    The commercial truck roadside inspection vehicle Out-of-Service 
rate for trucks for 2010 was 20.3 percent, meaning that over 1 in 5 
trucks inspected were placed Out-of Service for vehicle-related safety 
deficiencies. Raising the Federal weight limits on trucks will not 
improve the safety of the motoring public without commensurate 
increases in commercial truck safety enforcement programs.

    From a fleet perspective, versus that of an individual truck, 
allowing higher productivity trucks will result in less fuel 
consumption, emissions reduction, and fewer trucks on the road for a 
given tonnage of freight. Balancing these economic benefits with safety 
and infrastructure preservation concerns is the challenge in adjusting 
CMV weight limits.

Questions submitted by Representative Randy Neugebauer


Q1.  Secretary LaHood recently decided to discontinue funding in FY 
2011 for University Transportation Research Centers (UTC) and make the 
program completely competitively-funded. I believe competition is a 
good thing, and is a driving force behind the innovation and prosperity 
our country has always enjoyed. I understand that UTC's structure may 
be reworked in the next surface transportation authorization bill, on 
which the Transportation and Infrastructure Committee is working 
tirelessly. Since this issue may come up again, I'm interested in 
knowing how the Department of Transportation proposes to ensure 
continuity and stability of transportation research during the 
transition period to implement Secretary LaHood's decision. How do you 
plan to make sure of that? Additionally, how can you make certain that 
current research initiatives will not be disrupted as a result of the 
changes?

A1. The FY 2011 UTC competition is a primary vehicle for ensuring the 
continuity and stability of transportation research during the 
transition period. In light of the determination that a project or 
activity received sufficient funds to carry out the purpose for which 
the project or activity was authorized, the Secretary is using program 
funds to continue the competitive component of the UTC Program per 
SAFETEA-LU Sections 5506(e) and (f) to ensure that a strong cadre of 
university-based transportation research and education programs receive 
funding. At the same time, RITA continues its work with existing UTCs 
during their grant closeout periods. This will ensure that ongoing 
research projects are completed and that existing UTCs can meet the 
commitments they have made to graduate-level students working towards 
advanced degrees in transportation.

    Relative to the upcoming UTC competition, RITA formed a multi-modal 
task group which includes the Federal Transit Administration (FTA), 
Federal Highway Administration (FHWA), Maritime Administration (MARAD), 
Federal Railroad Administration (FRA), National Highway Traffic Safety 
Administration (NHTSA), Federal Motor Carrier Safety Administration 
(FMCSA), Pipeline and Hazardous Materials Safety Administration 
(PHMSA), and the Office of the Secretary (OST). The group was charged 
with developing priority research areas, based upon U.S. DOT strategic 
goals, for the UTC Program Request for Proposals (RFP) that was 
published on Grants.gov on July 26, 2011.

Q2.  An important aspect of maximizing return on investment in research 
and development is identifying and addressing duplicative programs. How 
does the Department of Transportation identify redundancies? Can you 
assure us that they will be addressed properly? Since other agencies 
conduct similar transportation-related research, could you explain how 
DOT coordinates with other offices to leverage resources and eliminate 
duplicative efforts?

A2. The Department coordinates research in a variety of ways--
internally, across the Administration and with stakeholders. Through 
the Research, Development & Technology (RD&T) Planning Council and RD&T 
Planning Team, the Department addresses critical research areas and 
ensures that RD&T resources are invested wisely to achieve measurable 
improvements in our Nation's transportation system.

    The RD&T Planning Council is composed of the heads of the operating 
administrations, and other senior DOT leaders. It works to ensure 
coordination at the highest levels of the Department. The RD&T Planning 
Team is comprised of each operating administrations' Associate 
Administrators for RD&T. Through monthly meetings the Planning Team is 
aware of each other's RD&T activities and can identify additional 
opportunities for coordination and collaboration. The RITA 
Administrator chairs the Planning Council and RITA's Associate 
Administrator for RD&T chairs the Planning Team. Working together, 
these two entities create an environment of cross-modal planning and 
collaboration of Departmental RD&T. This collaborative environment 
identifies, addresses redundancies, and adds significant value as 
research leaders come together and learn from one another.

    In addition, U.S. DOT engages in cooperative and joint research 
with stakeholders and partners across the transportation sector, 
including other Federal agencies, State and local agencies, academia, 
industry, and not-for-profit institutions, including the American 
Association of State Highway and Transportation Officials (AASHTO), the 
Transportation Research Board (TRB), and the American Public 
Transportation Association (APTA).

    During the past year and working closely with the Planning Team, 
RITA formed 14 Research Clusters. These clusters were departmentally-
funded and composed of U.S. DOT elements and stakeholder researchers 
which facilitated information sharing and research collaboration at a 
working level. A key component of the effort is a social media portal 
http://www.transportationresearch.gov/dotrc/default.aspx, which is 
fostering cross-cutting, multi-modal collaborations among RD&T 
stakeholders, both inside and outside of the Department. Furthermore, 
RITA convenes bimonthly, DOT-only meetings of these clusters to improve 
information sharing and collaboration within the Department.

    RITA actively works to move transportation research and 
technologies into the marketplace. When making research grants, RITA 
requires all of its grantees to submit research in progress and final 
research reports to TRB's Transportation Research International 
Documentation (TRID) database and the Research in Progress (RiP) 
database, both of which are publicly searchable. TRID, which contains 
published research reports, is the world's largest and most 
comprehensive bibliographic resource on transportation information. RiP 
contains abstracts of transportation research in progress, and allows 
researchers and other users to search for proposed research ideas in 
order to foster collaboration and reduce duplicative research projects. 
RITA uses the TRID and RiP databases to serve as a repository for all 
research conducted by the UTC and Advanced Research Programs, including 
final peer-reviewed research reports and research that is in progress. 
RITA also encourages other modes to do the same.

Questions submitted by Representative Daniel Lipinski


Q1.  Could you elaborate on the recently initiated Transportation 
Technology Transfer program at the Research and Innovative Technology 
Administration (RITA)? How does this program enhance DOT's ability to 
identify and support technology transfer or product commercialization 
of University Research Centers? Is there a need for a single transfer 
technology coordinator to unify DOT's diverse efforts across the modes?

A1. RITA initiated and is now leading U.S. DOT's technology transfer 
efforts in support of its mission, the Technology Transfer 
Commercialization Act of 2000 (42 U.S.C. 7261(c), and the Stevenson-
Wydler Technology Innovation Act of 1980 (15 U.S.C. 3701 et seq.). RITA 
is actively involved in technology transfer activities within and 
outside the Department, a few examples are:

    <bullet>  Initiating the transfer of research into application;

    <bullet>  Engaging the DOT laboratory representatives in 
discussions about establishing an intra-DOT working group to refine the 
technology evaluation process;

    <bullet>  Leading webinars for Departmental researchers to share 
their results widely; and

    <bullet>  Involvement of RITA's Office of Chief Counsel (OCC) on 
intellectual property issues. (DOT Order 1100.75A, September 30, 2008, 
specifically identifies that the OCC ``provides legal advice to the 
RITA Administrator and provides a comprehensive program of legal 
services to RITA and intellectual property legal services to the U.S. 
Department of Transportation.'')

    Also, RITA works with other Federal agencies on technology transfer 
activities. RITA's roles include being U.S. DOT's representative in the 
Federal Laboratory Consortium for Technology Transfer and an active 
participant in the Inter-agency Working Group on Technology Transfer, 
which is chaired by the Department of Commerce. Through these efforts 
and others, RITA is finding ways to leverage technology transfer 
practices from other Federal agencies to the Department.
    Within U.S. DOT, RITA works closely with other operating 
administrations in support of university research centers. RITA 
organizes events for university researchers to demonstrate their work, 
particularly the work that has been deployed or is in the final stages 
of deployment.
    Recently, at U.S. DOT, RITA hosted an event at which over 85 
university researchers from 25 different universities demonstrated 
their deployed technologies through exhibits and presentations. The 
event's theme was Technology Transfer and the presentations highlighted 
the deployment process.
    Further, universities must inform the Department of potential 
inventions developed from Federal funding by submitting invention 
disclosures. This is a mechanism by which U.S. DOT tracks technology 
transfer activities of Federally-funded research to ensure that the 
appropriate ``interest'' language is included with provisional or full 
patent applications. Interest language clearly identifies that the 
Department has an interest in the invention and that ``the Federal 
agency shall have a nonexclusive, nontransferable, irrevocable, paid up 
license to practice or have practiced for or on behalf of the United 
States any subject invention throughout the world.'' 35 U.S.C. Sec.  
209(d)
    The Norman Y. Mineta Research and Special Programs Improvement Act 
(P.L. 108-426, 118 Stat. 243, November 30, 2004) specifically grants 
powers and duties to RITA, powers and duties as prescribed by the 
Secretary for ``coordination, facilitation and review of the 
Department's research and development programs and activities'' [The 
Mineta Act, Sec.  4(a)(2), Powers and Duties of the Administrator]. 
Part of RITA's mission is to coordinate and foster research activities 
across all DOT modes, thus the modes are inherently RITA's internal 
stakeholders. These stakeholders play major roles in the diverse areas 
of the Department's research, and regardless of technology-transfer 
application, the technology transfer process will be similar. There are 
multiple means that RITA uses to effect technology transfer 
coordination with the modes; a technology transfer coordinator 
dedicated to improving the Department's technology transfer and 
commercialization results is one of those means.
Responses by Mr. John Halikowski, Director, Arizona Department of 
        Transportation;
Chair, American Association of State Highway and Transportation 
        Officials 
Standing Committee on Research

Questions submitted by Chairman Ben Quayle

Q1.  According to your testimony AASHTO recommends the maintenance of 
the State Planning and Research Program in its current, formula-based 
configuration with a 25 percent minimum set aside for research, 
development, and technology transfer activities. What do you think the 
federal investment in research should be as a percentage of all highway 
programs?

A1. Currently, less than 1% of the federal-aid highway program is spent 
on highway research by the Federal Highway Administration and the 50 
states through their federally funded state planning and research 
program. Supplemented with significant additional funds from state, 
local, and private funding sources, the US transportation research 
program has been and will continue to be efficient and effective in 
providing us with solutions and advancing the technical knowledge 
needed to keep our system running smoothly. The State DOTs rely heavily 
on research that leads to practical solutions to their most challenging 
problems, and it is critical to ensure that the discoveries made 
through this research are communicated and transferred into practice.
    As mentioned in the question, SAFETEA-LU requires that States set 
aside 2 percent of the apportionments they receive from the Interstate 
Maintenance, National Highway System, Surface Transportation, Highway 
Bridge, Congestion Mitigation and Air Quality Improvement, and Equity 
Bonus programs for State planning and research activities. Of this 
amount, States must allocate 25 percent for research, development, and 
technology. These activities involve research on new areas of 
knowledge; adapting findings to practical applications by developing 
new technologies; and the transfer of these technologies, including 
dissemination, demonstration, training, and adoption of innovations by 
users.
    The current funding formula allows the transportation research 
program to ebb and flow with the size of the overall transportation 
program. While there is not enough funding for transportation in 
general to make needed improvements to our system, the proportion of 
research funding to overall funding has worked well in the past and we 
feel it will continue to allow for reasonable research and 
implementation efforts.

Q2.  Many of the witnesses mention that most states have instituted 
some type of performance management process, but these are not 
standardized. Does the Federal DOT require any performance measurements 
or evaluation when states applying for or after they receive research 
funding? What would states need to help standardize this process?

A2. Currently, one of the requirements for using State Planning and 
Research (SP&R) funds is that the State DOT must develop its own unique 
management plan. This management plan establishes a process for 
conducting its research and technology (R&T) program. The processes 
that State DOTs use to manage their research programs vary based on 
such factors as the size and complexity of the program. Procedures also 
vary from State to State for developing the management plan and 
selecting needed research projects. Most States work with universities 
and other stakeholders as part of their research program.
    Although States tailor their management processes to fit their 
individual needs, FHWA \1\ has established minimum requirements for 
this process. The Federal Highway Administration (FHWA) Division 
Administrator certifies the State's management plan before it is 
implemented. The proposed use of planning and research funds must be 
documented by the State DOTs and any subrecipients of the funding in a 
work program that is acceptable to FHWA. Title 23, CFR Section 420.207, 
states that a State DOT's research, development, and technology (RD&T) 
work program must, at a minimum, consist of a description of the RD&T 
activities to be accomplished during the program period, estimated 
costs for each eligible activity, and a description of any cooperative 
activities, including the State DOT's participation in any 
transportation pooled fund studies, technology transfer activities, and 
the National Cooperative Highway Research Program (NCHRP). During the 
development of the work program, States are required to search the 
Transportation Research Board's (TRB) Transportation Research 
Information Services (TRIS) database to ensure that another State is 
not already conducting the planned research.
---------------------------------------------------------------------------
    \1\ http://www.fhwa.dot.gov/publications/research/general/spr/
staterd.cfm
---------------------------------------------------------------------------
    In addition to these current requirements, the state DOTs, through 
AASHTO, have also identified a number of areas where coordinated, 
collaborative strategic policy research is needed. These areas include 
such traditional engineering-related topics as safety, preservation, 
and project delivery, but also performance management to ensure that we 
manage our systems as efficiently and effectively as possible. 
Performance goals are different from state to state based on the goals 
each is trying to achieve, the research they are conducting, the gaps 
in knowledge they need to fill to advance their particular programs, 
etc. At the national level, performance measures must be general enough 
to encompass the wide variety in programs and goals across the country. 
Thus, standardizing each state's process so that it becomes one-size-
fits-all will not be as effective as if each state develops its own 
processes to meet its own needs.
Responses by Mr. David Gehr, Senior Vice President, Highway Market,
Parsons Brinckerhoff; Chairman, American Society of Civil Engineers
Transportation Policy Committee 

Questions submitted by Chairman Ben Quayle

Q1.  In your opinion is the current UTC system overly focused on 
applied research in order to meet the needs of the state, instead of 
long-term national goals to create transformation technologies? Besides 
increasing the federal cost share, what other policy changes might 
allow the research conducted by the UTCs to be more focused on long-
term national needs instead of immediate ones? What other 
recommendations do you have to ensure the UTCs are conducting research 
for the greatest benefit?

A1. ASCE is concerned that the current UTC program is overly focused on 
applied research, which while meeting the needs of states, does not 
properly address the long-term, high risk research that will create 
transformational technologies and push forward the nation's surface 
transportation system. Much of the technology necessary for a future 
surface transportation system already exists, however UTCs can properly 
apply that technology for the greatest benefit of the nation. 
Universities work well in high risk, long term research, which is why 
new legislation should emphasize their role and ensure that the best 
universities are selected through a competitive process.
    Competition will need to be the key component required to have 
UTC's perform the long-term advanced research. The program needs to be 
competitive in order to award approximately forty UTCs through the 
research title and five to ten through the transit title. Additionally, 
the different types of UTCs should be eliminated, in order to allow all 
UTCs in the research title to fall into the same ``tier'' and therefore 
receive the same level of funding. The funding should amount to 
approximately $2 million per center annually. This would provide enough 
critical funding for each center to develop significant, long-term 
research projects, rather than projects that only last one year.
    Additionally, in order to have UTC's do more collaborative research 
that is advanced in nature, the silos that exist in transportation 
research should be broken down, to expand the allowance for federal 
funds to match UTC federal funding. In SAFETEA-LU, State Planning and 
Research funds that go to state departments of transportation are 
allowed to match federal UTC funding, as is funding that goes to the 
states to support the Local Technical Assistance Program. In the 
upcoming authorization bill these funds should not be allowed to match 
federal UTC funding, but federal funds from other cabinet level 
agencies, for instance the Department of Energy or Department of 
Commerce, should be allowed to match federal UTC funding. This will 
encourage expanded, multi-disciplinary, advanced research.

Q2.  Many of the witnesses mentioned that most states have instituted 
some type of performance management process, but they are not 
standardized. Does the Federal DOT require any performance measurements 
or evaluation when states applying for or after they receive research 
funding? What would states need to help standardize this process?

A2. ASCE is not familiar with the Federal DOT process for performance 
measurements or evaluations. In general, ASCE is broadly supportive of 
the inclusion of performance measurements, as it is a critical part of 
good governance, however the organization does not have a policy on the 
matter. Setting certain measurements and requiring evaluations to take 
place over the course of a research program allows for the government 
to guarantee that funding is being properly utilized. This level of 
transparency should be essential to any government program. It should 
be noted however, that measurements and evaluations during the course 
of research should not create an undue burden on research facilities, 
to the point that research results would be delayed. The federal 
government should use caution in developing performance measurements 
that could become another ``unfunded Federal mandate'' on the states. 
The measures should also have a degree of flexibility to allow for the 
measurement to be tailored to the research being performed and not a 
standard one size fits all type of approach.
Responses by Dr. Irwin Feller, Professor Emeritus of Economics,
Pennsylvania State University; Senior Visiting Fellow, American
Association for the Advancement of Science

Questions submitted by Chairman Ben Quayle

Q1.  In your testimony you remark that is it difficult to evaluate the 
value of transportation research because there is very little evidence 
to make a convincing case for its value. Can you explain what it would 
take to increase the evidence base?

A1. Prefacing my answer to the question, ``Can you explain what it 
would take to increase the evidence base (on the value of 
transportation research)?, is again the qualifier contained in my 
written testimony that I have not conducted an extended literature 
review, and that there may be studies on the value of transportation 
research with which I am not familiar. More generally though, basing my 
answer on experiences with what has underlain evidence-based studies 
from other Federal agencies, I see 1 short-term and 1 long-term 
approach as offering a productive, complementary means of generating 
the desired evidence.
    The short-term approach is to organize a more extensive and 
systematic review of the evidence on the value of transportation 
research than I am currently able to provide and to compare and 
contrast the methodologies and data bases found in this review with the 
state-of-practice currently employed by other Federal agencies. I have 
participated in or consulted similar such efforts for NIH, NSF, DOE, 
USDA, and NIST, and see few obstacles for conducting such an exercise 
for DOT. One standard approach would be for RITA to contract for such a 
literature review. Far preferable in my view would be to follow the 
practice of other Federal agencies and have RITA contract with the 
National Academies for such a workshop.
    The longer term approach is for RITA to develop an evaluation 
program element specifically designed at providing systematic evidence 
of the value of transportation research. Here the preferred approach in 
my view would be to couple a strengthening of RITA's internal 
evaluation capabilities with allocating via a competitive process some 
portion of UTC funds to those centers that develop a specialized 
capacity for program/project evaluation.

Q2.  In your opinion, is the current UTC system overly focused on 
applied research in order to meet the needs of the states, instead of 
long-term national goals to create transformational technologies? 
Besides increasing the federal cost share, what other policy changes 
might allow the research conducted by the UTCs to be more focused on 
long-term national needs instead of immediate ones? What other 
recommendations do you have to ensure the UTCs are conducting research 
for the greatest benefit of the nation? 

A2. My earlier testimony that the UTC system is overly focused on 
applied research in order to meet the needs of the states, based in 
large part on review of written TRB reports and interaction with 
transportation practitioners during my service on the RTCC, has been 
reinforced by my subsequent interactions with UTC administrators, who 
have confirmed and detailed this assessment. Increasing the federal 
cost share is only part of what needs to be done to have the UTCs 
direct their activities at national goals to creative transformational 
technologies. Indeed, without additional policies/requirements, simply 
increasing the federal share may allow states to further leverage their 
modest investments to shape local rather than national research 
objectives.
    Two additional, complementary steps, at a minimum are required to 
guide the UTCs to national objectives. First, UTC awards should be 
based on competitive, merit-review processes with proposals evaluated 
on the basis of their potential to achieve stated national 
transportation research objectives. Thus, following a consultative 
process involving stakeholders, members of the transportation research 
community, and researchers in cognate fields (e.g., materials 
research), DOT should identify and prioritize a set of national 
transportation research needs, allowing room for blue sky initiatives, 
towards which existing UTCs can respond. Selection panels likewise 
should be constructed broadly of individuals qualified to judge the 
national potential of the proposals under review. The second step is to 
establish formal review criteria to assess performance under an award, 
with substantive penalties, including termination, for non-performance, 
and to construct review panels broadly representative of the user and 
performer communities.
Responses by Ms. Lynn Peterson, Transportation Policy Advisor,
Office of Governor John Kitzhaber (OR)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Additional Material for the Record
Statement Submitted by Representative Randy Neugebauer

    Mr. Chairman, thank you for holding this Technology and Innovation 
Subcommittee hearing on transportation research priorities. In a time 
that calls for severe fiscal restraints and strict consideration of all 
federally funded programs, prioritizing projects and maximizing return 
on investment is more important than ever. American families are being 
forced to stretch each and every dollar as far as they can, and the 
federal government should be doing the same. As such, I believe that 
this hearing is timely, I expect that we will hear important ideas on 
how we can improve the effectiveness of our transportation research 
investments, as well as how programs are currently undergoing efforts 
to make the most out of the funding they receive.
    Administrator Appel: Secretary LaHood recently decided to 
discontinue funding in FY 2011 for University Transportation Research 
Centers (UTC) and make the program completely competitively-funded. I 
believe competition is a good thing, and is a driving force behind the 
innovation and prosperity our country has always enjoyed. I understand 
that UTC's structure may be reworked in the next surface transportation 
authorization bill, on which the Transportation and Infrastructure 
Committee is working tirelessly. Since this issue may come up again, 
I'm interested in knowing how the Department of Transportation proposes 
to ensure continuity and stability of transportation research during 
the transition period to implement Secretary LaHood's decision. How do 
you plan to make sure of that? Additionally, how can you make certain 
that current research initiatives will not be disrupted as a result of 
the change?
    An important aspect of maximizing return on investment in research 
and development is identifying and addressing duplicative programs. How 
does the Department of Transportation identify redundancies? Can you 
assure us that they will be addressed properly? Since other agencies 
conducted similar transportation-related research, could you explain 
how DOT coordinates with other offices to leverage and eliminate 
duplicative efforts?

    Thank you.


                                 <all>





</pre></body></html>
